<html>
<title> - THE WAR ON POVERTY: A PROGRESS REPORT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                          THE WAR ON POVERTY:
                           A PROGRESS REPORT
=======================================================================

                                HEARING
                               BEFORE THE

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 31, 2013

                               __________

                            Serial No. 113-8

                               __________

           Printed for the use of the Committee on the Budget



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                       Available on the Internet:
www.gpo.gov/fdsys/browse/committee.action?chamber=house&committee=budget

                              __________


                    U.S. GOVERNMENT PRINTING OFFICE
81-981 PDF                    WASHINGTON : 2013
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb8c9b84ab889e989f838e879bc5888486c5">[email&#160;protected]</a>  










                        COMMITTEE ON THE BUDGET

                     PAUL RYAN, Wisconsin, Chairman
TOM PRICE, Georgia                   CHRIS VAN HOLLEN, Maryland,
SCOTT GARRETT, New Jersey              Ranking Minority Member
JOHN CAMPBELL, California            ALLYSON Y. SCHWARTZ, Pennsylvania
KEN CALVERT, California              JOHN A. YARMUTH, Kentucky
TOM COLE, Oklahoma                   BILL PASCRELL, Jr., New Jersey
TOM McCLINTOCK, California           TIM RYAN, Ohio
JAMES LANKFORD, Oklahoma             GWEN MOORE, Wisconsin
DIANE BLACK, Tennessee               KATHY CASTOR, Florida
REID J. RIBBLE, Wisconsin            JIM McDERMOTT, Washington
BILL FLORES, Texas                   BARBARA LEE, California
TODD ROKITA, Indiana                 DAVID N. CICILLINE, Rhode Island
ROB WOODALL, Georgia                 HAKEEM S. JEFFRIES, New York
MARSHA BLACKBURN, Tennessee          MARK POCAN, Wisconsin
ALAN NUNNELEE, Mississippi           MICHELLE LUJAN GRISHAM, New Mexico
E. SCOTT RIGELL, Virginia            JARED HUFFMAN, California
VICKY HARTZLER, Missouri             TONY CARDENAS, California
JACKIE WALORSKI, Indiana             EARL BLUMENAUER, Oregon
LUKE MESSER, Indiana                 KURT SCHRADER, Oregon
TOM RICE, South Carolina
ROGER WILLIAMS, Texas
SEAN P. DUFFY, Wisconsin

                           Professional Staff

                     Austin Smythe, Staff Director
                Thomas S. Kahn, Minority Staff Director
                            C O N T E N T S

                                                                   Page
Hearing held in Washington, DC, July 31, 2013....................     1

    Hon. Paul Ryan, Chairman, Committee on the Budget............     1
        Prepared statement of....................................     2
    Hon. Chris Van Hollen, ranking member, Committee on the 
      Budget.....................................................     3
        Prepared statement of....................................     5
    Jon Baron, president, Coalition for Evidence-Based Policy....     7
        Prepared statement of....................................     8
    Eloise Anderson, secretary, Wisconsin Department of Children 
      and Families; chair, Secretary's Innovation Group..........    13
        Prepared statement of....................................    15
    Douglas Besharov, professor, University of Maryland School of 
      Public Policy..............................................    19
        Prepared statement of, Internet address to...............    21
    Sr. Simone Campbell, SSS, executive director, NETWORK, a 
      national Catholic social justice lobby.....................    21
        Prepared statement of....................................    23
        Additional submission: ``Priorities for a Faithful 
          Budget,'' Internet address to..........................    79
    Hon. Allyson Y. Schwartz, a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........    64
    Hon. Barbara Lee, a Representative in Congress from the State 
      of California, submissions for the record:
        Tianna Gaines-Turner, chair, Witnesses to Hunger, 
          prepared statement of..................................    64
        Deborah Weinstein, executive director, Coalition on Human 
          Needs, prepared statement of...........................    68
    Hon. Gwen Moore, a Representative in Congress from the State 
      of Wisconsin, submission for the record:
        Citizens for Tax Justice press release, dated April 24, 
          2013, ``Executive-Pay Tax Break Saved Fortune 500 
          Corporations $27 Billion Over the Past Three Years''...    72


                          THE WAR ON POVERTY:
                           A PROGRESS REPORT

                              ----------                              


                        WEDNESDAY, JULY 31, 2013

                          House of Representatives,
                                   Committee on the Budget,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 12:30 p.m., in room 
210, Cannon House Office Building, Hon. Paul Ryan, [chairman of 
the Committee] presiding.
    Present: Representatives Ryan, Price, Garrett, Ribble, 
Rice, Duffy, McClintock, Williams, Rokita, Messer, Blackburn, 
Hartzler, Woodall, Lankford, Pascrell, Castor, McDermott, Lee, 
Cicilline, Jeffries, Pocan, Schrader, Yarmuth, Moore, Lujan 
Grisham
    Chairman Ryan. All right. The hearing will come to order. 
First of all, I would like to ask for unanimous consent that 
members have five calendar days to submit opening statements, 
and that it include any extraneous material for the record, 
without objection.
    Good afternoon, everybody. This looks like a very well-
attended hearing. I expect more of our members to show up as we 
progress.
    Well, why are we doing this? Forty-nine years ago Lyndon 
Johnson declared a War on Poverty. In 1964, he said, quote, 
``We have declared unconditional War on Poverty. Our objective 
is total victory,'' close quote. Later that year he added, 
quote, ``I believe that 30 years from now Americans will look 
back upon these 1960s as the time of the great American 
breakthrough, the victory of prosperity over poverty,'' end 
quote. Well, since then, we have spent $15 trillion on that 
war. So what do we have to show for it? Today 46 million people 
are living in poverty. Twenty million Americans live on less 
than half of the poverty level. For too many families the 
American dream is out of reach. Now that is partly because of 
this recession, but even as the economy picks up steam, 
millions of families are falling farther behind. And many 
communities have been hurting for years, well before this 
recession hit.
    The fact is, we are losing this War on Poverty, and we need 
to know why. This is not about cutting spending, this is about 
improving people's lives. In this country, the condition of 
your birth should not determine the outcome of your life. If 
you work hard and play by the rules, you can get ahead. That is 
something that we all believe in and that we all care about. 
This is the central promise of this country. We want to protect 
that idea, and we want to preserve it for the next generation. 
And government does have a role to play.
    But we have been doing a pretty lousy job. The reason is 
government is focusing too much on inputs. We are focusing on 
the money we spend. Instead, we ought to focusing on results. 
We should focus on how many people we get off of public 
assistance because they have a good job, because they have 
opportunity and upward mobility. The federal government is like 
a giant sedimentary rock. There are layers upon layers of 
programs that have been built up upon each other over time. In 
fact, there are so many of them, and there is so little 
coordination between them that, in many cases, they work 
against each other. In effect, we penalize people for finding a 
job or getting a raise. And even worse, some programs displace 
the efforts of local communities to help families in need. 
Government should not displace these efforts; it should support 
them.
    So I hope today's hearing will start a conversation. Both 
sides need to rethink the government's approach to poverty, 
both sides. How can we support our local communities? How can 
we renew the American Idea? How can we focus on outcomes and 
results, and see those results?
    To that end, I am very pleased to welcome from Wisconsin, 
our secretary, Eloise Anderson, the head of Wisconsin's 
Department of Children and Families. She brings decades of 
experience as a social worker and administrator. We have 
Professor Besharov from the University of Maryland. He brings 
decades of academic expertise. He is well versed in the history 
of these societal challenges and government's response to them. 
We have Jon Baron from the Coalition for Evidence-Based Policy. 
He is a distinguished, non-partisan leader in evaluating 
government programs. I also want to thank Sister Simone 
Campbell for joining us here today as well.
    With that, I would like to recognize the ranking member, 
Mr. Van Hollen, for his opening remarks.
    [The prepared statement of Paul Ryan follows:]

Prepared Statement of Hon. Paul Ryan, Chairman, Committee on the Budget

    Well, good afternoon, everybody.
    Forty-nine years ago, Lyndon Johnson declared war on poverty. In 
1964, he said, ``We have declared unconditional war on poverty. Our 
objective is total victory.'' Later that year, he added, ``I believe 
that thirty years from now Americans will look back upon these 1960s as 
the time of the great American Breakthrough * * * the victory of 
prosperity over poverty.''
    Since then, we've spent over $15 trillion in that war. So what do 
we have to show for it? Well, today 46 million people live in poverty. 
And 20 million Americans live on less than half of the poverty level. 
For too many families, the American Dream is out of reach.
    Now that's partly because of the recession. But even as the economy 
picks up steam, millions of families are falling behind. And many 
communities have been hurting for years--well before the recession hit. 
The fact is, we're losing the War on Poverty. And we need to know why.
    This isn't about cutting spending. This is about improving people's 
lives. In this country, the condition of your birth shouldn't determine 
the outcome of your life. If you work hard and play by the rules, you 
can get ahead. That's something we all believe in. That's something we 
all care about.
    This is the central promise of America. We want to protect that 
idea--and preserve it for the next generation. And government has a 
role to play. But we've been doing a lousy job. The reason is, 
government focuses too much on inputs. We focus on how much money we 
spend. Instead, we should focus on results. We should focus on how many 
people get off public assistance--because they have a good job.
    The federal government is like a giant sedimentary rock. There are 
layers upon of layers of programs that have built up over time. In 
fact, there are so many of them--and there is so little coordination 
between them--that they work against each other. In effect, we penalize 
people for finding a job or getting a raise.
    And even worse, some programs displace the efforts of local 
communities to help families in need. Government shouldn't displace 
these efforts. It should support them.
    So I hope today's hearing will start a conversation. Both sides 
need to rethink government's approach to poverty. How can we support 
our local communities? How can we renew the American Idea?
    To that end, I'm pleased to welcome Secretary Eloise Anderson, the 
head of Wisconsin's Department of Children and Families. She brings 
decades of experience as a social worker and administrator.
    Professor Besharov, from the University of Maryland, brings decades 
of academic expertise. He's well-versed in the history of these 
societal challenges and government's response to them.
    Jon Baron, from the Coalition for Evidence-Based Policy, is a 
distinguished, nonpartisan leader in evaluating government programs.
    I also thank Sister Simone Campbell for joining us today.
    With that, I recognize the ranking member, Mr. Van Hollen, for his 
opening remarks.

    Mr. Van Hollen. Thank you, Mr. Chairman. I want to thank 
Chairman Ryan in welcoming all of our witnesses today. I must 
confess I find the timing of this hearing a little bit strange. 
It was just three weeks ago that this House passed a Farm Bill 
that lavished huge taxpayer subsidies on agribusinesses, and 
included price-fixing favors for various commodities, while 
totally dropping the food and nutrition program for struggling 
families. It was a very stark example of misplaced priorities. 
And the budget that came out of this Committee and out of this 
House is another example of those misplaced priorities. It is a 
budget that showers large new tax breaks on the wealthiest in 
this country while hurting the middle class and doing great 
damage to the social safety net. Mr. Chairman, I am very 
pleased that we are having a hearing to examine the status of 
the War on Poverty. I know we have a long way to go to achieve 
our goals, and all of us should be open to fresh ideas about 
how to win that war.
    But I also know that we will not win the War on Poverty by 
adopting budget proposals that reverse the modest gains we have 
made and throw millions of struggling Americans into poverty. 
And it simply adds insult to injury to pretend that deep cuts 
to food and nutrition programs and deep cuts to medical 
assistance will somehow, quote, ``strengthen,'' unquote, that 
safety net and help people in poverty. That claim is based on a 
fictional storyline. It is based on the notion that people 
choose those safety nets, often mockingly referred to as 
hammocks, over finding work and over getting a job; that people 
remain out of work today not because of the continuing shock 
waves from the greatest financial meltdown since the Great 
Depression, but because they choose not to work. And that 
somehow, by making people who are teetering on the economic 
precipice even more desperate, we will give them the willpower 
and motivation to pull themselves up by the bootstraps, that, 
by God, we are doing poor people a great favor by cutting the 
few supports they have as they try to climb out of poverty.
    That false narrative also ignores several mathematical 
budget realities. It ignores the fact that the vast bulk of 
safety net spending goes to the elderly, to the disabled, and 
to children, groups that we do not expect to work. For example, 
a full 85 percent of Medicaid spending, one of the largest 
expenditures to help low income individuals, goes to the 
elderly, the disabled, or kids, 85 percent. It also ignores the 
fact the Congressional Budget Office projects that as the 
economy improves and more jobs become available, more people 
will find work, and spending on the non-healthcare programs 
like SNAP, the food and nutrition programs, will decline as a 
share of the economy.
    Another false narrative we often hear is that these safety 
net programs have done nothing to keep people out of poverty. 
But that claim only works if you are using a very misleading 
definition of poverty that excludes the non-cash benefits 
people receive from important supports like Medicaid, SNAP, and 
the Earned Income Tax Credit. Obviously, if your measure of 
poverty does not take into account the benefits from those 
programs, then, presto, you can magically slash those programs 
without increasing the number of people in poverty.
    As Mr. Besharov, one of our witnesses, has very rightly 
observed, and I quote, ``that the official poverty measure does 
a poor job measuring poverty alleviation efforts,'' mentioning 
the EITC and other non-cash benefits, and goes on to say, 
``This is perhaps the measure's most damning flaw because it 
ignores the important impact of many means-tested benefits on 
reducing material poverty.'' And that it does.
    A much better measure of poverty, still imperfect but 
better, is reflected in the Census Bureau's Supplemental 
Poverty Measure. And that data, Mr. Chairman, shows that safety 
net programs lifted 18 million Americans out of poverty in the 
year 2011. And those programs had an even larger impact on deep 
poverty. In 2011, 9.4 percent of the U.S. population would have 
lived in deep poverty without these programs. That was cut to 
5.2 percent. So the real question before us is whether we are 
looking to lift more people out of poverty, or are we more 
concerned with minimizing the cost of some of these programs in 
order to protect tax breaks for special interest and the very 
wealthy. That is the question.
    And in the Republican budget the choices made are very deep 
cuts to some of these important programs while providing 
another round of tax breaks for the wealthy. I am just going to 
mention a few. That budget, the Republican budget, cuts $810 
billion from the base funding from Medicaid, $810 billion. That 
is not including the repeal of the Medicaid expansions. That is 
not including the Medicaid expansions under the Affordable Care 
Act. The Congressional Budget Office says very clearly, when 
you make those kinds of cuts, it means that either states are 
going to have to pay a lot more, or a lot of vulnerable people 
will go without health care services. When it comes to the food 
and nutrition programs, the Republican budget turns it into a 
block ramp, and cuts it to a level where it is one-third below 
the Congressional Budget projected levels. And as I pointed out 
earlier, the Congressional Budget Office projected levels for 
non-health means-tested programs actually shows it declining 
anyway, as a share of the economy, and this would cut that by 
another third.
    So, finally, Mr. Chairman, I would just add, in addition to 
those programs, there is also the question of thesequester. And 
as you well know, the proposal that our Republican colleagues 
in the House have made is that we would, relative to today's 
sequester, we would increase our spending on defense, and we 
would make up for that increase by dramatically cutting 
programs in non-defense. And, in fact, the Appropriations 
Committee has had a little trouble recently marking up what is 
called the Labor HHS Bill, which is the bill that contains 
funding for education and Head Start, Meals on Wheels. And the 
proposal would, if applied across the board, would cut that 
part of the budget by 20 percent below sequester.
    So I am really pleased, that we are actually having this 
hearing to discuss the War on Poverty and a progress report. 
But let's keep in mind the impact our budget proposals have on 
whether we move forward, and actually move toward winning that 
war, or whether it takes us in reverse so we are losing that 
war.
    [The prepared statement of Chris Van Hollen follows:]

Prepared Statement of Hon. Chris Van Hollen, Ranking Member, Committee 
                             on the Budget

    Mr. Chairman, I must confess I find the timing of this hearing 
particularly strange. It was just three weeks ago that this House 
passed a farm bill that lavished huge taxpayer subsidies on 
agribusinesses and included price fixing favors for various 
commodities, while totally dropping the food and nutrition supports for 
struggling families. It is a stark example of misplaced priorities.
    The Republican budget is another example of misplaced priorities. 
It showers big new tax breaks on the wealthiest while hurting the 
middle class and shredding the social safety net. I am pleased that we 
are examining the status of the War on Poverty. I know we have a long 
way to go to achieve our goals and should be open to fresh ideas on how 
to win that War. But I also know we will not win that War by adopting 
budget proposals that reverse the modest gains we have made and throw 
millions of struggling Americans into poverty. And it simply adds 
insult to injury--and tortures the English language--to pretend that 
deep cuts to food and medical assistance programs will somehow 
`strengthen' that safety net and help people in poverty.
    That claim is built on a specious storyline. It is based on the 
notion that people choose those safety nets--often mockingly referred 
to as hammocks--over finding work and getting a job; that people remain 
out of work today not because of the continuing shockwaves from the 
greatest financial meltdown since the Great Depression, but because 
they choose not to work. And that somehow, by making people teetering 
on the economic precipice even more poor and more desperate, we will 
give them the willpower and motivation to pull themselves up by their 
bootstraps. That, by God, we are doing poor people a great favor by 
cutting the few supports that they have as they try to climb out of 
poverty.
    This false narrative also ignores several mathematical budget 
realities. It ignores the fact that the vast bulk of safety net 
spending goes to the elderly, the disabled, and children--groups that 
we don't expect to work. For example, a full 85 percent of Medicaid 
spending goes to the elderly, the disabled or kids. It also ignores the 
fact that the Congressional Budget Office (CBO) projects that, as the 
economy improves and more jobs become available, more people will find 
work and spending on the non-health care programs, like the 
Supplemental Nutrition Assistance Program (SNAP), will decline relative 
to the size of the economy.
    Another false narrative we often hear is that these safety net 
programs have done nothing to keep people out of poverty. But that 
claim only works if you use a very misleading definition of poverty 
that excludes the non-cash benefits people receive from important 
supports like Medicaid, SNAP, and the Earned Income Tax Credit (EITC). 
Obviously, if your measure of poverty doesn't take into account the 
benefits received from these programs then--presto--you can magically 
slash those programs without increasing the number of people in 
poverty. Indeed, one of our witnesses today, Mr. Besharov, has rightly 
observed, `The official poverty measure does a poor job measuring 
poverty alleviation efforts (ignoring for example, the EITC and non-
cash benefits). This is perhaps the measure's most damning flaw--
because it ignores the important impact of many means-tested benefits 
on reducing material poverty.'
    A much fuller measure of what the safety net is currently achieving 
is reflected in the Census Bureau's supplemental poverty measure. That 
data shows that safety net programs lifted 18 million Americans out of 
poverty in 2011. These programs had an even larger impact on deep 
poverty. In 2011, 9.4 percent of the U.S. population would have lived 
in deep poverty without these programs, which reduced that rate to 5.2 
percent.
    So the real question is are we looking to lift people out of 
poverty, or are we most concerned with minimizing program costs in 
order to protect tax breaks for the wealthiest people and corporations 
in America? The Republican budget clearly takes the second tack.
    The Republican budget guts important mainstays of the War on 
Poverty: Medicaid and nutritional assistance. It cuts $810 billion from 
base Medicaid funding, not including the repeal of Medicaid expansions 
in the Affordable Care Act. Consequently, Medicaid will be cut by one-
third in 2023. The CBO concluded that the Republican budget would mean 
that states will need to increase their spending on Medicaid and CHIP, 
cut back services, or both. This could mean millions of poor people 
losing health care coverage--in a program where half of all 
beneficiaries are children and another quarter are either senior 
citizens or people with significant disabilities that make them unable 
to work.
    Likewise, the Republican budget would turn SNAP into a block grant, 
at a level one-third below current spending projections. There is 
simply no way to achieve that level of savings without reducing 
benefits, cutting people off completely, or some combination of those 
things. This is a program where nearly 90 percent of the beneficiaries 
live in a household with either a child or with someone who is disabled 
or elderly. For those who can work, SNAP already has strong work 
incentives built in. SNAP continues to serve one of the most critical 
of roles in society--providing food security for families who have 
fallen on hard times. According to the CBO, as the economy continues to 
recover, SNAP costs will decline even as benefits are increased to 
reflect inflation in food costs. Attempting to force further cuts will 
leave millions of children without adequate diets.
    In a discussion of the War on Poverty, it would be remiss to ignore 
the impacts of the sequester and the Republican plans for even deeper 
cuts to non-defense discretionary programs. With this year's sequester, 
we've already seen children turned away from Head Start and seniors 
losing home-delivered meals. The doubling down of cuts on non-defense 
programs caused by protecting defense and refusing to consider balanced 
options to allow for more reasonable funding levels will only mean more 
of the same. The cuts are so deep that appropriators are having 
difficulty implementing them--in fact, while we know Labor-HHS 
appropriations will take an overall hit of about 20 percent below the 
sequester, Republicans had to pull the bill this week. I can only 
assume it's because they were afraid to spell out all of the negative 
ways American families would be impacted.
    Why are Republicans making such deep cuts to programs that help so 
many? Because their lopsided approach to the budget plan refuses to ask 
the wealthiest Americans to pay one penny more for the purpose of 
deficit reduction. In fact, they would give an average tax cut of 
$330,000 to millionaires while hitting everyone and everything else 
much harder. That's why the Republicans need to slash important 
investments necessary to keep our economy strong, like investments in 
education, infrastructure, science, and research. And it's why they 
would shred the social safety net.
    It's time to do the hard work needed to put in place a fiscally 
responsible budget that adopts the balanced approach recommended by 
bipartisan groups. Unfortunately, our Republican colleagues continue to 
block all efforts to go to Conference to negotiate a solution. Instead, 
we are hearing threats of a government shutdown and defaulting on our 
debt unless we adopt a budget that protects the wealthy at the expense 
of the middle class and the most vulnerable in America.

    Chairman Ryan. Thank you.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Chairman Ryan. We want to get to the witnesses. Thank you.
    Mr. Van Hollen. Oh, Mr. Chairman.
    Chairman Ryan. No, I know. But we have got people who have 
got tough schedules as well. Secretary Anderson is testifying 
at Ways and Means at 2:00, and so she needs to be out at 1:50. 
So I want to make sure we can hear from our experts. First, we 
will begin with Mr. Baron, then Secretary Anderson, then 
Professor Besharov, and then Sister Simone Campbell. Mr. Baron, 
five minutes.

  STATEMENTS OF JON BARON, PRESIDENT, COALITION FOR EVIDENCE-
BASED POLICY; ELOISE ANDERSON, SECRETARY, WISCONSIN DEPARTMENT 
    OF CHILDREN AND FAMILIES; DOUGLAS BESHAROV, PROFESSOR, 
    UNIVERSITY OF MARYLAND SCHOOL OF PUBLIC POLICY; SIMONE 
           CAMPBELL, SSS, EXECUTIVE DIRECTOR, NETWORK

                     STATEMENT OF JON BARON

    Mr. Baron. Thank you, Chairman Ryan, Ranking Member Van 
Hollen, members of the Budget Committee. I appreciate the 
opportunity to testify about the War on Poverty on behalf of 
the non-profit, non-partisan Coalition for Evidence-Based 
Policy. Despite a myriad of new social programs and spending 
over the past 40 years, the current system has produced little 
improvement in some key measures of economic and social 
wellbeing for millions of Americans. The American poverty rate, 
for example, now at 15 percent, has shown little change whether 
by official or alternative National Academy measures since the 
1970s. In K-12 education, the reading and math achievement of 
17 year olds, who are the end product of our K-12 system, is 
virtually unchanged over 40 years, according to official 
measures, despite a 90 percent increase in public spending per 
student during that time, and adjusted for inflation.
    There is a different way forward in fighting poverty, 
educational failure, and other social programs. It focuses on 
increasing the effectiveness of existing funds through rigorous 
evidence about what works, rather than on spending new money. 
This approach is based on clear examples from welfare and other 
areas where rigorous, randomized control trials, which are 
widely considered the strongest method for evaluating program 
impact, have identified program reforms that produced important 
improvements in people's lives while, in some cases, actually 
saving the government money. As an illustrative example, in the 
1980s and 1990s, government and foundations sponsored a large 
number of randomized trials of state and local welfare reforms. 
Three major reform efforts, two in California, one in Oregon, 
were found especially effective. They focused on moving welfare 
recipients quickly into the workforce through short-term job 
search and job training, and produced gains in participants' 
employment and earnings of 20 to 50 percent sustained over 
several years. Remarkably, they also produced net savings to 
the government in reduced welfare and food stamps of between 
$1,700 and $6,000 per person. These findings helped build 
political consensus for the strong work requirements in the 
1996 Welfare Reform Act.
    A second example is the Nurse-Family Partnership, which 
provide nurse home visitation services to low income, first-
time mothers. The program has been shown in three well-
conducted, randomized control trials to produce major 
improvements in participants' life outcomes, such as a 20 to 50 
percent decrease in child maltreatment and hospitalizations, an 
8 percent higher grade point average during elementary school 
for the most at-risk children, and in one trial, a $13,000 
reduction in participants' use of welfare, food stamps, and 
Medicaid that more than offset the program's cost.
    Based on these findings, the Bush and Obama Administrations 
both proposed, and Congress enacted, legislation to scale up 
this program. To identify enough of these proven strategies to 
generate broad improvement in the effectiveness of government 
will require strategic trial and error; that is, rigorously 
testing many promising approaches to identify the few that are 
effective. The instances of effectiveness that I just described 
are exceptions that have emerged from testing a much larger 
pool. Most innovations, typically 80 to 90 percent, are found 
to produce weak or no positive effects when rigorously 
evaluated, a pattern that occurs not just in social spending, 
but in other fields where randomized trials are carried out, 
including medicine and business.
    In my written testimony, I offer concrete suggestions for 
the Committee's consideration to greatly accelerate the rate of 
program innovation and rigorous testing in social spending so 
as to rapidly grow the number of proven, cost-saving reforms. 
As one example, I suggest authorizing federal agencies to make 
wider use of waivers from law and regulation to incentivize 
state and local innovation and evidence-building, a tool that 
was deployed with great success in welfare reform under both 
Republican and Democratic administrations. I would also note 
that in many cases, rigorous evaluations that produce 
convincing evidence can be done at low cost or modest cost. My 
written testimony provides an example of a major Department of 
Labor randomized trial that cost roughly $320,000 to carry out, 
yet identified an innovation in the unemployment insurance 
system, which, if replicated nationally, would produce billion 
dollar government savings in the UI system, while successfully 
increasing worker earnings. Evidence-based policy offers a 
demonstrated path to more effective, less expensive government, 
and meaningful progress in the War on Poverty.
    Thank you.
    [The prepared statement of Jon Baron follows:]

              Prepared Statement of Jon Baron, President,
                  Coalition for Evidence-Based Policy

    Chairman Ryan, Ranking Member Van Hollen, and Members of the Budget 
Committee: I appreciate the opportunity to testify on progress in the 
War on Poverty. As brief background, the Coalition for Evidence-Based 
Policy is a nonprofit, nonpartisan organization, established in 2001. 
We work with federal officials to increase the effectiveness of 
government social spending through rigorous evidence about ``what 
works,'' and the core ideas we have advanced have helped shape 
evidence-based reforms enacted into law and policy during both the Bush 
and Obama Administrations. We are not affiliated with any programs or 
program models, and have no financial interest in any of the policy 
ideas we support, so we serve as a neutral, independent resource to 
policy officials on evidence-based programs. Our work is funded 
primarily by national philanthropic foundations.
    Overview: The current budget climate offers an excellent 
opportunity to rethink government social spending, and transform it 
into a truly effective enterprise. Despite a myriad of new programs and 
spending over the past 40 years, the system has produced little 
improvement in key measures of economic and social well-being for 
millions of Americans. There is a different way forward, focused on 
increasing the effectiveness of existing funds through rigorous 
evidence about ``what works.'' Such an approach could be the basis for 
a new, bipartisan War on Poverty that really succeeds.
    I. Problem: Government programs set up to address important social 
problems often fall short by funding strategies/practices 
(``interventions'') that are not effective.
    When evaluated in scientifically rigorous studies, social 
interventions in K-12 education, job training, crime prevention, and 
other areas are often found to produce weak or no positive effects on 
the intended outcomes. Interventions that produce sizable, sustained 
improvement in people's lives do exist--I provide concrete examples 
below--but they tend to be the exception. As discussed in section IV of 
my testimony, this pattern of findings--a few highly-effective 
approaches amidst many that are ineffective--occurs in diverse areas of 
social spending, as well as other fields where rigorous studies have 
been conducted, such as medicine and business.
    II. Why It Matters: Improving social spending is critically needed. 
The United States has failed to make significant progress in key areas 
such as--
    <bullet> Poverty: The U.S. poverty rate--now at 15%--reached its 
low in 1973. It has shown little change (whether by official or 
alternative National Academy measures) since the 1970s.\1\
    <bullet> K-12 education: Reading and math achievement of 17-year-
olds--the end product of our K-12 education system--is virtually 
unchanged over the past 40 years, according to official measures,\2\ 
despite a 90% increase in public spending per student (adjusted for 
inflation).\3\
    III. A Way Forward: Well-conducted randomized controlled trials--
widely considered the most credible evaluation method--have identified 
a few highly-effective social interventions.
    <bullet> These interventions are backed by well-conducted 
randomized trials, carried out in typical community settings, showing 
sizable, sustained effects on important life outcomes. Although rare, 
their very existence suggests that a concerted effort to grow the 
number of proven interventions, and spur their widespread use, could 
fundamentally improve the lives of millions of Americans. Illustrative 
examples include:
    A. Certain work-focused welfare reform strategies: shown to 
increase participants' employment and earnings 20-50%, and produce net 
government savings of $1,700 to $6,000 per person.
    In the 1980s and 1990s, government, foundations, and leading 
researchers sponsored or carried out a large number of randomized 
controlled trials of state and local welfare reforms. Three major 
reform efforts--two in California, one in Oregon--were found especially 
effective. Focused on moving welfare recipients quickly into the 
workforce through short-term job-search assistance and training (as 
opposed to longer-term remedial education), the initiatives produced 
gains in participants' employment and earnings of 20-50%. Remarkably, 
they also produced net savings to the government, in reduced welfare 
and food stamps, of $1,700 to $6,000 per person.\4\
    These findings helped build political consensus for the strong work 
requirements in the 1996 welfare reform act, and shape many of the 
work-first state-level reforms that followed. The scientific rigor of 
the findings were critical to their policy impact.\5\
    B. Nurse home visitation for low-income, first-time mothers: shown 
to reduce child maltreatment by 20-50% and, for most at-risk children, 
increase educational outcomes (e.g., 8% higher GPA).
    The Nurse-Family Partnership (NFP) is one of the main program 
models funded by HHS's Maternal, Infant, and Early Childhood Home 
Visiting program. NFP has been shown in three well-conducted randomized 
trials to produce major improvements in participants' life outcomes, 
such as: (i) 20-50% reductions in child abuse/neglect and injuries; 
(ii) 10-20% reductions in mothers' subsequent births during their late 
teens and early twenties; and (iii) sizable improvements in cognitive 
and educational outcomes for children of the most at-risk mothers 
(e.g., 8% higher reading and math grade point averages in grade 1-6).
    In addition to these benefits, newly-published reports from the 
ongoing trial in Memphis, Tennessee show, 12 years after the women gave 
birth, a $1,113 reduction in annual government spending per woman on 
welfare, food stamps, and Medicaid during the 12 years. As a result, 
the total discounted government savings over the 12 years ($13,350) 
more than offset the program's cost ($12,493).\6\
    C. H&R Block college financial aid application assistance for low/
moderate income students: shown to increase college enrollment and 
persistence by 29% over a 3\1/2\-4 year period.
    This was an inexpensive program, administered by H&R Block, that 
provided low and moderate income families with streamlined personal 
assistance in completing the college financial aid application form for 
their dependent children near college age. The program, evaluated in a 
rigorous, multi-site randomized controlled trial in Ohio and North 
Carolina, was found to increase college attendance and persistence (at 
least two consecutive years) by a remarkable 29% over a 3\1/2\ to 4 
year period, compared to the control group.\7\
    D. Reemployment and Eligibility Assessments, an innovation in the 
Unemployment Insurance (UI) system: shown to produce UI savings and 
increase UI claimants' earnings as much as 18%.
    In 2009, the Department of Labor launched a four-state randomized 
trial of the Reemployment and Eligibility Assessment (REA) program for 
UI claimants.\8\ The program includes a mandatory in-person review of 
the claimant's eligibility for UI, and personalized job-search and 
other reemployment assistance. Over a 12-18 month period, the study 
found: (i) $180 in net government savings per claimant from reduced UI 
payments; (ii) especially large savings in Nevada--$604 per claimant--
possibly due to distinctive features of Nevada's REA program that could 
be replicated elsewhere; and (iii) an increase in job earnings of 
$2,600 (18%) per claimant in Nevada--the one site that obtained a 
reliable estimate of the effect on earnings. (The study also found a 
smaller--5%--increase in earnings in Florida over a 12-month period, 
but the study's analysis suggests this finding may not be reliable.\9\)
    These results suggest that nationwide implementation of REA for all 
eligible UI claimants could produce $1.5 billion in net government 
savings per year,\10\ while increasing workers' earnings. If the larger 
Nevada effects could be reproduced nationally, the savings might be as 
high as $5 billion per year,\11\ and the increase in workers' earnings 
could be substantial.
    IV. To identify enough of these interventions to generate broad-
based gains in government effectiveness requires strategic trial-and-
error--i.e., rigorously testing many promising approaches to identify 
the few that are effective.
    Rigorous evaluations, by measuring programs' true effect on 
objectively important outcomes such as workforce earnings, college 
attendance, teen pregnancy, and child maltreatment, are able to 
distinguish those that produce sizable effects from those that do not. 
Such studies have identified a few interventions that are truly 
effective--such as those described above--but these are exceptions that 
have emerged from testing a much larger pool. Most, including those 
thought promising based on initial studies, are found to produce few or 
no effects--underscoring the need to test many. This is true not only 
in social spending, but in other fields where rigorous evaluations have 
been carried out. For example:
    <bullet> Education: Of the 90 interventions evaluated in randomized 
trials commissioned by the Institute of Education Sciences (IES) since 
2002, approximately 90% were found to have weak or no positive 
effects.\12\
    <bullet> Employment/training: Of the 13 interventions evaluated in 
Department of Labor randomized trials that have reported results since 
1992, about 75% were found to have found weak or no positive 
effects.\13\
    <bullet> Medicine: Reviews have found that 50-80% of positive 
results in initial (``phase II'') clinical studies are overturned in 
subsequent, more definitive randomized trials (``phase III'').\14\
    <bullet> Business: Of 13,000 randomized trials of new products/
strategies conducted by Google and Microsoft, 80-90% have reportedly 
found no significant effects.\15\
    V. The current pace of rigorous testing is far too slow to build a 
meaningful number of proven-effective interventions to address our 
major social problems. Of the thousands of ongoing and newly-initiated 
program activities in federal, state, and local social spending each 
year, only a small fraction are ever evaluated in a credible way to see 
if they work. For example, based on our careful monitoring of the 
literature, the federal government commissions randomized evaluations 
of only 1-2 dozen such program activities each year.
    VI. We therefore urge a bipartisan Congressional initiative to 
reinvent U.S. social spending based on evidence about ``what works,'' 
through steps such as the following:
    A. Authorize and encourage the agencies to make maximum use of 
waivers from federal law and regulation to incentivize the building of 
credible evidence.
    1. ``Waiver-evaluations'' were deployed with great success in 
1980s/90s welfare reform, making a critical contribution to the body of 
welfare-to-work evidence discussed above.
    Specifically, in the years leading up to the 1996 welfare reform 
act--through both Republican and Democratic Administrations--OMB and 
HHS had in place a waiver-evaluation policy, under which HHS waived 
certain provisions of federal law and regulation to allow states to 
test new welfare reform strategies, but only if the states agreed to 
evaluate their reforms in rigorous (usually randomized) studies.
    This policy directly resulted in more than 20 large-scale 
randomized controlled trials that tested an important and diverse set 
of reforms, and thereby helped build the influential body of welfare-
to-work evidence discussed above. The reforms that were tested include, 
for example, mandatory job search and employment activities (e.g., 
Vermont); employment subsidies for welfare recipients who left welfare 
for full-time work (e.g., New York, Minnesota); time limits on welfare 
(e.g., Florida, Connecticut); ``family cap'' policies designed to 
discourage additional births among women on welfare (e.g., Arkansas, 
New Jersey); and various combinations of the above reforms.
    2. We encourage the Committee to advance a similar waiver-
evaluation approach across the broad range of federal social spending, 
designed to:
    a. Stimulate state/local program innovations that (i) improve 
participant outcomes without added cost, or (ii) produce budget savings 
without loss of program effectiveness; and
    b. Require rigorous--preferably randomized--evaluations to 
determine which of these innovations really work.
    For some programs, this would require legislation to expand the 
program's waiver authority and/or tie that authority to a requirement 
for rigorous evaluations wherever feasible. Other programs already have 
sufficient authority, and Congress could encourage them to use it more 
widely and strategically to stimulate state/local innovation and 
evidence-building.
    3. The Budget Committee could provide the key impetus for such an 
effort--e.g., in its direction to House committees as part of the 
Budget Resolution. We would be pleased to work with the Committee, if 
helpful, to explore these or other steps to stimulate innovation and 
evidence-building in social spending.
    B. For interventions meeting the highest evidence standards for 
proven effectiveness, authorize federal agencies to use administrative 
action to spur their wide adoption with existing funds (while ensuring 
close adherence to the proven approach). Such administrative action 
might include, for example, re-allocating a small percentage of the 
agency's appropriated money to fund state/local implementation of the 
proven intervention(s).
    1. The reason: Federal social programs generally do not have the 
statutory authority to use evidence of effectiveness as a key criterion 
for allocating program funds. (An important, but still relatively 
small, exception is the set of ``tiered evidence'' initiative that 
Congress has enacted in recent years, described below.)
    2. Because of this, proven-effective interventions such as those 
described above may never be funded for wider implementation without a 
new act of Congress. For example, Reemployment and Eligibility 
Assessments and H&R Block college aid application assistance, described 
above, may never be widely implemented unless Congress steps in to 
change the authorizing legislation for the UI program (in the case of 
Reemployment and Eligibility Assessments\16\) or the Postsecondary 
Education programs of the Department of Education (in the case of the 
H&R Block intervention).
    3. Thus, where definitive evidence of effectiveness exists, we 
believe agencies should be able to put it into practice, so as to 
improve people's lives and/or produce taxpayer savings.
    C. Embed evidence-based funding criteria into the authorizing 
language of federal social programs, drawing, for example, on the 
``tiered evidence'' initiatives enacted in recent years.
    1. In a few instances, Congress has enacted initiatives in which 
evidence of effectiveness is a main factor determining which activities 
get funded. An example is HHS's Early Childhood Home Visiting Program, 
begun as a pilot under President Bush and expanded by President Obama. 
This HHS program and the six other recently-enacted evidence-based 
programs all have a ``tiered'' funding structure, in which (i) the 
biggest grants--in the top tier--are awarded to interventions with 
strong evidence of effectiveness (such as the Nurse-Family Partnership, 
in the case of the HHS program) to fund their large-scale 
implementation; and (ii) smaller grants--in the lower tiers--are 
awarded to innovative programs with preliminary or moderate evidence, 
coupled with a requirement for a rigorous evaluation to determine 
whether they really work. If found effective, they can move into the 
top tier; if not, their funds are redirected to other, more promising 
efforts.
    2. Congress could fundamentally shift the social spending landscape 
by incorporating such evidence criteria into billion-dollar federal 
programs, rather than just a few isolated initiatives.
    Doing so would create a powerful new incentive for the development, 
rigorous evaluation and--if effective--dissemination of new program 
strategies and models. It would catalyze evidence-driven improvements 
in a social spending system that has fallen well short of its 
objectives.
    VII. Conclusion: Evidence-based policy offers a demonstrated path 
to more effective, less expensive government. We believe it could 
provide the basis for a bipartisan effort to reinvent U.S. social 
spending, so as to greatly increase its effectiveness in improving 
people's lives.
                               references
    \1\ Carmen DeNavas-Walt, Bernadette D. Proctor, and Jessica C. 
Smith, U.S. Census Bureau, Current Population Reports, P60-243, Income, 
Poverty, and Health Insurance Coverage in the United States: 2011, U.S. 
Government Printing Office, Washington, DC, 2012. U.S. Census Bureau, 
Official and National Academy of Sciences (NAS) Based Poverty Rates: 
1999 to 2010, 2011. Kathleen Short, U.S. Census Bureau, HHES Division, 
Estimating Resources for Poverty Measurement, 1993--2003, 2005. Panel 
on Poverty and Family Assistance, National Academy of Sciences, 
Measuring Poverty: A New Approach, 1995, pp. 31-36.
    \2\ The Nation's Report Card: Trends in Academic Progress 2012, 
National Center for Education Statistics, Institute of Education 
Sciences, U.S. Department of Education, Washington, D.C. (NCES 2013 
456), 2013.
    \3\ Cornman, S.Q., and A.M. Noel, Revenues and Expenditures for 
Public Elementary and Secondary School Districts: School Year 2008--09 
(Fiscal Year 2009) (NCES 2012-313). U.S. Department of Education. 
Washington, DC: National Center for Education Statistics, 2011. Richard 
H. Barr, Revenues and Expenditures for Public Elementary and Secondary 
Education, 1973-74 (NCES-76-140). U.S. Department of Health, Education 
& Welfare, National Institute of Education. Washington, DC: National 
Center for Education Statistics, 1976.
    \4\ These are 2012 dollars. Examples include: (i) the Riverside 
Greater Avenues for Independence (GAIN) Program (Stephen Freedman, 
Daniel Friedlander, Winston Lin, and Amanda Schweder, The GAIN 
Evaluation: Five-Year Impacts on Employment, Earnings, and AFDC 
Receipt, Working Paper 96.1, MDRC, July 1996; James Riccio, Daniel 
Friedlander, and Stephen Freedman, GAIN: Benefits, Costs, and Three-
Year Impacts of a Welfare-to-Work Program, MDRC, September 1994); (ii) 
Los Angeles Jobs-First GAIN (Stephen Freedman, Jean Tansey Knab, Lisa 
A. Gennetian, and David Navarro, The Los Angeles Jobs-First GAIN 
Evaluation: Final Report on a Work First Program in a Major Urban 
Center, MDRC, June 2000); and (iii) Portland Job Opportunities and 
Basic Skills (JOBS) Training Program (Susan Scrivener, Gayle Hamilton, 
Mary Farrell, Stephen Freedman, Daniel Friedlander, Marisa Mitchell, 
Jodi Nudelman, Christine Schwartz, National Evaluation of Welfare-to-
Work Strategies: Implementation, Participation Patterns, Costs, and 
Two-Year Impacts of the Portland (Oregon) Welfare-to-Work Program, 
MDRC, May 1998; Gayle Hamilton, Stephen Freedman, Lisa Gennetian, 
Charles Michalpoulos, Johanna Walter, Diana Adams-Ciardullo, Anna 
Gassman-Pines, Sharon McGroder, Martha Zaslow, Jennifer Brooks, Surjeet 
Ahluwalia, Electra Small, and Bryan Ricchetti, National Evaluation of 
Welfare-to-Work Strategies: How Effective Are Different Welfare-to-Work 
Approaches? Five-Year Adult and Child Impacts for Eleven Programs, MDRC 
and Child Trends, December 2001).
    \5\ Ron Haskins, ``What Works Is Work: Welfare Reform and Poverty 
Reduction,'' Northwestern Journal of Law and Social Policy, vol. 4, no. 
1, 2009, pp. 29-60. Ron Haskins, in Rigorous Evidence: The Key To 
Progress Against Crime and Substance Abuse? Lessons From Welfare, 
Medicine, and Other Fields, Proceedings of a National Policy Forum 
Sponsored by the U.S. Department of Justice and Coalition for Evidence-
Based Policy, June 14, 2004, pp. 30-36. Judith M. Gueron, ``Building 
Evidence: What It Takes and What It Yields,'' Research on Social Work 
Practice, vol. 17, no. 1, January 2007, pp. 134-142.
    \6\ A summary of the evidence on NFP, including citations to the 
original study reports, is linked here.
    \7\ Bettinger, Eric P., Bridget Terry Long, Philip Oreopoulos, and 
Lisa Sanbonmatsu. ``The Role of Application Assistance and Information 
in College Decisions: Results from the H&R Block FAFSA Experiment,'' 
Quarterly Journal of Economics, August 2012, vol. 127, no. 3, pp. 1205-
1242.
    \8\ Eileen Poe Yamagata, Jacob Benus, Nicholas Bill, Hugh 
Carrington, Marios Michaelides, and Ted Shen, Impact of the 
Reemployment and Eligibility Assessment Initiative, Impaq 
International, June 2011. Marios Michaelides, Eileen Poe-Yamagata, 
Jacob Benus, and Dharmendra Tirumalasetti, Impact of the Reemployment 
Eligibility Initiative In Nevada, Impaq International, January 2012.
    \9\ The study measured the program's effect on job earnings in the 
Florida site, and found that it produced a statistically-significant 
$476 increase in earnings per claimant over a 12-month follow-up 
period, roughly offsetting claimants' loss in UI benefits. However, 
this was a regression-adjusted effect on earnings; the unadjusted 
effect was near zero and not statistically significant. Because the 
effect differed under these two different estimation approaches, we 
believe the positive findings for earnings in Florida are best viewed 
as tentative, and need corroboration in future studies before being 
accepted as valid.
    \10\ The $1.5 billion in net savings is calculated by multiplying 
the savings per claimant ($180) by the number of claimants potentially 
eligible for REA nationwide. We estimate that there are 7.8 million 
such claimants in the United States, based on (i) Department of Labor 
data showing a total of 19.4 million UI claims filed in 2012, and (ii) 
the study's finding that, on average, about 40% of UI claimants met the 
REA eligibility requirements in the states participating in the study. 
A per-claimant savings of $180 multiplied by 7.8 million claimants 
totals roughly $1.5 billion.
    \11\ Because of the initial positive findings in Nevada, the 
researchers conducted a longer-term follow-up, which found that the 
program produced $672 in per-person net savings during the 20-26 months 
after random assignment. We estimated national savings of $5 billion by 
multiplying $672 (in per-person net savings) by 7.8 million (the number 
of claimants nationwide that we estimate are eligible for REA, as 
described in the previous endnote).
    \12\ Coalition for Evidence-Based Policy, Randomized Controlled 
Trials Commissioned by the Institute of Education Sciences Since 2002: 
How Many Found Positive Versus Weak or No Effects, July 2013, linked 
here.
    \13\ This is based on a count of results from the Department of 
Labor randomized trials that have reported results since 1992, as 
identified through the Department's research database (link). We are 
preparing a short summary of these findings, to be released in the next 
few weeks.
    \14\ Ioannidis 2005, Zia et. al., 2005, Chan et. al., 2008 (see 
footnote 6 for full citations).
    \15\ Jim Manzi, Uncontrolled: The Surprising Payoff of Trial-and-
Error for Business, Politics, and Society, Perseus Books Group, New 
York, 2012, pp. 128 and 142. Jim Manzi, Science, Knowledge, and 
Freedom, presentation at Harvard University's Program on Constitutional 
Government, December 2012, linked here.
    \16\ The REA program is currently implemented in 42 states but, due 
to limited program funding, only serves a small percentage of UI 
claimants who are eligible for REA in those states. For example, in the 
four states that participated in the REA randomized trial, the program 
served an average of about 10% of REA-eligible claimants. See Yamagata 
et. al., 2011 (endnote 5), page 16.

    Chairman Ryan. Secretary Anderson.
    Ms. Anderson. Chairman Ryan, and Ranking Member Van Hollen, 
and members of the Committee, thank you.
    Chairman Ryan. Eloise, pull your mic in closer.

                  STATEMENT OF ELOISE ANDERSON

    Ms. Anderson. Okay. Thank you for inviting me to speak to 
you. In response to the Committee's request to talk about the 
War on Poverty in its 49th year, I think I have been around for 
all of the 49 of the years. And the negative and current 
welfare system, the changes that could be made in both the 
state and the federal levels that would have a positive impact 
on poverty.
    The War on Poverty officially began in the United States on 
January the 8th, 1964. At the onset of the War on Poverty in 
1964, the U.S. poverty rates stood at 19 percent. I think we 
are now at about 15 percent. President Johnson set in motion a 
series of social welfare initiatives that have reverberated in 
American society and within the American family. And I want to 
stress that it is really American family that has really had 
the impact of this, that are still being felt today.
    By the end of the Johnson Administration in 1969, there 
were 40 new programs aimed at eliminating poverty. Across the--
according to the last census figures, today's poverty rate 
stands at 15.1 percent, a few percentage points below the 1964 
level. It is vital that the nation take a fresh look at these 
programs to determine if they have the intended effects on the 
people they were designed to serve. Currently, the 60 programs 
are 12 programs providing food aid, 12 programs funding social 
services, 11 programs funding housing assistance, 10 programs 
providing cash assistance, nine vocational training programs, 
three energy and utility service programs, and three childcare 
and child development programs. In addition to what the federal 
government is doing, the state and local levels have their own 
set of programs that they incentivize and deal with. So the 
federal and state governments spend close to $1 trillion a year 
on means-tested benefit programs with the goal of reducing 
poverty.
    In the past decade, anti-poverty programs have grown by 49 
percent, and the welfare. And what I want you to think about 
the War on Poverty is that the Welfare State is not a country. 
So we are waging a war on what and who. However, it is a vast 
empire bigger than the entire budgets of almost every other 
country in the world; think about that. The money we put into 
the War on Poverty is more than the budgets of most of the 
industrialized countries in the world. It is estimated that the 
current welfare spending, four times that would be necessarily 
to simply give the countries for cash. So if we just gave them 
the money, we would probably be better off. This meager 
reduction in poverty levels occurred despite the federal and 
local government spending more than $15 trillion on poverty 
abatement programs over the past 49 years. Even taking into 
account the increasing financial tags attached to the War on 
Poverty, the costs pale in comparison to the price associated 
with the negative social impacts of these programs. I just 
think you have to look at, particularly, at the inner cities 
across the country, and think about the impacts that these 
programs have had in a negative way.
    The new welfare programs developed in 1964 and 1966 were 
based on Aid for Dependent Family with Dependent Children, 
which passed from the New Deal to the new Great Society 
program. The policymakers at the time intended the programs to 
spare widows with children having to work outside the home. 
Most of you were not around when Roosevelt did that, but some 
of us were. And if you lived in those times, one of the things 
you probably remember is the kind of work it took to raise a 
family. And we did not have paper diapers. We did not have 
automatic washing machines. We did not have any of the new 
technologies that we take for granted. So raising a child if 
your husband was dead was quite a task. So it was very 
difficult to ask mothers to go outside the home and raise their 
children.
    So AFDCA for dependent children came into place, and when 
it came into place, it came into a place with the assumption 
that fathers were dead. And that assumption in our programs 
lives on. When AFDC was used as the foundation for the poverty 
abatement programs, it negatively impacted family structures of 
the people receiving government assistance. The eligibility of 
government assistance was threatened if there was a man in the 
house. Some of you may remember the Man-in-the-House Rule that 
brought the state of Louisiana and the state of Alabama into 
court.
    The stretch of War on Poverty programs discouraged stable 
family relationships by punishing those in poverty if there 
were an employment or an employable male within the house. And 
there is no racial group in the United States that was more 
affected by these policies than black Americans. In 1960, only 
19.1 percent of black American children were being raised in a 
single mother home. Now it is over 30.4 percent.
    Chairman Ryan. Eloise, if you could summarize.
    Ms. Anderson. Okay. My summary is that we did a welfare 
reform program in 1964, in 1996, and we got a lot of people, 
about 93 percent of people off of TANF in Wisconsin and across 
the country. I believe the experience that we had in TANF was 
an experience that we should take to the larger programs. We 
did two things that I think are real important to all the other 
60 programs we have. We introduced work, and we introduced time 
limits. And I think that the programs as we go forward, we 
should do all our programs introducing work and introduce time 
limits. And work without time limits, I do not think it works. 
And time limits without work, I do not think it works. So that 
is basically my thoughts.
    [The prepared statement of Eloise Anderson follows:]

Prepared Statement of Eloise Anderson, Secretary, Wisconsin Department 
     of Children and Families; Chair, Secretary's Innovation Group

    Chairman Ryan, Ranking Member Van Hollen, and Members of the 
Committee: Thank you for inviting me to testify today. I consider it a 
privilege to have the opportunity to speak with members of the House 
Budget Committee.
    In response to instructions from the Committee, I'm going to talk 
about ``The War on Poverty at 49''; the positives and negatives of the 
current welfare system; and changes that could be made at both the 
State and Federal levels that would have a positive impact on poverty 
levels.
                              introduction
    The War on Poverty officially began in the United States on January 
8th, 1964 during President Lyndon Johnson's first State of the Union 
Address. On that day the President opened the initial salvo in a war 
that the American people are still fighting forty-nine years later. 
When Johnson stated, ``This administration today, here and now, 
declares unconditional war on poverty in America,'' \1\ he was setting 
into motion a series of social welfare initiatives that have caused 
reverberations in American society and within the American family that 
are still being felt today. By the end of the Johnson administration in 
1969, forty new programs aimed at eliminating poverty had been started. 
Today, these programs remain the foundation of our current welfare 
system. As the War on Poverty nears the half century mark it is vital 
that the nation takes a fresh look at these programs, with the purpose 
of ascertaining if they have had the intended effects on the people 
that they were designed to serve. If it is determined that they have 
not had the desired outcomes, or even worse had a negative impact on 
the populous, then we must decide what changes need to be made in order 
to help get us closer to winning this vital battle.
                               background
    Currently, there are 60 means-tested programs funded and directed 
by the federal government. The make-up of this staggering catalog 
include: 12 programs providing food aid; 12 programs funding social 
services; 11 programs for housing assistance; 10 programs providing 
cash assistance; 9 vocational training programs; 3 energy and utility 
assistance programs; and 3 child care and child development 
programs.\2\ In addition, there are an overabundance of similar 
programs that are funded and operated at the state and local level. 
Federal and state governments spend close to a trillion dollars a year 
on means tested benefit programs with the goal of reducing poverty.\3\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The number of programs and the tax-payer investment continue to 
climb at an alarming pace. The growth in anti-poverty programs has 
surged by 49 percent in just the past decade, even after adjusting for 
inflation.\4\ It is not a new revelation that the War on Poverty has 
failed to progress as President Johnson had envisioned. At the onset of 
the War on Poverty in 1964 the U.S. poverty rate stood at 19 percent. 
According to the latest census figures, today's poverty rate stands at 
15.1 percent,\5\ only a few percentage points below the 1964 level. 
This meager reduction in poverty levels occurred even with the federal 
and local governments spending more than $15 trillion on poverty 
abatement programs over the past 49 years.\6\
    Even taking into account the increasing financial price tag 
attached to the War on Poverty, these costs pale in comparison to the 
price associated with the negative societal impacts of these programs. 
The new welfare programs developed from 1964 to 1996 were based upon 
the Aid to Families with Dependent Children Act (AFDC) which was passed 
as part of the New Deal in 1930. Policy makers at the time intended the 
program to spare widows with children from having to work outside the 
home. Because of the nature of housework and the societal views 
regarding mothers working, it was thought that government aid should be 
used to keep mothers home with their children. The program policies 
were based on the assumption that the father of the children was dead. 
When AFDC was used as the foundation for all of the new poverty 
abatement programs, it negatively impacted the family structure of the 
people receiving government assistance. Under these programs' policies 
the welfare payments to support children were made to the single 
parents, usually single mothers. The eligibility of government 
assistance was threatened if there was a male in the home. The 
structure of the War on Poverty programs before 1996 discouraged stable 
family relationships by punishing those in poverty if there was an 
employed or employable male within the home. In no racial group were 
the effects of these policies more greatly felt than that of black-
Americans. In 1960 only 19.1 percent of black-American children were 
being raised in a single-mother home.\7\
    Today that number has ballooned to 50.4 percent.\8\ It is alarming 
that since the modern civil rights movement, the family structure for 
black-Americans has crumbled more than at any time in the generations 
following slavery. The long term consequences of the War on Poverty 
resulted in driving fathers away from their families, encouraging poor 
single- parent families and dramatically increasing unwed adolescent 
child bearing.
    By the 1980s, even the staunchest supporters of the War on Poverty 
could not ignore the damage that was being done to poor families. With 
policies that punished stable families and individuals who held any 
type of meaningful employment, generations of families were locked in 
the never ending cycle of welfare dependency. Led by my former boss, 
Wisconsin Governor Tommy Thompson the nation started to reform the 
failing welfare system. Wisconsin replaced AFDC with Welfare to Work 
(W-2) as the primary poverty abatement program. The reform in Wisconsin 
was a revolutionary way to look at government assistance. We believed 
that lavishing welfare benefits on recipients without asking anything 
in return locked people into a trap of welfare dependency, never 
gaining the life skills or employment history to rise significantly 
above the poverty line. With W-2 we stopped looking at government 
assistance as a welfare program, instead viewing it as a jobs program. 
We established work requirements that needed to be met in order to 
receive benefits and developed programs to aid in obtaining child care, 
health care, transportation and job training so that participants could 
meet the work requirements. As a result of the reforms we starting 
making in 1987, Wisconsin cut its number of welfare cases by 93 percent 
by the beginning of the 21st century.\9\
    It didn't take long for the rest of the nation to take note of the 
successful reforms in Wisconsin and demand change at the federal level. 
Heeding the public's demand for reform, in 1996, Congress replaced AFDC 
with Temporary Assistance for Needy Families (TANF). TANF changed the 
entitlement nature of welfare. By its very name, it was intended to be 
temporary aid with time limits. Along with that change, Congress 
established four new goals for welfare. First, assistance should be 
given to needy families so that children could be cared for in their 
own homes. Second, government should promote job preparation, 
employment and marriage in lieu of cash welfare payments.
    Third, government should promote programs that discourage and 
reduce the number of children born out-of-wedlock. Fourth, government 
should encourage the formation and maintenance of two-parent families. 
The conversion from AFDC to TANF is by far the single most important 
social policy development since the beginning of the War on Poverty. 
After TANF was created, welfare rolls dropped by roughly half \10\ 
while poverty dropped to its lowest recorded level in U.S. history for 
black children by the year 2001.\11\
    Given the initial success of TANF, why has the poverty level in the 
United States returned to levels almost as high as when the War on 
Poverty has began? It is easy to attribute the entire increase to the 
Great Recession. But in doing so, people are failing to see the entire 
picture regarding the cause of poverty. Welfare reform has reduced the 
number of families receiving assistance but has not necessarily 
addressed the underlying problems that detract from positive outcomes 
for children. A greater emphasis on family issues could be the key to 
promoting positive child outcomes in families receiving welfare. 
Shifting the focus on welfare reform from mother focused to a focus on 
both of the child(ren)'s parents is the answer.
    Since the beginning of the War on Poverty, the focus of welfare was 
always on assisting mothers, with the total exclusion of the roles 
fathers play in a family's ability to rise from poverty. One might 
conclude that the single-minded focus on mothers indicates that 
fatherhood is an unworthy role for a man. We have made a societal 
statement that fatherhood is only about money and that men are not 
expected to nurture their children. In the way we structure welfare, we 
have indicated that men are not important to whether or not a family 
succeeds. But study after study has shown that when fathers are not 
involved in the lives of their children, kids are more likely to live 
in poverty, commit crime and fail in school. One does not need a study 
to see the results of fatherlessness, just look at the inner cities 
across the nation! The need for involved fathers is just common sense. 
Children who live in single-parent homes tend to have more emotional, 
educational and physical problems than children living with both 
parents. While both boys and girls suffer from welfare's singular focus 
on women, boys are impacted by the negative effects in much harsher 
ways. Boys make up a majority of youthful substance abusers, the 
majority of homeless children and the majority of children in foster 
care. In addition, 70 percent of all youths in state operated 
institutions come from fatherless homes.\12\ A boy living in a single-
parent home is twice as likely to be incarcerated as his peer living 
with a mother and a father, regardless of the parents' race, income or 
education level. Under the current welfare system, men are vilified, 
marginalized and disconnected from society.
    Faced with the staggering costs of this war, with little evidence 
that the programs have accomplished much in addressing the root causes 
of poverty, the American people are demanding change in the battle 
plan. In a recent Rasmussen Report study, nearly half of the American 
people surveyed said that they believe that our nation's welfare 
programs do the opposite of their intended purpose and instead increase 
the level of poverty in the United States.\13\ Based upon the current 
poverty rate and the number of families who are stuck in the cycle of 
dependency generation after generation, the American people are right 
to question our current welfare system. The goal should change--we are 
not fighting an endless war--government is limited in what it can do 
and should do. Government can provide, with caution and humility, 
incentives for families to become self sufficient. To do that the 
nation will have to go where we have never gone before.
                            recommendations
    As in the last century, Wisconsin is leading the way in reshaping 
the War on Poverty. Just as my former boss Tommy Thompson 
revolutionized the system with Welfare to Work, my new boss Governor 
Scott Walker is reshaping the debate with initiatives to address the 
underlying issues that cause generational poverty. Governor Walker has 
focused on four factors when looking to restructure Wisconsin's social 
safety net, keeping in mind that the the goal is creating positive 
outcomes for children and families. First is that underlying conditions 
may contribute to a family's precarious economic situation. Second is 
that strengthening families requires attention to fathers as well as 
mothers; it still takes two. The third factor is that a child's 
neighborhood and community also play an important role in supporting 
children and families. Finally, work is more than just a means to a 
paycheck; rather it is an important part of developing a sense of worth 
and a means by which a family and individual is integrated into the 
community. By keeping the focus on child well-being and efforts to 
address the other goals of TANF, specifically keeping families 
together, reducing out of wedlock births and encouraging two-parent 
families, Wisconsin is serving as a model for the rest of the nation on 
how to promote child well-being and ending dependence on government 
benefits.
    With these goals in mind, Governor Walker has just signed into the 
budget the expansion of Wisconsin Works benefits to non-custodial 
parents, which generally means the father in the family. This serves 
the dual purpose of focusing on the creation of jobs and engaging 
fathers to help them gain the tools to be more positively engaged in 
society and the lives of their families. As I've indicated, for 
decades, human services focused mainly on the mother and her children 
and that most families on welfare are single-parent families. A variety 
of studies has made it abundantly clear that children living in single- 
parent families are at a higher risk for negative outcomes such as a 
lifetime of poverty, incarceration and homelessness. This approach 
clearly has not worked! Most families on welfare are single-parent 
families. But, when children in single-parent families receive 
financial support from the non-custodial, non-resident parent they are 
less likely to live in poverty and the chance of them breaking out of 
the welfare trap increases. Governor Walker's vision in re-engaging 
fathers recognizes what should be common sense--fathers matter! Fathers 
are extremely important influencers of their kids, whether they live 
with their children or not. Thus, if children's well-being is a serious 
concern in the War on Poverty, then the needs and aspirations of 
fathers must also be served. An additional benefit of focusing on non-
custodial fathers is that men who have gainful employment get married. 
On the other hand, men without jobs don't marry and women don't marry 
men without jobs. Promoting marriage was one of the most important 
aspects of welfare reform. Marriage is vastly important for children's 
well-being! By removing barriers for non-custodial fathers to gain job 
training and access to meaningful work that will support families, we 
begin to re-enable family stability and marriage. Work helps establish 
a sense of being and purpose for men and gets us closer to the 
attainable family goal of self-sufficiency.
    Focusing the structure of welfare services on the entire family is 
a vital change in helping the needy overcome the barriers to 
independence. It is important to maintain and strengthen the work 
requirements that were established in TANF. In July of this year, the 
U.S. Department of Health and Human Services granted itself authority 
to ``waive compliance'' with all of the work provisions in the TANF 
program. This is a decision that seriously threatens the gains that 
have been made in reducing the welfare caseload under TANF. Following 
this course is a move in the opposite direction of what is needed if we 
are to truly help more people become self sufficient and integrated 
into the community. The TANF work requirements were anything but 
onerous. They require that 30 to 40 percent of able-bodied recipients 
engage in a wide variety of things that are considered work activities, 
including government funded job training programs, for a total of 20 to 
30 hours per week. According to Professor Lawrence Mead at New York 
University, U.S. TANF was so successful because it required welfare 
mothers to go work with a clear-cut work requirement.\14\ Professor 
Mead not only extolls the benefits of the work requirement, but he 
believes that having a similar work requirement for men is the key for 
reconnecting men with the workforce and having a serious chance at 
urban reform in the United States. The work requirements in TANF must 
be preserved at all costs and even expanded into other poverty 
abatement programs like the Supplemental Nutritional Assistance Program 
(SNAP)!
    If we are truly going to assist families in becoming self-
sufficient, we need to give the people seeking assistance the tools of 
self-sufficiency. This means job training, as well as an appreciation 
that work, not government, is what will lead them to a better life. The 
American people seem to understand the need to have work requirements 
attached to our welfare assistance better than many policy makers. In a 
recent Rasmussen Report survey, 83 percent of American adults favor 
including work requirements to all welfare aid.\15\ Wisconsin Governor 
Scott Walker listened to the voices of the people! In the latest 
biennial budget Wisconsin established requirements that most able-
bodied adults spend at least 20 hours a week working or getting job 
training in order to receive SNAP benefits. People who do not meet the 
20 hour a week work requirement would have their SNAP benefits limited 
to three months of assistance over three years. This is a step in the 
right direction. We saw significant damage done to families by not 
having work requirements under AFDC; we are starting to see a similar 
cycle of dependency with SNAP. The current SNAP program asks almost 
nothing from non-working, able-bodied recipients in order to obtain 
benefits. This means that the program does nothing to help lead people 
towards self-sufficiency. Historically, about half of food stamp 
assistance has gone to families with children who have received 
benefits for more than eight years. Fundamental reform of SNAP is 
needed in order to refocus the program on promoting employment and 
independence from government assistance for able-bodied, working-age 
recipients. The rest of the nation should follow the lead of Governor 
Walker by starting to reform SNAP through work requirements.
    If the goal of work requirements for public assistance is to help 
people find employment that can support a family, then the nation must 
address the issue of the welfare cliff. The welfare cliff is the point 
at which people who have advanced in the work place and climbed up the 
income ladder lose all of their welfare assistance. The way in which 
all of our aid programs are structured is that your income either makes 
you eligible for benefits or makes you ineligible for benefits. This 
approach actually serves as a disincentive for people to become more 
self-sufficient. A recent paper demonstrated how through the stacking 
of welfare benefits, many individuals receiving welfare stand to lose 
financially by increasing their income.\16\ If we are serious about 
using tax-payers' dollars to provide assistances that helps families 
become self sufficient and reducing the number of people who are 
dependent on the tax-payers for their financial well-being, then we 
must change the policy to provide more flexibility to states and a 
inclusion of fathers and men. Men and fathers should not have to commit 
a crime to get the tools they need to become self-sufficient or care 
for their families.
    We also need to address the temptation recipients have to not take 
the steps needed to improve their employment skills because they are 
comfortable with their financial status when government assistance is 
added on top of their work income. The best approach to removing this 
temptation is by the implementation of fixed time limits.
    Recipients of all means tested public assistance programs should 
face a deadline at which point their assistance is cut off. Incentives 
to work should be arranged in a manner that assists families in being 
ready for self-sufficiency when they meet these time limits.
    Congress often is most productive when a deadline is looming or 
there is an urgency to act; the majority of people are the same way. 
Time limits force change!
                               conclusion
    The War on Poverty has not experienced the success that Lyndon 
Johnson envisioned. Due to the policies governing how assistance has 
been administered, far too many Americans are now dependent on the tax-
payer. This is not fair to either the people stuck in the system or to 
the tax-payers who are funding these programs. Being responsible wards 
of tax-payer dollars is our sacred duty as policy makers. We can do a 
better job. Through sensible reform that focuses on the benefits of 
work, puts a greater emphasis on family and engages both parents in 
accepting their responsibility for the family the made, government can 
remove itself from people's lives. Independence from welfare programs 
empowers the poor to experience more liberty and allows them to 
contribute their talents to the community. As a result, the nation 
benefits from a more integrated society where all of our citizens' 
talents and knowledge are utilized.
                                endnotes
    \1\ http://www.pbs.org/wgbh/americanexperience/features/primary-
resources/lbj-union64/
    \2\ http://news.investors.com/ibd-editorials-perspective/091710-
547746-more-proof-we-canand8217t-stop-poverty-by-making-it-more-
comfortable-.htm?p=full
    \3\ http://www.familyfacts.org/charts/310/since-the-war-on-poverty-
began-in-1964-welfare-spending-has-skyrocketed
    \4\ http://www.heritage.org/research/reports/2012/10/federal-
spending-by-the-numbers-2012
    \5\ http://aspe.hhs.gov/hsp/12/povertyandincomeest/ib.shtml
    \6\ http://www.cato.org/sites/cato.org/files/pubs/pdf/PA694.pdf
    \7\ http://aspe.hhs.gov/hsp/trends/tables.pdf
    \8\ http://www.census.gov/prod/2011pubs/p70-126.pdf
    \9\ http://www.ontheissues.org/2008/Tommy--Thompson--Welfare--+--
Poverty.htm
    \10\ http://www.cato.org/sites/cato.org/files/pubs/pdf/PA694.pdf
    \11\ http://www.heritage.org/research/reports/2003/06/sharp-
reduction-in-black-child-poverty-due-to-welfare-reform
    \12\ http://thefatherlessgeneration.wordpress.com/statistics/
    \13\ http://www.rasmussenreports.com/public--content/business/
general--business/july--2012/49--say--current--government--programs--
increase--level--of--poverty--in--u--s
    \14\ http://www.manhattan-institute.org/html/cb--44.htm
    \15\ http://www.rasmussenreports.com/public--content/business/
jobs--employment/july--2012/83--favor--work--requirement--for--
welfare--recipients
    \16\ http://www.aei.org/files/2012/07/11/-alexander-presentation--
10063532278.pdf

    Chairman Ryan. Thank you, thank you. Dr. Besharov.

                 STATEMENT OF DOUGLAS BESHAROV

    Mr. Besharov. Thank you very much, Chairman Ryan and 
Ranking Member Van Hollen, and the other members of the 
Committee. I teach at the University of Maryland, as Mr. Ryan 
said, and I am also at the Atlantic Council. I am delighted to 
be here, and I have a 20-page statement which I will not even 
go into.
    Chairman Ryan. Summarize it in five minutes.
    Mr. Besharov. There you are. I thought I would pick up on 
the discussion from Mr. Van Hollen and Mr. Ryan. I do not know 
what the words are, sir, but I think I am one of the people who 
chose welfare instead of work. I was in law school, and Lyndon 
Johnson was president. The Congress, in its wisdom, extended 
Social Security benefits for the survivors of widows--my father 
was dead--extended benefits for full-time students up to the 
age of 21. I was working my way through school, and I did the 
math. And it simply did not pay for me to work if I was a 
student. I quit my job immediately and took the check from the 
government.
    Now I think, for me, that was a good investment. Well, some 
people on the Committee might not agree. For me it was a good 
investment because I translated the time I would have been 
working at a minimum wage job for a government check. It made 
sense, I got an education, and the rest is quasi-history. But 
my point is that I do not think there is anything immoral in 
responding to a government incentive. If the government says 
you can get a tax deduction for throwing away your car that 
works just perfectly, it is not immoral to do so. If the 
government has a rule that says stop working, stay in school, 
and learn more, and we will pay you for it, that seems like a 
fair incentive as well. I think the lesson from my own personal 
experience is there are good incentives and there are bad.
    Mr. Van Hollen sort of summarized my testimony, fairly as a 
matter of fact, so I gain a minute or two there. Let me take 
you to my testimony, though, and Figure 4, which is on Page 9. 
This is a distribution on income inequality. And we hear a lot 
about this, and the top 1 percent and so forth, and you all 
know very well that experts are terrific at choosing whatever 
number they want to focus on. Here I want to focus on one point 
that my testimony makes, and Mr. Van Hollen made, which is in 
the last 30 years there has been a very large increase in 
means-tested benefits for the most unfortunate among us. If you 
look at this graph, what you see is the difference between 
reported incomes in the Census Bureau and what happens if you 
load those incomes with non-cash benefits, housing benefits, 
and so forth. And what it says is that through 40 years of 
fighting poverty, we have taken people in the bottom quintile, 
bottom 20 percent of the population whose incomes were $15,000 
in 1968; this is adjusted to 2012 numbers. Those people do not 
earn much more now, but we have added almost $15,000 of 
benefits to their daily lives. Some people will say that is 
good, some people will say that is bad. It is real, and it has 
made their lives much better.
    But what it has also done is introduce a series of 
incentives like the one I faced when I was in law school. 
Depending on what you can earn, depending on whether you marry 
your boyfriend, your benefit package goes up, or goes down. And 
I do not think, to echo what Mr. Ryan said, I do not think it 
is cutting, necessarily, programs to say we have to get the 
incentives structures right. And they are not right. If you 
look at my testimony, you can see the vast increases in people 
on SNAP, on Medicaid, all that started under President Bush. 
This is not just a story about Democrats. This is a story of 15 
years of expansion of means-tested programs without thinking 
about their incentive effects.
    The last part of my testimony talks about a project that I 
am really lucky to be part of, and happy to invite any of you 
to be part of it, which is studying what they do in Europe. And 
the conservative but also the socialist governments in Europe 
have seen the same trends that we have here: large numbers of 
people on means-tested programs, unemployment insurance, health 
benefits, and disability. And they have, for the last 15 years, 
been trying to rewrite the incentives for those families on 
benefit packages. In my testimony I go through some of them. If 
you look at them and you say, ``Could this Congress, could this 
government adopt even half of those incentives, the right 
incentives that encourage work without necessarily reducing 
benefits,'' I scratch my head and I say, ``I hope so, ladies 
and gentlemen, I really hope that this Congress or the next one 
starts to address the incentives that need to be fixed in these 
programs.'' Thank you very much.
    [The prepared statement of Douglas Besharov may be accessed 
at the following Internet address:]

  http://budget.house.gov/uploadedfiles/douglas_besharov_testimony.pdf

    Chairman Ryan. Sister Campbell.

                  STATEMENT OF SIMONE CAMPBELL

    Ms. Campbell. Thank you, Chairman Ryan and Congressman Van 
Hollen, for this opportunity, and Committee. I am Sister Simone 
Campbell, the executive director of NETWORK, a national 
Catholic social justice lobby, and sort of well-known as leader 
of Nuns on the Bus. At NETWORK for 41 years we have worked with 
people at the margins of society so that their voices can be 
heard here on Capitol Hill. And for my entire life in my 
religious community, I have worked with those who struggle 
economically, people often referred to as the working poor. I 
do this work from faith because I know, as our Pope Francis 
recently said, quote, ``The measure of the greatness of a 
society is found in the way it treats those most in need, those 
who have nothing apart from their poverty,'' end quote.
    I want to believe that our society is great, but I do agree 
that we have work to do. The Census Bureau's supplemental 
poverty measure, and my daily experiences, tell us that every 
day in America, support, such as the EITC, SNAP, and Medicaid, 
are making critical differences in the lives of low income 
families, particularly children. The safety net does lift 
millions of people out of poverty. In fact, in 2011, government 
benefits lifted a total of 40 million people out of poverty. 
While Social Security has the largest impact of any single 
program, means-tested programs such as SNAP, SSI, and the EITC, 
lifted almost 20 million Americans, including 8.5 million 
children, out of poverty. That is good news.
    But we also know that far too many of our neighbors 
struggle to make ends meet, and too many children face 
diminished prospects because of their disadvantaged 
circumstances. The causes of poverty are complex and have 
changed over the years. One of the biggest current drivers of 
poverty right now is low wages. Sixty-eight percent of the 
children living in poverty live in families where there are 
working parents. Sixty-eight percent. Eighty-two percent of 
children living in families with incomes below twice the 
poverty line are living in families with working parents. The 
most important programs that help these families survive are 
principally, again, EITC, CTC, SNAP, Medicaid, CHIP. They are 
hugely successful programs making a big difference.
    I would like to introduce you to some of my friends, my 
people. So please meet Billy, and I understand his picture can 
come up here. He is on the left there. Meet Billy from 
Milwaukee. I think I would get a Wisconsin person here. He and 
his wife both work, but their hours were cut back in the 
recession. Their combined salaries keep a roof over their two 
boys' heads. They use SNAP to feed the boys during the day, and 
St. Benedict the Moor Dining Room in the evening. Billy told me 
that it was okay for him, as a parent, to eat just once a day, 
but it was not right for growing kids, especially his 14-year-
old boy, teenager. SNAP, EITC, and CTC have allowed Billy and 
millions of others to care for their families while they 
continue to work.
    But other families have more complex stories of struggle. 
For them, a network of programs can make all the difference. 
Please meet Tia. Tia, who I met in Iowa, Tia grew up in foster 
care and ran away at 16 because of mistreatment. She thought 
that she needed to sleep with men in order to survive. When we 
met she was 19 and had been homeless with two children. This is 
a horrible scenario that none of us like. What you need to know 
is that Tia, when we met, was leaving a shelter run by Catholic 
sisters and moving to transitional housing. She had learned to 
cook, to be a better mother, she had gotten her GED, and was 
working part-time while studying in a community college to 
become a licensed vocational nurse. This progress was because 
of federal programs that helped fund the shelter, transitional 
housing, SNAP, Medicaid, Pell Grants, et cetera, as well as the 
love and care of the sisters and staff. Love and care alone 
were not enough. It required significant funding from the 
federal government and the private sector, and a dedicated 
staff.
    One of the biggest stumbling blocks for adults in poverty 
is access to health care. I know that some, probably some of 
you, want the Affordable Care Act repealed. But this desire 
ignores our nation's need and the fact that the ACA is already 
helping to control general medical costs, but that is a 
different issue. But I want to introduce you to Margaret 
Kissler, who lost her job in Cincinnati during the 2008 
recession. With no job she had no health care. She had no 
health insurance. She could not afford COBRA coverage. She knew 
she was at risk for colon cancer, but could not afford the 
screenings. When finally seen in the emergency room, she was 
terminally ill. Margaret died last year at age 56. This is why 
the expansion of Medicaid in the ACA is so critical. Had it 
been fully implemented in 2010, Margaret could have received 
screening, treatment, and been a contributing member of our 
society today.
    For me, the expansion of health care is a pro-life issue. 
But it is also good economics. These three people are real U.S. 
citizens. Margaret contributed to her community, but died 
because she lacked health care. Tia and Billy strive to raise 
their families and contribute to their neighborhoods. They have 
used federal programs to improve their situation and give 
stability to their children. They represent the millions of 
Americans who have benefitted from these vital programs that 
are a mix of public-private cooperation.
    One final word about SNAP.
    Chairman Ryan. If you could summarize, please. Thank you.
    Ms. Campbell. Surely. SNAP is the most effective program we 
have with the least amount of waste, fraud, and abuse. It lifts 
people from utter destitution to just above one-half of the 
poverty line. It is more important in giving stability to kids, 
families, than just about any of the other programs. From my 
perspective, cutting SNAP is wrong morally, and is not in 
keeping with the actual facts about the program. It expanded 
because of the great recession; it will contract if we grow the 
economy. In the richest nation on Earth, we are not suffering 
from a scarcity of resources for these programs. We suffer from 
a scarcity of political will to do what is needed. Faith and 
patriotism demand that we avoid the easy sound bites that cast 
poor families as other, lazy, and blames poverty on the very 
programs that help families survive. Faith and patriotism 
demand investing in the supports that bring both dignity and 
opportunity to people. I pray that this hearing strengthens our 
political will to act with moral integrity and form the more 
perfect union that our Constitution calls us to, and promotes 
the general welfare by giving all people real opportunity, real 
wages, and real support for their family.
    Chairman Ryan. Thank you.
    Ms. Campbell. I am very grateful for this opportunity. 
Thank you.
    [The prepared statement of Simone Campbell follows:]

Prepared Statement of Sister Simone Campbell, SSS, Executive Director, 
           NETWORK, a National Catholic Social Justice Lobby

    Thank you for the invitation to testify today. I am Sister Simone 
Campbell, Executive Director of NETWORK, a National Catholic Social 
Justice Lobby and the leader of Nuns on the Bus.
    I come to this topic of contributing to a Progress Report on the 
War on Poverty as a Catholic Sister rooted in the Christian Tradition. 
Our Pope Frances recently stated that ``The measure of the greatness of 
a society is found in the way it treats those most in need, those who 
have nothing apart from their poverty!'' But this is not just Pope 
Frances. Pope Benedict and every Pope before him for the last 125 years 
has also challenged governments to exercise their responsibility in 
ensuring that the least in a society are provided for.
    In his letter Charity in Truth, Pope Benedict said that ``Charity 
goes beyond justice, because to love is to give, to offer what is 
`mine' to the other; but it never lacks justice, which prompts us to 
give the other what is `his', what is due to that person by reason of 
his being. * * * I cannot give what is mine to the other without first 
giving what pertains to him in justice.'' He goes on to say that 
``life'' ethics are not separate from social ethics and states: ``This 
is not a question of purely individual morality.'' He criticizes the 
way that society ``asserts values such as the dignity of the person, 
justice and peace, but then, on the other hand, radically acts to the 
contrary by allowing or tolerating a variety of ways in which human 
life is devalued and violated, especially where it is weak or 
marginalized.'' (PAR 15) In the same letter Pope Benedict goes on to 
say that every spending decision is a moral decision. He also states 
that ``Development is impossible without upright men and women, without 
financiers and politicians whose consciences are finely attuned to the 
requirement of the common good.'' So this testimony is an attempt to 
help attune your consciences to the requirement of the common good.
    But this is not just a Catholic concern. For each of the last two 
years the interfaith community here in Washington DC has worked 
together to craft a ``Faithful Budget'' that does the hard work of 
bringing common good, economic responsibility and the values of 
different faiths to the budgetary process. What we clearly state is 
that the Federal Budget and your policy priorities are moral decisions 
that have significant consequences for our society and our world. As 
moral decisions they need to be taken seriously and weighed on the 
scale of the common good. I am attaching the Faithful Budget to this 
testimony so that you can read the moral stance of the Christian, 
Jewish and Muslim community in the United States. The basic principle 
is that we as a nation need reasonable revenue for responsible 
programs. All programs that our government funds need to be accountable 
and effective. This is true for the safety net program as well as all 
of the business subsidies like to the oil companies, corporate 
agriculture, defense industry, etc. We in the faith community see that 
too often only safety net programs are inspected for accountability.
    It is tempting to think of ``poverty'' in extremes and stereotypes. 
We have a tendency to lump all kinds of people together. But people 
living in poverty are varied and need to be considered separately. 13 
percent are seniors, who depend on Social Security and Supplemental 
Security income for their livelihood. About one in 10 people in poverty 
are the disabled who are unable to work and their children. Some 61 
percent of people in poverty are in working families. Then there are 
the ``near poor'' living in urban environments where the cost of living 
is high and wages are low. (These figures use Supplemental Poverty 
Measure and are for 2011.) So we cannot think simplistically about 
these families.
    More than one in four jobs pays wages below the poverty level. 
Thus, it isn't surprising that about seven in 10 children living in 
poverty live in working families. More than 8 in 10 children living in 
families with incomes below twice the poverty line are living in 
working families. While there is less economic mobility today than in 
the past, it is still the case that people who are poor today may not 
have been poor 2 or 3 years ago and may not be poor two or three years 
from now.
               the safety net helps millions of americans
    Comparing poverty rates today to those 40 and 50 years ago is more 
difficult than it would seem. Too often, the official poverty rate 
today is compared to the rate in the late 1960s and 1970s, leading to 
the erroneous conclusion that the War on Poverty failed. This 
comparison relies on a flawed poverty measure and overlooks the strong 
antipoverty impacts of programs such as SNAP and the EITC.
    The official poverty measure only looks at cash income, excluding 
both noncash benefits such as SNAP and housing assistance, as well as 
the impact of the tax system--including both taxes paid and the 
benefits received from refundable tax credits, particularly the EITC 
and Child Tax Credit (CTC). The new government measure, known as the 
Supplemental Poverty Measure (SPM), is a more modern poverty measure 
and takes into account non-cash and tax-based benefits (as well as 
taxes paid). It also considers the impact of out-of-pocket medical 
expenses, work expenses, and differences in the cost of living among 
different localities on a family's ability to make ends meet. The SPM 
allows us to analyze the impact of programs such as SNAP and the EITC 
on poverty--but it isn't available back to the 1960s and 1970s, so 
doesn't allow a clean comparison of poverty today to those four and 
five decades ago.
    An apples-to-apples comparison that included benefits such as SNAP 
and the EITC would tell a more favorable story about the long-term 
trend in poverty than the comparison using the official poverty 
measure.
    A recent analysis by the Center on Budget and Policy Priorities 
looks at the impact of public programs on poverty, using the SPM. Its 
analysis makes clear that public programs play an important role in 
reducing poverty. In 2011, government benefits lifted a total of 40 
million people out of poverty. While Social Security has the largest 
impact of any single program, means-tested programs such as SNAP, SSI 
and the EITC lifted almost 20 million Americans, including 8\1/2\ 
million children, out of poverty.
    Reducing poverty is important--but we have a growing body of 
research documenting what I see every day across the country: 
assistance programs also help stabilize families and provide pathways 
to opportunity. Programs that help families put food on the table and a 
roof over their heads, that mean the difference between someone getting 
health care or going without, that help students go to college and 
young children go to preschool don't just help families make ends meet 
and avoid destitution. They help children go to school ready to learn 
and stay in one school rather than moving from school to school because 
their housing is so unstable. They help children get the health care 
they need. They help parents focus on parenting, not finding the next 
place to live because eviction is around the corner. They help young 
people and nontraditional students alike get more education and skills 
so they can make it in this increasingly competitive global economy.
    This research literature is growing, but here are a couple of 
examples:
    <bullet> Several different studies have found that the EITC and CTC 
increase employment rates of parents, reduce child poverty, and have a 
positive impact on children's school performance, which is a key factor 
in future economic success.\1\
---------------------------------------------------------------------------
    \1\ See for example: Nada Eissa and Hilary Hoynes, ``Behavioral 
Responses to Taxes: Lessons from the EITC and Labor Supply,'' NBER 
Working Paper No. 11729, November 2005, http://www.nber.org/papers/
w11729; Raj Chetty, John N. Friedman, and Jonah Rockoff, ``New Evidence 
on the Long-Term Impacts of Tax Credits,'' Statistics of Income Paper 
Series, November 2011, http://www.irs.gov/pub/irs-soi/
11rpchettyfriedmanrockoff.pdf; Gordon Dahl and Lance Lochner, ``The 
Impact Of Family Income On Child Achievement: Evidence From The Earned 
Income Tax Credit,'' American Economic Review (2012), 1927-1956, http:/
/www.aeaweb.org/articles.php?doi=10.1257/aer.102.5.1927; Greg J. Duncan 
and Katherine Magnuson, ``The Long Reach of Early Childhood Poverty,'' 
Pathways (Winter 2011), http://www.stanford.edu/group/scspi/--media/
pdf/pathways/winter--2011/PathwaysWinter11--Duncan.pdf; and Greg J. 
Duncan, Kathleen M. Ziol-Guest, and Ariel Kalil, ``Early-Childhood 
Poverty and Adult Attainment, Behavior, and Health,'' Child Development 
(January/February 2010), pp. 306-325.)
---------------------------------------------------------------------------
    <bullet> Researchers were able to compare outcomes for poor babies 
in the 1960s and 1970s who were fortunate enough to live in counties 
served by the Food Stamp Program to poor babies who lived in counties 
that did not yet have the program. Babies in those counties served by 
Food Stamps were healthier as adults and were more likely to finish 
high school.\2\
---------------------------------------------------------------------------
    \2\ Hilary W. Hoynes, Diane Whitmore Schanzenbach, and Douglas 
Almond (2012), ``Long Run Impacts of Childhood Access to the Safety 
Net,'' National Bureau of Economic Research Working Paper 18535, 
www.nber.org/papers/w18535
---------------------------------------------------------------------------
    <bullet> Researchers--as well as any teacher, principal, or school 
superintendent--know that children do better in school when they do not 
change schools frequently. Researchers have documented that low-income 
children who receive housing assistance have fewer moves and fewer 
school changes.\3\
---------------------------------------------------------------------------
    \3\ David H. Rubin et al., ``Cognitive and Academic Functioning of 
Homeless Children Compared with Housed Children,'' Pediatrics 97:3: 
289--94, 1996. Similar results have been found in more recent studies; 
Maya Brennan, ``The Impacts of Affordable Housing on Education: A 
Research Summary,'' Center for Housing Policy, May 2011.
---------------------------------------------------------------------------
                   snap: fulfilling a sacred mission
    The Supplemental Nutrition Assistance Program (SNAP) is a lifeline 
to millions of Americans. In fact, SNAP does more than any other 
program to reduce the number of Americans who live in deep poverty, 
that is, below half the poverty line. Research by the University of 
Michigan's H. Luke Shaefer and
    Harvard University's Kathryn Edin has documented a sharp rise in 
the number of Americans living on less than $2 per person, per day--a 
World Bank standard used to document poverty in third world 
countries.\4\
---------------------------------------------------------------------------
    \4\ H. Luke Shaefer and Kathryn Edin, ``Rising Extreme Poverty in 
the United States and the Response of Federal Means-Tested Transfer 
Programs,'' National Poverty Center Working Paper 13-06, May 2013, 
http://www.npc.umich.edu/publications/working--papers/?publication--
id=255&.
---------------------------------------------------------------------------
    They find that in 2011, there were more than 1.6 million households 
with children whose cash incomes were below this paltry standard, but 
that SNAP reduced the number of households trying to scrape by on this 
little by half.
    Moreover, SNAP has worked just as it was designed to over the 
course of the Great Recession and its aftermath when millions are still 
out of work. As more people needed help, the program provided it to 
them--giving the working poor the help they need to bridge the gap 
between their wages and the costs of raising the families, and giving 
the jobless and most vulnerable the ability to sustain themselves. This 
growth in SNAP is not a scandal or evidence that the program has run 
amok, but the consequence of a weak economy and a national commitment 
to take care of those at the margins of our society. That is a 
commitment I believe the public shares and that the nation should be 
proud of. The Congressional Budget Office projects that as the economy 
continues to recover and more people are able to find jobs, the number 
of people receiving SNAP and the cost of the program will fall as well.
    SNAP is the most effective program we have in reducing deep poverty 
among children--in lifting people from utter destitution to above one-
half of the federal poverty line. SNAP worked just as it was designed 
to over the course of the Great Recession and its aftermath when 
millions are still out of work or underemployed. As more people needed 
help, the program provided it to them--giving the working poor the help 
they need to bridge the gap between their wages and the costs of 
raising the families, and giving the jobless and most vulnerable the 
ability to sustain themselves. This growth in SNAP is not a scandal or 
evidence that the program has run amok, but the consequence of a weak 
economy and a national commitment to take care of our neighbors most in 
need. That is a commitment I believe the public shares and that the 
nation should be proud of.
    There has been much said in recent weeks about the need for people 
to work. Often overlooked is the fact that most households that receive 
SNAP and include a non-disabled adult do work while they receive SNAP--
and a very large share, more than 8 in 10, work in the year before or 
the year after they receiving SNAP.\5\ That said, there are many people 
who have great difficulty finding work, particularly during the 
recession and its aftermath. In my experience, most people who are out 
of work desperately want a job. And, while we need to do all we can to 
help people find and keep jobs, we must also show basic compassion and 
ensure that our neediest neighbors have enough to eat.
---------------------------------------------------------------------------
    \5\ Dottie Rosenbaum, ``The Relationship Between SNAP and Work 
Among Low-Income Households,'' January 2013, Center on Budget and 
Policy Priorities, http://www.cbpp.org/cms/index.cfm?fa=view&id=3894.
---------------------------------------------------------------------------
      infant mortality: one indicator of the strides we have made
    Too often, the real success stories of public investments are 
ignored. But, despite the fact that poverty in the United States 
remains too high and higher than in other wealthy countries, we have 
made progress. Infant mortality is one such area. In 1935, infant 
mortality stood at 55.7 per live births overall, with the infant 
mortality rate for African American babies exceeding 80.\6\ Infant 
mortality rates have fallen significantly since 1935, due to a 
combination of improved living standards, advances in medical care, and 
increased access to that care.
---------------------------------------------------------------------------
    \6\ The cite is here: http://ask.hrsa.gov/detail--
materials.cfm?ProdID=4497
---------------------------------------------------------------------------
    Access to Medicaid is one part of this story. Researchers have 
shown that expanding the reach of Medicaid to more pregnant women 
during the 1980s helped reduce infant mortality rates.\7\
---------------------------------------------------------------------------
    \7\ Citation is here: http://www.princeton.edu/?jcurrie/
publications/saving--babies.pdf
---------------------------------------------------------------------------
    To be sure, there is more work to be done. The U.S. has a higher 
infant mortality rate than most other wealthy nations. We also have a 
higher poverty rate, when all benefits are considered, than most other 
wealthy countries. But, as we take a hard look on where we need to do 
better, we should not ignore the progress made or the role that 
supports such as Medicaid, SNAP, or WIC play in the lives and health of 
families.
                              health care
    Beyond improved prenatal and infant care, Medicaid is a lifeline 
for millions of Americans. Research has shown that children covered by 
Medicaid are more likely to receive preventive care, like well-child 
check-ups, than uninsured children. Adults also are more likely to get 
preventive care and are less likely to face financial ruin if struck by 
illness or injury. Medicaid has been linked by researchers to lower 
adult mortality rates.\8\
---------------------------------------------------------------------------
    \8\ See: Amy Finkelstein, Sarah Taubman et al., ``The Oregon Health 
Insurance Experiment: Evidence from the First Year,'' National Bureau 
of Economic Research Working Paper No. 17190, July 2011, http://
www.nber.org/papers/w17190. See also http://www.offthechartsblog.org/
does-medicaid-matter-new-study-shows-how-much/; Katherine Baicker, 
Sarah Taubman et al., ``The Oregon Experiment--Effects of Medicaid on 
Clinical Outcomes,'' New England Journal of Medicine; 368:1713-1722, 
May 2, 2013; Benjamin Sommers, Katherine Baicker, and Arnold Epstein, 
``Mortality and Access to Care among Adults after State Medicaid 
Expansions,'' New England Journal of Medicine; 367:1025-1034, September 
13, 2012.
---------------------------------------------------------------------------
    Despite these achievements, there are frequent calls for cutting 
Medicaid deeply and repealing the Affordable Care Act that will both 
expand Medicaid coverage to more poor and low-income people and ensure 
that low and moderate income Americans have access to affordable 
private coverage.
    The United States has stood alone among wealthy countries in 
leaving millions of people without access to affordable health 
coverage. And that lack of coverage has consequences for real people. 
Margaret Kistler lost her job in Cincinnati during the 2008 recession. 
With no job she had no health insurance. She could not afford COBRA 
coverage. She knew she was at risk for colon cancer, but could not 
afford the screenings. When finally seen in the emergency room she was 
terminally ill. Margaret died last year at age 56. This is why the 
expansion of Medicaid in the ACA is so critical. Had it been fully 
implemented in 2010, Margaret could have received screening, treatment 
and been a contributing member of society today. For me the expansion 
of healthcare is a pro-life issue. But it is also good economics.
                               conclusion
    As we approach the 50th anniversary of President Johnson's War on 
Poverty, it is key that we look honestly at poverty in the United 
States and the efforts we undertake to ameliorate poverty. The data and 
the research--and the everyday experiences of millions of Americans--
tell the same story.
    Programs like SNAP, the Earned Income Tax Credit, the Child Tax 
Credit, Medicaid, CHIP, housing assistance and child care assistance do 
a tremendous amount of good. They reduce poverty and help families make 
ends meet. They provide needed health care that saves lives. They 
support parents who work. They reduce hunger and improve health. They 
stabilize families and improve children's school performance. In short, 
they make our nation better. These programs support low wage working 
families and give them an opportunity to survive.
    But, at the same time, poverty remains too prevalent. Too many 
children's futures are shortchanged because of the circumstances of 
their parents. Too many adults are out of work or underemployed. Too 
many people lack access to health care. We won't address these problems 
by ignoring the successes of today's safety net, but neither is today's 
safety net adequate--we need a new commitment to reduce poverty and 
promote opportunity.
    This commitment for me is rooted in my Catholic Faith and Jesus' 
demand that if we are to follow in His way, we must respond to those in 
need not just out of charity, but also in justice. Our faith tells us 
that individuals and their governments have a responsibility to act on 
behalf of the common good. This is what it means to live our faith.
    In a pluralistic society I know that not all share this same faith 
mandate. But what I know is that what we do share is in the 
Constitution. It is the framework for our democracy. In that context we 
as a society have tried to combine public and private efforts to 
address the poverty that challenges too many families. We have made 
some progress. But our programs are not perfect. But the framers of our 
Constitution called on We the People continually to strive to form a 
more perfect union. That is what we must do if we are to lighten the 
yoke of poverty and provide a true path to prosperity. Successful 
programs must be enhanced because people need their support. Finally, 
as the interfaith community acknowledges in the Faithful Budget, We the 
People must responsibly raise revenue to pay for these important 
programs. That is the faithful and patriotic way forward.

    Chairman Ryan. Thank you. Let me start with you, Secretary 
Anderson. I know your schedule is tight so I want to start with 
you. One of the reasons for welfare reform that we had in the 
1990s was that the old system was, in fact, creating more 
poverty. You have been a front-line fighter pretty much your 
adult life. Is today's approach to welfare any better for 
children of low income families? Have we learned good lessons 
and replicated them to the rest of the system, or did we stop 
applying the lessons learned in those days? That is question 
number one.
    Question number two: SNAP, you know, is often brought up. 
You are part of the Secretary's Innovation Group, which is a 
group of secretaries at the state level fighting poverty, 
trying to basically come together with ideas, and you called 
for more state flexibility to adjust the SNAP program to make 
it work better. How would you make it work better? What do you 
think should be done to make it more effective? And I will just 
leave it at that with you because I have got a few more for the 
other folks.
    Ms. Anderson. Okay. TANF, I think TANF has largely been 
successful. It did mostly what it set out to do, which was to 
get people back into work, or people into work who had never 
been into work. In many states, people tried a variety of 
things, but what we tried was work first, put childcare around 
that, and put transportation around that, and 90 percent of the 
people left our program and have continued to stay off. So what 
I think we learned from TANF was that we need to figure out how 
to incentivize work, work has to be real important, how to do 
that in a way that makes sense.
    What I think we have learned from TANF is that you cannot 
just support the mother's effort. You also have to support 
fathers. And what we did not do in TANF was really support 
fathers. We tend to act like men are sort of pariah in our 
society. And poor men, evidently, are worst pariahs because we 
do not really do very much to support them. And then we do not 
do very much to support two-parent families. So the things that 
I think we have learned from TANF is that we need to do more 
work around supporting two-parent families. We should treat 
two-parent families exactly the way we treat single families. 
We should put more work incentives around males. What we do 
know, and I know this may sound a little strange, is that men 
who do not have work do not marry, and women do not marry men 
who do not have work. So if we get men work, we can start to 
solve some other problems.
    To the SNAP program, when I look at it, especially able-
bodied men, people who are not working, those are mostly men. 
Those are mostly fathers. Those are mostly fathers who have 
child support orders. So if we can put work programs around 
SNAP, and tie them in close ways to the mothers in W-2, I think 
we would begin to solve child poverty. I think what we have 
forgotten is that fathers are real important to their children. 
I believe we learned that in TANF by not focusing in on 
fathers. And SNAP needs to have more work incentives in it. And 
the states need to be a part of the game. Right now states only 
administer it, putting in money to administering, and I think 
whatever savings we would get out of SNAP should be shared 
between the federal government and the states. And I think you 
would have more ideas going into how we deal with SNAP.
    My thought has always been around the SNAP program, even 
when it was called food stamps, is why do you have this 
program, school programs, school breakfast, school lunch, 
school dinner, when do we start asking parents to be 
responsible for their children? You know, a little boy told me 
once that what was important to him is that he did not want a 
school lunch, he wanted a brown bag because a brown bag that he 
brought, put his lunch in it, meant that his mom cared about 
him. Just think what we have done. If this kid tells me a brown 
bag was more important than a free lunch, we have missed the 
whole notion of parents being there for their children because 
we have taken over that responsibility, and I think we need to 
be very careful about how we provide programs to families that 
do not undermine families' responsibilities.
    Chairman Ryan. Thank you. Boy, there is so much more I 
could go on that.
    Dr. Besharov, you, basically, at your five-minute cut-off, 
you were about to talk about what the British are doing to 
reform their welfare system. I, too, have been studying the 
British system. I am very intrigued with some of their ideas 
and some of the earlier results. Could you elaborate on what it 
is they are doing, what are the results, and what lessons we 
should derive from that?
    Mr. Besharov. Yes, and thank you.
    Chairman Ryan. Turn your mic on, please.
    Mr. Besharov. The first thing I want to emphasize is that 
the reforms in the U.K. started under the Labor government, and 
the coalition government has continued the reforms and 
increased them. But this is a program that started under the 
Labor government, liberal socialists. The idea was that there 
are not that many differences in the dependency of disabled 
people, unemployed people, people on social assistance or loan 
parent, what we call welfare, that many of them had similar 
kinds of problems about getting into the labor force, being 
incentivized to find jobs, and so forth. And they also had 
another realization, which is like our programs, the combined 
marginal tax rates of someone who is getting food stamps, 
getting this and getting that, can approach, as researchers 
from the Urban Institute pointed out, 89 percent. You make a 
dollar and the government takes 89 cents. It just does not pay 
to work for 10 cents an hour.
    So they saw those realities, and, of course, they did not 
have the kind of committee system we have in the Congress, 
which makes this difficult, but they essentially combined the 
programs, not at the intake stage. The programs are essentially 
the same. You go in and you apply. You apply for the equivalent 
of TANF, or SNAP, or whatever. But after a determination is 
made that you are eligible, then they decide what kinds of 
work-first programs, what kinds of incentives you need to find 
a job. Do you need help with filling out a resume or whatever? 
And they put people in the same pot for those services.
    The other thing they have done, which is something that the 
Obama Administration, I believe, endorses very highly, is they 
then privatized the services that the people in the means-
tested programs get. And they have put for those services what 
is called the pay-for-success contract, which is right up there 
on the White House website as something that this 
Administration is for. And the idea behind the pay-for-success 
contract is, to pick a page from Jon's work, we will give you a 
contract; if you help these people, we will pay you, the 
success; if you are unable to help these people, we will not 
pay you. So what they have done is reduced marginal tax rates, 
combine the program so that the incentives are right, and then 
they have engaged the private sector with an incentive program 
for the contractors.
    And early results are that they are seeing a reduction in 
caseloads, not a wholesale, not everyone being thrown off, but 
in every program, right, there are what we call false positives 
and false negatives. The last time I was there, there was this 
fellow who had been on disability for five years. Turned out he 
was the former mayor of some little city, and there he was 
chopping wood. We all know about that, and Mr. Van Hollen comes 
from my home county, we know we have a giant problem with the 
police who retire in there. So these programs have some room, 
right, to be fixed if we can pull up, you know, pull our 
shoulders up and say let us do what we can.
    Chairman Ryan. Yeah, it is the multiple layers that have 
the effect of giving this high, implicit marginal tax rate that 
makes it hard for a person to get actually off assistance and 
no job because when they actually get ahead and they start 
making money, they lose more by doing so. That, to me, is not a 
partisan issue. The Urban Institute, I think, probably ran the 
best numbers on that, and that is something I think we all need 
to pay attention to.
    Secretary, did you want to comment on that?
    Ms. Anderson. My experience with disincentives to work, 
which is why I believe in time limits, because you get past 
that, if I know that I have got a certain amount of time to get 
my act together, get going, get a job, go to school, whatever I 
am doing, I move forward to that. And the disincentives to go 
out and get a job are gone. The disincentives to get out of the 
program are gone. I cannot say, ``Well, oh, if I take this job, 
I will lose this, because I only have so much time to make it 
out.'' So to me, when you put time limits and the other 
incentives together, they work for you. And I think we should 
not be afraid of time limits. Most of us, when we have children 
who go to college, we put a time limit on them. So I think the 
same incentives run for our children, run for our families as 
well. We cannot stay here forever, we have to move on.
    And people step up to the expectations, you know. I think 
often we treat poor people as if they are not like us. You 
know, we are all humans. We respond to incentives pretty much 
alike. And if you do not expect much of us, you do not get 
much. And so I think we need to have a larger expectation of 
poor people to start being in control of their own life. When I 
look at a lot of our programs, I call it, ``Well, we supervise 
poor men in prison, but we supervise poor women in our welfare 
programs.'' And so, you know, why do we need to do all this 
supervision? And when you are on welfare, you are supervised.
    Chairman Ryan. Thank you. I want to get to the other 
witnesses. I apologize, but I am keeping the clock tight so 
everybody can get their chance to ask questions, so Mr. Van 
Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman, and I again want 
to thank all of the witnesses and start out on some points of 
agreement. Mr. Baron, I could not agree more that we should 
take our existing resources and channel them to programs that 
work, and that we should measure the success of programs in 
ways that we can make that determination. I would point out 
that one of the programs you mentioned is a very successful 
program. The Nurse-Family Partnership Home Visitation Program 
was subject to a $20 million across-the-board cut as part of 
the sequester, and, under the budget that came out of this 
Committee, will be cut dramatically more going forward. So it 
is an example of the sort of indiscriminate approach that deep 
and immediate cuts have.
    Mr. Besharov, I agree with you that we have got to look 
both in our tax system and in our other spending systems on the 
incentive effects. I started out my comments by referring to 
the Farm Bill because it is chock full of taxpayer subsidies 
for different agricultural programs, right? I mean, there is a 
60 percent taxpayer subsidy for crop insurance. There are 
quotas for different commodities. You would agree that all 
those have behavioral effects on the economy, would you not?
    Mr. Besharov. Sure.
    Mr. Van Hollen. Right. So sometimes it is interesting that 
a lot of our colleagues seem to ignore the distorting effects 
on the economy of those, but when we are trying to do things 
that help people in real need, we have a greater focus. Now, 
that does not mean we should not look at those issues, and we 
should, and a lot of this testimony by Secretary Anderson 
really was looking backwards at some of the changes that have 
been made. They were debated at the time, but we have made 
changes in things like the welfare program moving to TANF. 
Today, we are really focused on some of the big parts of the 
budget before this Committee. Things like Medicaid. Things like 
the food and nutrition program.
    And let me start, Mr. Besharov, if you could just very 
briefly point out the core of your testimony, because it 
relates to what Secretary Anderson said. She said that back in 
the 1960s, when we started the War on Poverty, we heard 19 
percent; that today, after all our efforts, we are at 15 
percent. As you point out in your testimony, that measure 
ignores things like the food and nutrition programs, it ignores 
the EITC. And as I understand it, you say as a result of some 
of those important supports, your calculation is that the 
poverty level is around 7.2 percent. Is that right?
    Mr. Besharov. Yes, sir.
    Mr. Van Hollen. And obviously, if you ignore the benefits 
of things like the EITC, you are going to get an inflated 
measure of poverty. And the point we are making here, a lot of 
our Democratic colleagues, is if you look at the Republican 
budget, it dramatically cuts, not reforms, it dramatically cuts 
a lot of those important supports that have helped that poverty 
level come down, as you point out in your testimony.
    So let's talk about Medicaid for a moment. Because if you 
look at the means-tested programs that are the biggest 
expenditures and some of the biggest cuts in this budget, the 
top one, over 50 percent, is Medicaid. Now, as I pointed out in 
my testimony, 80 percent of the expenditures on Medicaid go to 
the elderly, go to the disabled, and go to children. And in the 
hearing on this very subject last year, about a year ago, we 
had testimony from Dr. Mulligan from the University of Chicago, 
and I asked him specifically on Medicaid, does he show any 
significant work disincentive as a result of Medicaid? And his 
answer was ``No. I agree with your characterization, Mr. Van 
Hollen, by itself a small incentive.'' Do you have any findings 
that suggest the contrary with respect to Medicaid?
    Mr. Besharov. Well, that is a big question, and let me try 
to answer it indirectly first. Collectively, the benefit 
packages that we have produced post-AFDC into TANF shifted the 
nature of the subsidy for single mothers. Under AFDC the 
subsidy for single mothers was basically the welfare payment, 
food stamp payments were a little smaller, maybe there was some 
housing, and there were Medicaid health benefits. What we did 
when we created TANF, despite the desire on the part of some of 
the advocates to tie AFDC reform with food stamp reform and 
Medicaid reform, by the way, we kept those two, what they used 
to call the legs of the stool, separate. The result is that in 
many places, especially low benefit states, single mothers can 
make do on SNAP, WIC, and Medicaid for their health packages. I 
do not know anyone who has done a careful, controlled study to 
see whether Medicaid on top of SNAP discourages a particular 
welfare or TANF mother from working. That is my indirect 
answer.
    My direct answer is, this is all part of this larger 
package, and I understand the realities in this building; I 
understand them fully well. But in Parliamentary systems where 
they can engage all these programs at once, and when the 
majority can exercise its will, whether it is a Socialist 
majority or a Tory majority, they look at these problems and 
they say the incentives across the programs have to be 
straightened out. They look at these programs and they say, 
``Collectively, we are spending a great deal of money. We need 
to fix the way we collectively spend the money.''
    Mr. Van Hollen. If I could, there is no disagreement that 
we should not look at these programs, but I have not heard any 
testimony today that actually goes out to propose specific 
changes. And if you look at the Republican budget, it is simply 
block-granting in the case of food stamps, with dramatic cuts, 
and essentially the same thing with respect to Medicaid.
    Now, I would like to show a chart here. I was focused on 
the Medicaid part, and I do take your answer, I understand you 
have to take a look at the interactive, but you are not aware, 
as I understood your answer, of anything that shows that 
Medicaid itself provides a work disincentive. This focuses on 
the non-healthcare supports for low income individuals. This is 
based on the Congressional Budget Office numbers, and what it 
shows is, not surprisingly, as the economy improves, the amount 
of money, the share of income in our economy spent on those 
programs, those means-tested programs, is going to go down.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    So I listened to Secretary Anderson, and I listened to you 
about the work incentive effects, and I understand we should 
look at those, but it is hard, I think, for most people to 
understand that when we went through the period we did, where 
you have unemployment at 10 percent that people could be making 
the argument, ``Gee, if some of those people did not have the 
benefit of food and nutrition programs, by God, the 
unemployment rate would be 4 percent.'' That just does not 
square with reality, and it does not square with the clear 
numbers from the nonpartisan, independent Congressional Budget 
Office.
    Now I want to talk about the work incentives for SNAP, 
because I have not heard any evidence that Medicaid has a 
negative work incentive. On SNAP the reality is that 58 percent 
of SNAP households [with working aged non-disabled adults*] 
that are receiving SNAP in a month, 58 percent of them are, in 
fact, employed; people are working. And for people who have 
children, families with children, 62 percent of those families 
are on SNAP. So even during this difficult time with high 
unemployment, the majority of families that were getting food 
nutrition programs were, in fact, working. And 82 percent of 
households that were having SNAP were employed within a year. 
So it is not as if they said, ``Oh, boy, I get my $3 a day 
nutrition program so I am not going to work.'' Eighty-two 
percent were working within a year, and 87 percent of those 
households that received food and nutrition programs that had 
kids were working within a year.
---------------------------------------------------------------------------
    *Editor's note: Clarification allowed by unanimous consent (see 
page 62).
---------------------------------------------------------------------------
    Sister Simone, you mentioned this in your testimony; can 
you just talk about your experience about people who are low 
income, trying to make ends meet, going out to work, and need a 
little help from food and nutrition programs, not so they can 
be in a hammock, but so that they can try and pull themselves 
and their families out of poverty.
    Ms. Campbell. Yes. I am happy to expand on my comments. 
From my experience, it is a myth among the well-paid that 
people in poverty are lazy. The fact is, all of the folks that 
I know who are low-income people strive very hard to work. The 
issue really is wages, and that minimum wage jobs and near-
minimum wage jobs are insufficient to support a family. SNAP is 
just what it says, a supplemental nutrition assistance program. 
It is not intended to be the full food budget for a family. It 
supplements wages already. What we know from not only Billy and 
his family, but I know that this family we met in Philadelphia, 
the mom was working, it was a single parent family, and I do 
agree that we have got to work to support two parent families; 
that is a really important point. There were disincentives in 
the past, and that was not helpful, but Billy and his wife are 
working. In the family that we met in Philadelphia, it is a 
single mom's income, her high childcare costs, and the fact is 
that she does not have enough money to buy food. SNAP provides 
some assistance to her to be able to feed her daughter.
    Chairman Ryan. Thank you. Dr. Price.
    Mr. Price. Thank you, Mr. Chairman, and I want to commend 
you for holding this hearing. It is vitally important that we 
look on this War on Poverty that clearly has spent trillions 
and trillions of dollars, and many individuals believe that we 
are not getting the best results. And the results are personal. 
This is for real people. Our goal in all of this is to create 
the greatest amount of opportunity and the greatest amount of 
success for the greatest number of individuals so that the 
greatest number of American dreams can be realized by our 
fellow citizens. That is what our goal is. We believe, however, 
that unnecessary dependency is not just unwise, it is a moral 
question. And so as we hear the comments from the panelists, 
and, by the way, the word ``lazy'' has not come out of this 
side of the aisle, I promise you.
    Ms. Anderson, I am so incredibly impressed with the work 
that you have done and the accomplishments that have occurred 
in the state of Wisconsin, much as it grieves me to say that, 
from my concern about Big Ten days and what Wisconsin has done. 
You identified work requirements and term limits to, or time 
limits to--term limits are not a bad idea either--but time 
limits to the success of the program. Was that really pretty 
much the key to getting 93 percent of individuals off of 
dependency on government?
    Ms. Anderson. I think so, and I also think that the 
incentives change for those people providing the service. You 
know, I think there are two pieces to this. One area is where 
the governments who are providing the services were treating 
these people like they were incompetent, and then so we changed 
the incentives around the providers of the service as well so 
that when they could have savings, we could do everything with 
the savings. So that was huge incentives for the people who 
provided services.
    On the other hand, a lot of people were treated totally 
different. I remember that in some of the agencies that I 
walked into, they cleaned them up. They made them look 
inviting. They made them look like the private sector 
workplaces. They put new furniture in it, so a person coming 
in, a client coming in, they actually felt like they were like, 
well, human beings.
    Mr. Price. Yes.
    Ms. Anderson. So the whole relationship between the person 
who was providing the service and the person who was getting 
the service changed.
    Mr. Price. Increased the level of respect.
    Ms. Anderson. I think the changes were fantastic. But, so, 
the time limits are important because I think that pushes 
people not to lollygag, and, you know, we have a tendency to 
procrastinate. If I can do something in a week that I need to 
get done today, I will do it in a week. I mean, that is just a 
part of our human nature. So the time limits put a little heat 
under us to move forward, and I do not think there is anything 
wrong with that.
    Mr. Price. And on the issue of TANF and listening to my 
friend from Maryland, Mr. Van Hollen, you would think that we 
had fixed all of that. The fact of the matter is, this 
Administration has recently given states the authority to waive 
the work requirement for TANF. So if we are really interested 
in self-sufficiency and upward mobility for children and for 
families, is waiving that work requirement something that is 
going to get us to a positive end?
    Ms. Anderson. No. I am pleading with you, do not waive the 
work requirement. It is so vital, for when people coming in to 
know that, you know, that something is expected out of them. I 
do not think we can go back to the notion that when you come in 
to get a service, nothing is expected out of you, because two 
things happen: those of us who provide it do not give you 
anything. I think you reduce the level of interest of the 
provider; we become a little lackadaisical about what we do. We 
will go back to having really ugly waiting rooms for people. I 
think our service deteriorates when we do those kind of things. 
So it is both sides of this coin that are affected by the work 
movement and the time limits, so do not change it.
    The only thing I would suggest in the work piece is that 
you treat two parent families the same as you treat a single 
parent family. When a single mom comes--I am going to use mom 
because that is mostly who it is--when a single mom comes in, 
if she has never worked, she is fine, but if a two-parent 
family comes in and they have no work history, we do not treat 
them the same. So I think we ought to quit punishing people for 
being married and in bad luck, and we need to start treating 
them the same. And we do not do treat them the same. We ask 
different work requirements for them, we ask them to come in 
differently. We have got to think about how we are treating men 
in these programs, and if we want better outcomes for families, 
we have got to start treating men differently. That is my third 
piece: men and fathers have to be treated differently in these 
programs.
    Mr. Price. Thank you so much. Thank you, Mr. Chairman.
    Chairman Ryan. Mr. Pascrell.
    Mr. Pascrell. Mr. Chairman, good morning, good afternoon. 
Profiling is immoral and unacceptable. We have discussed that 
word in other areas and in other issues. Profiling the poor is 
reserved for the lowest tier in Dante's Inferno. When you 
attempt to profile who the poor are, what they believe, what 
they need, to me, there is nothing lower than that. I am only 
giving you my perception. My perception. If we continue the 
path of questioning, you know, we almost can accept the $20.5 
billion cut, $20.5 billion cut as a starting measure for the 
poor over the next several years.
    So here is where it is, Mr. Chairman and Mr. Ranking 
Member. If we can only get these folks to go to work and 
understand the significance of work, then there is no question 
that we could do away with the federal budget for the poor in 
this country. And so I would like to see where those jobs are 
that these folks are going to go to work, those who are capable 
of work. There are many people who are on food stamps, Mr. 
Chairman and Mr. Ranking Member that cannot work.
    Let me just go down the categories. So my colleagues on 
this Committee who supported the Republican budget voted for a 
plan to make SNAP a block-grant program beginning in 2019. A 
$125 billion savings from the block grant, and the budget 
required cutting the program by one-third. I understand that is 
what some people on the panel, some people over here, agreed 
to, $125 billion savings. The amount of money will not be able 
to rise with needs, so if new people become eligible, states 
will be unable to add them to the rolls. These may not seem 
Draconian on its face, but to those families who need food 
stamps to feed their children, it certainly is.
    In New Jersey, we are talking about 871,000 who are 
receiving assistance now; that amounts to 7.3 percent more 
people relying on this program than in 2012. So in tough times, 
this benefit is the difference between going hungry for many 
families. Now I do not know, Mr. Baron, if you read the Times 
today, about the Health Impact Project. Now I was going to ask 
you if you agreed with that report, or you disagreed with it. 
Can I just refresh your memory on what is in it?
    Mr. Baron. Please.
    Mr. Pascrell. Thank you. The impact of proposed cuts to the 
food stamp program. The report says that the cuts to the 
program, also known as the Supplemental Nutrition Assistance 
Program, will not only affect the ability of low income 
households to feed themselves, but would also increase poverty. 
Do you believe that the cutting of SNAP being proposed, because 
we cannot even pass a Farm Bill, let alone that part of it 
which deals with nutrition. But do you believe what this report 
says, I mean, it lays it out chapter and verse, do you agree 
with that? Do you agree or you disagree?
    Mr. Baron. Very briefly, it does seem clear, and there 
seems to be agreement among various folks in this room, that 
the transfer of funding through programs like food stamps and 
other things, Social Security, other income support programs, 
pulls many people out of poverty. Whether the part where there 
is, I think, where I would like to draw a distinction however, 
is that whether these programs break the cycle? Do these or 
other programs that the federal government funds, break the 
cycle of poverty over time, where they have produced a 
reduction, I think that is a different story and the evidence 
there is less optimistic.
    Mr. Pascrell. But you basically agree.
    Chairman Ryan. Mr. Garrett.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Garrett. And I thank the Chairman. And I thank the 
panel too, both the academics and the people who really have 
your feet or your boots on the ground, trying to help those who 
are the least among us. A couple of points and a question. At 
the intro discussion with regard to Mr. Baron's comment right 
now, with regard to poverty and the programs we have now, and 
whether or not these programs actually lift people out of 
poverty by how you define these things, I guess people back at 
home probably think when you say ``lift people out of 
poverty,'' that means that you are taking them from a position 
of poverty and taking them out of it for the rest of their 
life, as opposed to what sounds like, in some of the testimony 
here, is that maybe they are no longer in poverty, but they are 
in a state of perpetual dependence upon the state. Yes, the 
state is providing food and other assistance, and yes, they are 
no longer in that definitional area of poverty, but they are 
dependent, still on the largesse, if you will, the charity, if 
you will, of others, which I guess is not the way other people 
would think of programs that says ``We are lifting them out.'' 
It is not dealing with, as you said, Mr. Baron, is, you know, 
ending the cycle of poverty. And I guess the numbers speak for 
themselves when you are going after trillions of dollars from 
19 percent to 15 percent. We are talking about people's lives 
here, and that is merely a rounding error, if you will, in some 
respects, but these are people's lives that are still finding 
themselves in that.
    Now to the question with regard to work, and I appreciate 
Sister Campbell being here from the faith side of it, and you 
raised that, I guess from a faith perspective, from a Christian 
perspective--I am not Catholic, but I guess from a Catholic 
perspective as well--it is a moral imperative. I was trying to 
think of the Scripture, I think it is from, probably, Genesis 2 
where God actually took man and put him into the Garden of 
Eden, right, and directed him to work the Garden of Eden. And 
that, if I remember my Scripture well, was actually before the 
fall, and things got really worse after that, right? After the 
fall and he sinned, then, actually, it was not so easy to work 
the Garden anymore, and now he had the thickets and the rest to 
deal with. But from a Catholic and a Christian perspective, 
work is a moral imperative.
    Now one of the people you had up on the screen, I forget, 
was it Billy or Willy?
    Ms. Campbell. Billy.
    Mr. Garrett. Billy. Yes. And I understand his situation is 
like people back in my district where they said, ``Oh, things 
have gotten worse because they have lost hours,'' not to go 
down another road here, but that is something, literally, I 
have heard from people back in my neck of the woods on another 
bill, healthcare-related bill, the Affordable Healthcare Act. 
Businesses are going from 40-hour workweeks now down to 30-hour 
workweeks, and that is devastating to you if you are working at 
$8, $9, $7, $8 minimum wage hours because you may have just 
been getting by if you are earning $30. Have you heard from any 
folks at that point, that their hours are being reduced, and 
how that impacts abound them yet?
    Ms. Campbell. No, I have not, especially as the 
clarifications around the ACA are being shared, that most of 
the workers like Billy himself worked for a small employer who 
actually is not affected by the ACAs, fewer than 50 employees, 
so I have not heard that.
    Mr. Garrett. Okay. I guess I am hearing from the ones who 
have a little bit more, so they are being affected by it. On 
the work requirement, one of the statistics I had, and I guess 
I will go with Dr., or Ms. Anderson, sorry, that the drop, when 
they put the work requirements in for those receiving welfare, 
was 57 percent? It says, ``In the years following enactment, 
the number of individuals receiving welfare dropped by over 57 
percent.'' So that sort of shows at least some sort of 
effective regulation, if you will, some movement by Congress. 
Would you agree?
    Ms. Anderson. Yes.
    Mr. Garrett. You did the right thing there, yes?
    Ms. Anderson. Yes.
    Mr. Garrett. Yes. Now on the other hand, though, we have 
the president issuing the waivers, I guess, Dr. Price talked 
about that back in July of last year. From our legislative 
point of view, I am not sure that the president actually had 
the authority to do what he did. Does anyone want to chime in 
on the authority of the president to issue waivers when 
Congress says that you actually have to have a work 
requirement?
    Ms. Anderson. Well, I am not a Constitutional authority, so 
I know I cannot answer that. I think that is really, as I 
understand, the Constitution is really in your hands, as 
Congress.
    Mr. Garrett. We would like it to be, but it keeps being 
taken away from us.
    Ms. Campbell. If I might add a little piece on that, the 
waivers were issued in requests from both Democratic and 
Republican governors in the tough economic times.
    Mr. Garrett. Right.
    Ms. Campbell. That they were unable to get people placed in 
work, new placements in work settings, and so the request was 
on the part of the governors that the Administration, they 
ceded to.
    Mr. Garrett. Oh, no doubt. I mean, it comes from both 
sides, but sometimes the Constitution still puts these 
requirements and prerogatives in the legislative.
    Ms. Campbell. Oh, I believe that the legislation allowed 
for flexibility on some issues, and I believe the 
interpretation was that was an issue they had flexibility on.
    Mr. Garrett. We may have to disagree on that one. And I see 
my time is up.
    Chairman Ryan. Thank you. I understand, Secretary Anderson, 
you have to go testify at Ways and Means, and so I want to 
thank you very much for sharing your time with us today, 
sharing your story, and for your just decades of service to the 
needy, and your effective service to the needy. We really 
appreciate it. Thank you. We will excuse at this time Secretary 
Anderson, and we will just continue the hearing with the other 
witnesses.
    Ms. Anderson. Can I make a parting statement?
    Chairman Ryan. Sure.
    Ms. Anderson. I think that when we talk about giving people 
government money to move them out of poverty, I do not think 
that is our issue. I think our issue is that they stay there, 
and all their talents and gifts are lost to the larger 
community, and what is important is the spirit of the human, 
and if we have people just taking, they lose their spirit. They 
do not become integrated into the community. So the giving of 
programs and money is not the answer to human dignity, and I 
think we have got to think real clearly about, as government, 
what we are willing to do and how long we are willing to keep 
people there. And so our goal ought to be not just to say this 
person is making so much money off the government programs, but 
to help them become independent and contributors to the larger 
society.
    Chairman Ryan. Thank you.
    Ms. Moore. Mr. Chairman, can I be recognized out of order 
before Secretary Anderson leaves? I just want to make a comment 
to her briefly.
    Chairman Ryan. Okay.
    Ms. Moore. You can ask unanimous consent.
    Chairman Ryan. Polite.
    Ms. Moore. I am so happy to see you, Secretary Anderson, 
and to share with the Committee what our relationship is. I was 
on welfare in about 1985, when I started working for the 
Department of Employment Relations in Wisconsin, and I had to 
commute from Milwaukee to Madison, and Eloise Anderson was the 
person who trained me. She was my trainer at the Department of 
Employment Relations, and so I know her very well, and I am 
really happy to see her. She was brilliant, and, of course, 
that was contagious. I am brilliant now, too. So anybody who 
has any problem with me could blame it all on Eloise Anderson. 
Thank you so much. It is really good to see you.
    Ms. Anderson. Good seeing you, too.
    Ms. Moore. Okay, see you home.
    Ms. Anderson. Okay.
    Chairman Ryan. All right. Thank you. Where are we? Ms. 
Castor.
    Ms. Castor. Well, thank you, Mr. Chairman, and thanks to 
the witnesses for this opportunity to discuss what the 
Republican policies of late are doing to throw up roadblocks to 
so many of our families in achieving self-sufficiency and 
climbing out of poverty, being able to get on those ladders of 
opportunity and become successful in life, and I would like to 
highlight one other subject area that has not been mentioned 
today, and that is Head Start.
    The Republican budgets that have been passed in the past 
couple of years really take, they just take a hammer to 
children across America that rely on Head Start, and future 
younger kids that would have had an opportunity to get into 
that Head Start classroom that is proven, by research, to 
provide positive gains in the educational attainment in later 
years, because it focuses on the whole child with nutrition, 
making sure their parents are self-sufficient, sometimes learn 
English, and that they get the dental care that they need.
    In my community in the Tampa Bay area in Florida, we are 
very proud of our local partnerships in the Head Start 
classroom. We take those federal dollars and match them in our 
public schools, our local county with the YMCA, with Lutheran 
Services. We have about 3,500 children in Hillsborough County 
alone on Head Start. We have got 1,000 kids on the waiting 
list, because the parents have come to appreciate what that 
does to promote their own self-sufficiency. And in April, after 
the House Republican majority passed their very harsh budget, 
and it became apparent that there would be fewer slots for 
children to get into the Head Start classroom, I met with a 
group of parents, and taking a page from Sister Simone, I will 
give you an example.
    Lindsey Sabolsky [spelled phonetically] shared a story with 
me that she went through a tough time, she went through a 
divorce, she could not support her two young children on her 
part-time job, so she ended up in a women's shelter. She wanted 
to work, and it was the Head Start classroom being able to 
enroll her handicapped son and her daughter in Head Start in a 
full-day program that allowed her to go back to school, get her 
degree, get a full-time job, move out of the shelter, and it 
helped ensure that her children had a head start in life. She 
said to me that, ``I met people where I was in the shelter that 
tried to get on their feet, but they could not, and without 
Head Start, I would still be one of them.''
    I think Sister, you said this highlights some of the 
diminished prospects that are all too common now, and that will 
be reinforced under these harsh Republican policies. Whether it 
is Medicaid, if it is the older couple that wants to stay in 
their home and not go to the nursing home, or it is the kids 
that rely on special education or the Head Start classroom, I 
see that we are going to lose ground unless we all come 
together and face the fact that we have been through a tough 
time in this country. The answer simply is not to remove the 
safety net and say we are not going to do anything on jobs, but 
to build those ladders of opportunity back for our families 
across America.
    So Sister, could you comment on that? We offered an 
alternative, you have offered a faithful budget alternative; 
talk about the importance of education and children being able 
to get a head start in life.
    Ms. Campbell. Well, I think that is one of those proven 
programs that does make a huge difference for young children in 
their capacity both to learn, to succeed, and to graduate from 
high school. We now have longitudinal studies that indicate 
kids that have gotten through Head Start have a higher 
graduation rate than kids from low income neighborhoods who do 
not. So I think it is one of the most successful programs that 
we have going. Yet, on the other hand, it is the very one that 
is subject to being cut. I would just also want to emphasize 
that it is the family approach of Head Start that makes a 
significant difference because it also bolsters parents' 
capacity to enter into their children's lives. We were recently 
at South Central Lamp in South Central Los Angeles at a 
fabulous program that works with the young kids in a Head Start 
program and their moms in ESL, and learning to be advocates for 
their kids in the public school. It has been a program that has 
been in effect for 20 years. It has caused the neighborhood 
school to improve dramatically because parents are demanding 
performance. That is key.
    Chairman Ryan. Thank you. Thank you. Mr. Ribble.
    Mr. Ribble. Thank you, Mr. Chairman. Thanks for holding the 
hearing, by the way. I think it is a really important topic, 
and one that I think matters to virtually every American. It 
does not matter whether we are conservative or liberal, 
Republican, Libertarian, however we might see different. We 
might have different angles to get at it, and so I just really 
appreciate being part of this.
    I am going to start with Mr. Baron. You talked a little bit 
about education, and have you done any research or studies on 
the effectiveness of early education programs like Head Start 
and things like that? Does it improve outcomes? Are we getting 
a result on that program? What is your take on that?
    Mr. Baron. There is no question that there are effective 
Head Start centers across the United States; examples might be 
those that have been described. However, there was a large 
definitive evaluation of Head Start that the Department of 
Health and Human Services funded, which was a gold standard 
study. It was a random assignment study, which randomly 
assigned some families and children to get Head Start and 
others not to get Head Start. They could get whatever was 
available in the community. Then they tracked outcomes over 
time for both the Head Start children and the others.
    That study produced definitive results and very 
disappointing results. They showed some early effects, for 
example, on the children's ability to identify letters in pre-
school. But by the end of first grade, there were basically no 
differences in cognitive, health, or other educational outcomes 
or behavioral outcomes between the Head Start group and the 
control group. Same thing was true at the end of third grade.
    It is important to recognize, however, that kind of study 
shows the average effect across Head Start, meaning that there 
are undoubtedly effective Head Start centers, but their impact 
is likely diluted out by all of the ineffective centers. And, 
in fact, HHS did sponsor a second study of a particular 
intervention, a Head Start curriculum, a teacher training 
curriculum in Dade County, Florida, and tested that against 
usual Head Start and found fairly sizeable improvement. So 
there are specific strategies, improvements in children's 
reading and language ability that extended into early 
elementary school. So there probably are effective strategies 
within Head Start that could be expanded to improve the 
program.
    Mr. Ribble. Okay, thank you. Sister, I just wonder if I 
could maybe talk to you a little bit, and I will be very brief 
on my own religious upbringing, but my father was a minister. I 
have five older brothers, three of them are pastors, and I have 
got two sons and one of them is a pastor.
    Ms. Campbell. Whoa.
    Mr. Ribble. And so the work within the church, and I will 
define Christianity in its broad, multi-colored strokes, the 
United States population, I have seen numbers at anywhere up to 
70 to 73 percent of the U.S. population that would consider 
themselves Christian. So I am struck by the church reaching out 
to government to do something that is so directly their nature. 
Christianity is all about serving the poor, reaching out to 
orphans and widows, and meeting that need.
    Ms. Campbell. Right.
    Mr. Ribble. What is the church doing wrong that they have 
to come to the government to get so much help?
    Ms. Campbell. Well, I think it is more a reflection of the 
dimension of the issue. Last year, Bread for the World, which 
is a Christian organization that advocates on the issues of 
hunger in our country, figured out that on the House Republican 
budget, the cuts in food stamps alone--that was last year's 
budget--would cause every church, synagogue, mosque, house of 
worship in the United States, just on that issue alone, to each 
raise $50,000 every year for 10 years to replace the amount of 
service that was being cut.
    Mr. Ribble. Can I ask a question?
    Ms. Campbell. We have a limitation in our capacity to do 
that.
    Mr. Ribble. Your capacity is the same as our capacity. I 
mean, it is the same people.
    Ms. Campbell. It is the same people, but I believe that 
when you look at where, and this comes out of our teaching and 
within our church tradition, is that justice comes before 
charity, and that everyone has a right to eat to realize their 
human dignity, and therefore there is a, in our position, a 
government responsibility to ensure everyone's capacity to eat. 
We do the charity part, which is the reaching out, the love, 
like Tia, the story of Tia that I told, that love and care 
makes a difference. But the issues are so big, and some of it, 
there is not sufficient charitable dollars there. We 
supplement; we have a cornerstone of federal money, private 
money, and good old-fashioned generosity that makes it work.
    Mr. Ribble. Thank you. And I am out of time. I will yield 
back, Mr. Chairman.
    Chairman Ryan. Mr. McDermott.
    Mr. McDermott. Thank you, Mr. Chairman. This hearing is 
surreal. It ought to be about jobs not about poverty because if 
everybody had a job there would not be any poverty. But we 
never have hearings about jobs and how we could help people get 
jobs in this Committee. We talk about poverty and blame the 
poor.
    Now it reminds me of that cartoon from Herb Block before 
many of you were born. In 1964, there was a cartoon of a mother 
and child in rags standing in a doorway, and Barry Goldwater 
walked by, and the guy behind Goldwater looked at the kid and 
said, ``Son, what you have got to do is go out and inherit a 
department store.'' Now, this whole business about who is being 
affected here, nationally, unemployment receives an average of 
$1,200 a month. That is $200 less than the average spent on 
housing alone in most states. So if you are on unemployment you 
have got a problem, and if you do not have unemployment, you do 
not have anything, except the only guarantee you have is SNAP.
    Now I was just sitting here figuring, you know, if I was an 
ordinary person, a poor person listening to this, I would say 
to myself, ``I get my SNAP payment, and I can either take it, 
save it up, and pay the rent and have no food; that would be 
one way to handle my problem. Or I could go buy food, and then, 
gee, where am I going to get the rent? Now I have got to sell 
some services around here somewhere. What am I going to do, 
clean the streets?'' You are not living in the real world. 
Nobody here has to make a decision whether you feed your kids 
or not, or whether the subsidized lunch program that got sliced 
by the sequester is functioning in your school districts. For 
some kids, that is the only full meal they get a day, which is 
down at the school in the subsidized lunch program. When you 
start looking at it, I mean, half the safety net programs in 
this country goes to seniors. Tell those people to go out and 
get a job, ``Get out of there,'' and ``Get out of your house,'' 
and ``Get out of your rocking chair and go get a job.'' That is 
what the problem here is. You want to cut the safety net more 
and 14 percent of the safety net is for food assistance, 
including 20 million kids.
    Now I went to Wheaton College, right? Billy Graham went 
there. I accepted the Lord Jesus Christ as my personal savior 
when I was 6 years old. So I have got credentials about 
religion, okay? And Jesus said, ``Suffer unto the children and 
let them come unto me,'' right? We say to them, ``Hey, you have 
got the wrong parents. You cannot eat. Tough luck, kid.'' Look 
around. Sister, tell us what you do with a woman who comes to 
you and is offered a $10-an-hour job flipping hamburgers 
somewhere, and has two kids for daycare, how does she make it 
on $10 an hour?
    Ms. Campbell. It is a huge challenge, and even $10 an hour 
is higher than what many get. I think the way people do it is 
that they scramble. Let me tell you. Can I quickly tell you 
about the pastor I just recently talked to down in Raleigh, 
North Carolina, a Baptist pastor? She was telling me about a 
challenge for a low-wage worker exactly like that, and what 
their church did, which goes back to the other point, their 
church, some of the grandparents in the church on Social 
Security are doing child care for this kid, the mom's child, 
because she is working an evening shift, and child care is 
horribly expensive for an evening shift. So the church was 
coming together to be supportive, but then the challenge 
becomes transportation after the buses stop at midnight.
    Mr. McDermott. I was about to bring up transportation.
    Ms. Campbell. And so the combination of childcare, 
transportation, and just keeping a roof over your head, it 
becomes an incredible squeeze, and she is able to use food 
stamps to help support, and feed her child. It is just low 
wages. If she made $15 or $18 an hour, it would be a lot 
easier, and she might be able to accommodate it, but she is 
working at too low of a wage.
    Mr. McDermott. Let me just put in here one fact that people 
are not paying any attention to today on poor people. Gasoline 
in Seattle when I left was $4.07 a gallon. Now I remember when 
it was 18 cents a gallon, okay? I am old enough to remember the 
past. It is $4.07 a gallon now, and you cannot get to work if 
you do not have a car, or if the bus does not happen to run to 
where you are going. That is the real problem here is the 
barriers to getting to work, even to the jobs that are there.
    Chairman Ryan. Thank you. Thank you. Mr. Rice.
    Mr. Rice. Thank you, Mr. Chairman, and thank you, 
witnesses, for being here today. It certainly is very 
enlightening. I want to say I absolutely agree with what Mr. 
McDermott said a minute ago, that the best thing we can do to 
resolve this situation is to provide jobs for people. Where I 
disagree is he said we never talk about jobs. And, you know, I 
take notes on the things I say in these Committee meetings, not 
every time, but almost every time. I think he must have been 
napping when I was talking because every time I talk it's about 
how to create jobs. And I think the path to that is to make 
this country more competitive where we can adopt a tax rate 
that is competitive around the world, where we can stop all 
this over-burdensome, stifling government regulation, and bring 
American jobs back here. I agree that is the way, the only way 
that we are going to have a permanent solution to this problem.
    I have been sitting here listening to you all, and it 
really is heartwarming to hear what you say. It is gratifying 
to hear what you say in terms of solutions. And two of the main 
things I hear, I heard Ms. Anderson say, ``Please keep a work 
requirement.'' And I heard the two of you guys particularly say 
that, you know, you have got to evaluate what you are doing 
periodically, and make sure that you are using your limited 
resources in the best way. And those things are just incredibly 
common sense to me. I had the blessing, really, of serving on 
the board of a homeless shelter where I live for 20 years, 
Myrtle Beach Haven Homeless Shelter. And this crossed the old 
guy that started the place, a guy named Bill Sweeney. He was 
involved in every charity in town. And we did not have a 
homeless shelter in Myrtle Beach, which attracts a lot of 
people. So he started it, and he, right at the beginning, put 
in a work requirement. You have to either be working or looking 
for work. You can only stay for a temporary period of time. And 
he started out with about 20 beds. He ran that place for 10 
years. He called me one day and asked me to be president, I 
said, ``I cannot do that, I am in the middle of my career. I 
got young kids.'' He said, ``I will not let you do it. I run 
this place. It is mine. I am going to do it.'' The sneaky son 
of a gun died on me six months later, and I ended up running it 
for 10 years.
    But we had a work requirement from day one. We built a 
brand new facility in 2007 when times were still good, 50 beds, 
only one in the county that could take families. But in the 
meantime, over those 20 years, other homeless shelters 
appeared. And not many, but a few people would go from one 
homeless shelter to the next. We were competing for resources, 
and so we decided to do what you guys suggested and look at how 
we were spending our money, and how the area was spending its 
money on this service. As a result, we went through a two-year 
period, and we are consolidating now a lot of services. So, 
again, what you say makes perfect sense to me.
    I would like to ask you, Mr. Baron, if you could make one 
suggestion for what we could do with all these means-tested 
programs, or if you just want to focus on any one of them, one 
suggestion to make them more efficient, what would it be? Then 
I want to ask the same question to you, too.
    Mr. Baron. Yes. Thank you, Congressman. In welfare reform 
in the 1980s and 1990s, that is the one area of social policy 
where there is a large body of evidence, there was developed a 
large body of evidence, of rigorous evidence, about what worked 
in moving people from welfare to work and what did not work. 
One of the reasons for that was because for about a 15-year 
period, starting in the Reagan Administration, through the 
first Bush Administration, through the Clinton Administration, 
the federal government had in place a policy where they said to 
the states, ``We will allow you to do your own welfare reform 
demonstration programs. We, the federal government, will waive 
provisions of law and regulation to allow you to do those 
reforms. But, as a quid pro quo, we will require a rigorous, 
usually a randomized evaluation, to determine whether it works 
or not.''
    And that produced more than 20 different randomized studies 
of approaches like time limits on welfare, job search and 
assistance, job search assistance, job training, earning 
supplements, all across the ideological spectrum. It encouraged 
a lot of innovation, and we learned what worked. And a lot of 
things that people thought would work, like providing remedial 
reading and math to welfare recipients, turned out not to work. 
And what those studies showed consistently was that moving 
people quickly into the workforce through short-term job search 
and training was both more effective and less costly than 
sending them back for remedial education. And that is one of 
the reasons that helped build political consensus, particularly 
among centrist Democrats, including President Clinton, for the 
work-focused 1996 Welfare Reform Act. That kind of approach 
could be done across the board in social spending, encourage 
state and local innovation coupled with rigorous evaluations to 
figure out what really works and what does not.
    Chairman Ryan. Thank you. Ms. Lee.
    Ms. Lee. Thank you very much, Mr. Chairman and our Ranking 
Member. And let me first say I apologize for running back and 
forth, but I am over in the Appropriations Committee and we are 
marking up the Interior Bill, and I just have to say the cuts 
that are taking place just in that bill alone, Americans will 
lose thousands and thousands of jobs, and more people will be 
falling into poverty as a result of what we are just doing 
right across the way.
    So let me, once again, thank you for being here, and just 
say to Sister Simone, I think you know I was taught eight years 
by the Sisters of Loretta, and was raised a Catholic, and God 
knows, I never thought we would get to this point where we 
would still be fighting to ensure that everyone in our country 
could be afforded the opportunity to live the American dream. 
But here we are in 2013, still trying to figure out how to 
address poverty, which, of course, we must figure out pathways 
out of poverty into good-paying jobs.
    But let me just add, and Mr. Chairman, thank you for your 
note back to me, I met this wonderful hard-working woman over 
the weekend. She is a young mother. Her name is Tiana Gaines 
Turner [spelled phonetically], and she is really a witness to 
hunger. She has been homeless and is a powerful advocate for 
those who live in poverty. We talked about what would be 
discussed today at this hearing, and what she would say to 
members if she could be here. And this is what she said. She 
said, ``Have more people who are going through these programs 
at the table. Invite us to the table. Have us sit there and 
hear my story. And you understand, walk in my shoes,'' she 
said. She said, ``It is easy for people to sit back and judge 
me without even asking me.'' And I just have to say, as a 
former public assistance recipient myself and formerly on food 
stamps, I understand what she is saying, and it is so 
important. And Mr. Chairman, I hope, at some point, we can have 
Tiana here so you can hear from here perspective what is taking 
place out there.
    She works. You know, part of the working poor, 
unfortunately, and we were with people who make $7.25 an hour, 
they work, and they rely on, unfortunately, they rely on SNAP, 
they rely on Medicaid, they rely on Section 8 because they 
cannot make a living wage, they cannot make enough just to 
survive. No one wants to be on public assistance, no one wants 
to be poor; everyone wants a job. And I can say that from 
personal experience. But I do have to say, this was during the 
Bush era, I had to establish the Out of Poverty caucus because 
we saw the social net being cut, we saw the Bush economic 
policies kick in, and we saw the steady rise in poverty begin. 
So we cannot forget what this history is.
    I wanted to just ask all of our witnesses very quickly 
about the intersection between race and poverty. We know that 
28 percent of African-Americans live in poverty, yet number-
wise, we have more whites living in poverty based on the 
numbers. The Chairman said, of course, as you opened up, as we 
say, that if you work hard and play by the rules, you can get 
ahead. But with so many communities here, especially in 
communities of color, there are barriers to even getting to 
that place where you can play by the rules because you are 
stopped every step of the way. So I would just like to hear 
from you how you see this whole issue of race and poverty 
coming together, and what we can do in communities of color to 
begin to level the playing field so that, yes, if African-
Americans, and Latinos, and Asian-Pacific Americans work hard, 
we know how to play by the rules, but we cannot even get in the 
door. And we witness all the things that have taken place 
recently to understand that a little bit more vividly.
    Ms. Campbell. Well, if I could start, just briefly, I think 
that I wanted to reference the Faithful Budget that I 
submitted, and I understand I have to ask that it be submitted 
with my testimony, if that would be appropriate, Mr. Chairman.
    Ms. Lee. Yes, and also may I ask also that Tiana's 
testimony, as well as the testimony coming from Deborah 
Weinstein, who is the executive director of the Coalition of 
Human Needs be submitted for the record, Mr. Chairman.
    Chairman Ryan. Without objection.
    Ms. Lee. Thank you. Sister Simone, I am sorry.
    Ms. Campbell. Thank you. But in the Faithful Budget, which 
is the interfaith effort here of all of the organizations, 
Christians, Jewish, and Muslim community here in Washington, 
D.C., we put together a Faithful Budget. Some of you have heard 
of it. We have lobbied your staff about it. But in that, we 
lift up one of the concerns, which is that race continues to be 
part of the real challenges and we need to address issues of 
poverty and disproportional levels of poverty among people of 
color. And I think especially in the African-American 
community, I think the idea of doing testing on innovative 
programs, incentivize some innovative programs, which requires 
dollars to do it, but if we incentivize it, test it, and then 
build out programs that work, there are, at the local levels, 
good ideas, but we need money to make it happen.
    Chairman Ryan. Thank you. Mr. Williams.
    Mr. Williams. Yes, I want to thank all of you for being 
here today. I appreciate your testimony. We earlier heard about 
jobs. I am a job creator. I have been in business 42 years, so 
it is all about jobs with me. Jobs are the answer. One of the 
things that I think we have heard today that impressed me was 
earlier, by Ms. Anderson, I believe it was, ``a brown bag is 
more important than a free lunch.'' And I think that gets down 
to families. And do you not think a lot of this debate is the 
fact that we have lost our family values, we have got single 
parents and so forth, and we need to get to that, that has a 
lot to do with what we are talking about? Ms. Anderson?
    Ms. Campbell. Oh, I agree family is key, but I practiced 
family law for 18 years. That is all right. I practiced family 
law for 18 years in Oakland, California. And I found, with low 
income families, that the biggest cause of family break-up was 
economic stressors, and not being able to have enough wages. 
And so I think the most important piece that we could do that 
would support families would be raise the minimum wage. It 
would really be a significant support, and do what Ms. Anderson 
said, ``Do not penalize two-parent families.''
    Mr. Williams. Or you could do away with the minimum wage, 
and not have a maximum wage like this Administration is talking 
about. But that is another issue.
    Next you talked about opportunity.
    Ms. Campbell. That is another issue.
    Mr. Williams. You talked about opportunities.
    Ms. Campbell. Yes.
    Mr. Williams. I agree with you. Right now, though, we have 
a situation where it is kind of opportunities versus 
guarantees.
    Ms. Campbell. I do not understand.
    Mr. Williams. This Administration is doing a lot of 
guaranteeing when the private sector and small business is the 
venue to create opportunities, would you not agree?
    Ms. Campbell. I do not understand the point. What I do know 
is that for every job that is available currently there are 
four applicants, and that the issue is we need more jobs 
created. I also know that big business has a very large cash 
reserve, and they are not creating jobs at this point. I 
believe some incentives for job creation could be a big help, 
and we already disagree about minimum wage, apparently. So that 
is another issue.
    Mr. Williams. Low wages drive poverty, I think you said 
that, and that is exactly right. And again, that gets back, as 
you said or as I am saying, that government regulation is 
killing the drive in small business to hire these people, and 
it gets back to jobs. And the job creators are your small 
business owners.
    Ms. Campbell. I disagree with the causal relationship that 
you draw.
    Mr. Williams. Okay.
    Ms. Campbell. I think we need to do some testing of that 
and see if there is a relationship.
    Mr. Williams. And let me also say, since we are time 
limited, let me also say this, and I am reiterating what 
Congressman Rice said, I have never heard anybody say that 
people in poverty are lazy. And I just want to get that on the 
record. Also, I want to remind you, too, you were asked a 
question, are you aware that people are cutting wages back from 
40 hours to 30 hours from the ObamaCare; you were unaware of 
that. I can tell you, as a small business owner, that is 
happening everywhere. And that, again, does not help the 
economy or the poverty situation.
    The bottom line is we talk about roadblocks. Roadblocks to 
unemployment and hiring, frankly, is big government. And we are 
seeing that, and if big government worked, we would not 
probably be having this conversation today. So, anyway, I think 
at the end of the day we have got to have more belief in the 
private sector. The private sector are the people who create 
the jobs. And that is the only way we get government 
regulations off the back of small business and for business 
people to create the jobs, you are going to get people out of 
poverty. That is just the way it is. Government cannot get 
people out of poverty because it is on the backs of the burden 
of small business. It works just the opposite.
    So we are going to continue to have this conversation until 
we get an administration, I think, that understands individual 
responsibility is the answer, small business is the answer, and 
we quit burdening everybody with government regulations.
    So I yield back, or if you have any comments.
    Ms. Campbell. If I might, I do run a small business. At 
NETWORK we have 13 employees. It is tough, I understand that. 
But I think health care, controlling health care costs is a 
good way forward. We have been able to expand our staff 
recently because of hard work on our part. I agree that is an 
important way forward. The problem is that there is not enough 
investment in work right now, and my perception is, that there 
is no requirement that people pay higher than minimum wage, and 
so we have not been able to bring wages up. I think, as a 
person of faith, I do have this idea of original sin, and I do 
think that regulation helps us avoid the failings of original 
sin where we do not necessarily raise wages when we think about 
it.
    Mr. Williams. Well, thank you very much.
    Ms. Campbell. Thank you.
    Chairman Ryan. Thank you. Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you to the 
Ranking Member. Obviously, thank you to the witnesses, and 
obviously, I think we are all interested in our responsibility 
to review the effectiveness of all government programs, and to 
increase the effectiveness of government programs in every 
county. I think that goes without saying. But I think we 
continue to have this conversation about poverty in America in 
a sense of sort of money being given to people who live in 
poverty, and not really recognizing that we all benefit, all of 
us, everyone in America benefits from an America where people 
have access to quality health care, and good nutrition, and a 
great education, and a good job, and a safe and affordable 
place to live, that we have a collective benefit to that. It is 
sort of one of the great geniuses of America. And only when 
everyone has the opportunity to realize their full potential do 
we realize the full promise of our own country.
    And so I think, you know, we have this conversation at this 
hearing, and it is as if, you know, you have a baseball team, 
and you are cutting the coaching staff in half, closing the 
practice field, reducing training, eliminate the batting cages, 
and wondering why you are not winning more games. But, of 
course, these have much more serious consequences. But we have 
entertained a whole series of budget proposals in this 
Committee and actions on the House floor which intentionally 
disinvest in the things we know help to reduce poverty in 
America. The SNAP program we have already talked about it. 
Millions and millions of families have been lifted out of 
poverty who are living on the edge because they have access to 
food and nutrition through the SNAP program. The Medicaid 
program prevents millions of seniors and people with 
disabilities from living in poverty. We know that. The 
discretionary funding that is available for subsidized housing, 
and Pell grants, and Head Start, and community health centers 
all help to reduce poverty in America. And if you take out 
everything we have done to reduce poverty, of course you do not 
see great progress. But it is precisely because we have made 
those investments that we have reduced poverty.
    And so I feel like we are in Alice in Wonderland, like, oh, 
if we do not invest in reducing poverty in this country, it is 
going to go away because everyone is going to get a job. I 
mean, we have empirical evidence about the effectiveness of 
these programs, of making sure that seniors, and people who are 
disabled, and people who are poor have access to health care, 
making sure that child care is available so people who are 
working and not making sufficient wages to support themselves 
can have child care, and can have access to food for themselves 
and their children. And the EITC and all these programs which 
are under attack in this Congress to fund more tax cuts for the 
wealthiest corporations in America, more subsidies for big 
agricultural corporations, and, you know, subsidies for big oil 
companies.
    So I would like to ask you, Sister Simone, to talk a little 
bit about the budget priorities that you can recommend that 
will help move people out of poverty, make the investments that 
are necessary to give people hope and opportunity, and to be 
sure that we are growing the economy of this country and 
getting people back to work.
    Ms. Campbell. Thank you for that opportunity to respond to 
that question because I think the piece that keeps getting 
missed is that in 1964, yes, there was 19 percent living under 
poverty, but in 1973, it was 11 percent. In 2000, it was 11 
percent again. But since then it has gone up because of the 
economy. So it is not just like it is a straight line and we 
have not accomplished anything. But in the Faithful Budget, 
what we look at is a priority that there should be Reasonable 
Revenue for Responsible Programs. And we believe that there 
should be the accountability that my colleagues here on the 
panel have spoken about to make sure that they work. But we 
also need to make sure that there is as much accountability 
from what we call corporate welfare, the corporate handouts 
that you listed, we should know, are they creating jobs? Are 
they properly incentivized to create jobs? Are they properly 
incentivized to raise wages so that all Americans can benefit, 
and that it is not just a dividend or a CEO top management 
issue? We should have to look at those incentives for 
responsible programs.
    And then, additionally, we believe that we also need to 
make sure that Pentagon spending, the whole Defense Department 
is as accountable in their spending, which is a lot higher 
dollar number than the programs we are currently talking about 
it, so we need to make sure that they are as responsible as 
everybody else in the government, because we know that we need 
to get value for our tax dollars. That is true. But in our 
Faithful Budget, what we have are a set of priorities that set 
out specifically what those responsible programs do. And we 
need reasonable revenue for it, which is taxes; we need to 
raise reasonable taxes to pay for.
    Chairman Ryan. Mr. Duffy.
    Mr. Duffy. Thank you, Mr. Chairman. As a relatively new 
congressman, I have had a chance to travel around my district 
and meet with a lot of the folks who provide many of the 
services to those who are most needy in our communities. And, 
listen, there is real needs, not just in my district, but I 
think there is real needs around the country, people who are 
having a hard time putting food on their table, people who are 
having a hard time finding shelter, wondering how they are 
going to care for their kids. That is a real problem in 
America. And I think both sides of this aisle understand that 
problem and want to get to the root causes of those problems so 
we can have a better country, a more prosperous country.
    In Wausau, where I live, there was a situation recently 
where there was folks who were homeless. And if you do not 
know, in Wisconsin, it gets kind of cold in the winter. And 
they did not have anywhere to go at night. And the community 
came together and set up a warming center, so at night, people 
could come in and get warm. But a community acting on the real 
needs of those in their community, and it is not a situation 
where people prefer to be out in 20-below weather at night 
because it is fun, it is because they do not have a place to 
go. So I acknowledge the real needs that we have across the 
country, and the need for us to have effective programs to 
address those needs.
    And I think that is the debate here. How do we effectively 
use our resources? How do we come together to make our dollars 
stretch the furthest to help the most people in the most 
effective way? And I think some will say it is noble of me to 
just address the pain of poverty. Well, that is important. If 
people cannot eat, you have got to address that pain. But what 
we want to do is get to the root cause of the poverty, and how 
do you move people out of poverty into prosperity. And that is 
maybe the real differences that we share across this Committee 
is, is it just the pain which we all want to address, but is it 
the pathway to prosperity for those who are in the poverty? And 
I think that is kind of the divide that you see today being 
debated.
    And I did not want to go into the tit for tat, but maybe I 
will a little bit. We look at policies that are advocated on 
both sides, and I look at the president's energy reform 
proposals. Listen, over 60 percent of energy in Wisconsin comes 
from coal-burning power plants. And if you attack coal, or if 
you attack other energy sources, you are going to increase the 
cost of utility bills in Wisconsin homes. Now, for the upper 
middle class and wealthy, that does not have a big impact. But 
my middle class families, my poor families, that is a big deal. 
Those are real dollars coming out of their pockets because of 
an energy plan by the president. My colleagues have mentioned 
ObamaCare or Prop ACA. Listen, when you have folks who are 
moving from full-time jobs that are low paying into part-time, 
30-hour-per-week jobs, that is a real pain on people who need 
to work full time. They do not want to work just full time, 
they are oftentimes working multiple jobs. And here they have a 
headwind going I cannot even keep a full-time job, it is now a 
part-time job; real pain. We have seen situations where we have 
got policies that have advocated for people to buy homes that 
they cannot afford, no documentation, lax underwriting 
standards where we encourage people to buy homes they cannot 
afford, they found themselves in foreclosure, and they have not 
advanced their financial well-being, but it is actually been 
reduced. I mean, and these are policies that my friends across 
the aisle have promoted.
    We have to come together and go, listen, none of us have 
been perfect. But, again, in this hearing, how do we actually 
get good ideas that are going to actually help those who are in 
the most need? And I want to get to a question here. Mrs. 
Anderson had talked about having these welfare programs deal 
with work requirements and time limits. And I guess, I do not 
know, maybe I can go down the line. Mr. Baron, do you agree 
that we should, in these programs, we should have work 
requirements and time limits?
    Mr. Baron. I would say that as was done in welfare reform, 
different strategies incorporating work requirements are worth 
testing. But also other mechanisms, like combining work 
requirements with assistance in finding a job; that has been 
done very successfully. Job search assistance, resume 
assistance has been shown in rigorous studies to help move 
people into the workforce. Also, combining work requirements 
with an earnings supplement for those who succeed and leave 
public assistance has also been shown effective. So I would 
suggest the importance, as was done in welfare reform, of 
testing a large number of different approaches on the left, on 
the right, figure out what works, and, as in welfare reform, 
make policy based on that.
    Mr. Duffy. And Mr. Besharov, just one quick comment before 
I have to yield back. You have had a lot of discussions, I 
think, about family, and one of my concerns is the nature of 
intact families in America, and especially in our poorer 
communities. And I cannot get to that question because my time 
has expired. I yield back.
    Chairman Ryan. Mr. Jeffries.
    Mr. Jeffries. Let me thank the Chair and the Ranking 
Member, as well as the witnesses for your presence here today. 
You know, poverty is not a white issue, or a black issue, or a 
Latino issue. It is not a rural issue, or an urban issue, or a 
suburban issue. It is not a Democratic issue, or an Independent 
issue, or a Republican issue. It is an American issue, and it 
affects all segments of the American society. And I think in 
the past, when we have attempted to stigmatize certain elements 
of that society demographically, that has been a mistake, and 
it has been bad for a real, thoughtful, objective evaluation 
and analysis of the effectiveness of these programs. And who we 
are as Americans, in some measure, will ultimately be 
determined by how we treat the least of those amongst us in the 
context of our greatness as a society. And hopefully we can 
leave this hearing today, and it will be the start of an 
exploration of finding the most effective solutions to deal 
with what should be a moral crisis in America with 47 million 
people living in poverty in the greatest nation in the world. 
That is unacceptable.
    Now let me start with the professor. You mentioned that we 
have got to get the incentive structure correct, is that right?
    Mr. Besharov. Right. Yes, sir.
    Mr. Jeffries. Now, would you agree that the best anti-
poverty program that we could offer in this country is a good 
job?
    Mr. Besharov. Sure.
    Mr. Jeffries. And the current federal minimum wage is 
$7.25, correct?
    Mr. Besharov. It could be. I do not know the exact number. 
It is around there.
    Mr. Jeffries. Okay, now under the current minimum wage, a 
full-time employee working on a minimum-wage job would make 
approximately $15,000 a year, is that correct?
    Mr. Besharov. Yep.
    Mr. Jeffries. Now the federal poverty rate for a family of 
four is approximately $23,550 per year, I believe. Is that 
accurate?
    Mr. Besharov. That is correct.
    Mr. Jeffries. So an individual who was working 40 hours a 
week full time, waking up in rural America, urban America, 
suburban America, going to work to support their family would 
take home an amount that does not allow them to live outside of 
the poverty rate in this country, is that correct?
    Mr. Besharov. At minimum wage, yes, sir.
    Mr. Jeffries. At minimum wage. Now, is that a proper 
incentive structure for allowing for a healthy society where we 
actually minimize the number of people living in poverty when 
these are individuals who get up just like everyone else, just 
like the people in this Congress, go to work to try and provide 
for their family?
    Mr. Besharov. Two days ago the president celebrated the 
opening of an Amazon fulfillment facility. And he talked about 
how there are going to be 5,000 jobs. Today's Washington Post 
says the average pay for those jobs will be $25,000 a year, 
only $500, Mr. Jeffries, above the poverty line for a family of 
four. The average worker at that Amazon facility will be 
eligible for SNAP benefits as currently provided. I do not want 
to make a judgment about that facility, the people there. But 
if the president of the United States can only celebrate the 
opening of a facility where we have people moving boxes that 
came from some other country----
    Mr. Jeffries. Reclaiming my time.
    Mr. Besharov [continuing]. All right. Go ahead.
    Mr. Jeffries. I thank you for that observation.
    Chairman Ryan. Mr. Jeffries controls his time.
    Mr. Besharov. Sure, I apologize.
    Mr. Jeffries. I do think it is important to make the point 
that I agree we have had a very uneven economic recovery. In 
fact, the stock market is at an all-time high, corporate 
profits are at an all-time high, CEO compensation is at an all-
time high, the productivity of the American worker has gone up, 
and yet folks in the middle class, working families, those who 
aspire to be part of the middle class, are still struggling. 
And so I do think that we have got to reorient our priorities 
to make sure that this is a full recovery for the poor, for 
working families, and for the middle class in America. And I 
yield back.
    Mr. Besharov. Could I just have permission to say I agree 
on that last comment, and I want to make sure that we know that 
there is a fair amount of agreement.
    Chairman Ryan. Let me just turn it over to Mr. Rokita, and 
maybe he will let you do that because I just want to make sure 
we can get to everybody. Mr. Rokita.
    Mr. Rokita. I thank the Chair, I thank the witnesses. Mr. 
Besharov, could you continue please?
    Mr. Besharov. Thank you.
    Mr. Rokita. Not too long.
    Mr. Besharov. Not too. I think this is a giant issue. I 
think the issue here is between the needs to provide support to 
people today and the need to get America back in fighting 
shape. And my testimony about what is happening in Europe is 
there, the left and the right got together on the need to 
create these kinds of incentives. I do not know exactly what 
the answer is. My last comment here is unless we can win this 
global race for a productive, productive, population, all we 
are going to be doing is delivering packages through Amazon. 
And that is my only point. There has got to be a ground here 
where we improve the productivity of our workers.
    Mr. Rokita. Mr. Besharov, I completely agree with that. In 
terms of incentives, that is what I take away from your 
testimony, obviously, is that the incentives matter, not 
necessarily the kind of program or even the amount of money put 
in the program. But just to recap for the record, do you have 
specific incentives that you would like to see these programs 
employ, or do you agree with the work requirement or the time 
limit? Could you go on for about 30 seconds?
    Mr. Besharov. I think there is a great deal of things to 
do. One thing I would point out is we had a giant increase in 
unemployment, a giant increase in unemployment compensation, 
and very little effort to combine the receipt of unemployment 
with job skill development, with job training, and so forth. 
The stimulus package threw money at the problem with no 
connection, in my opinion, to reality.
    Mr. Rokita. Do you feel the government might be too big to 
even do that coordination? I mean, honestly, these programs 
might be so far gone at this point that that simple idea that 
you articulated might be out of our reach?
    Mr. Besharov. I have been reading Dan Balz's book about the 
last presidential campaign, and I just wish the government were 
organized the way the Obama campaign was organized. We would be 
a lot further along on both sides of this argument.
    Mr. Rokita. Wow, that is called leadership, in my opinion. 
I want to go back to something the Sister said, and several 
people have spoken on the phrase ``lifting out of poverty.'' 
And clearly, by her testimony, and 40 million a year or so 
being lifted out of poverty, the definition is limited to the 
fact that, and Mr. Garrett mentioned this as well, a check is 
given, funds are given, and that is the lifting. But the 
dependence is still there such that if the check was not given, 
you would not be lifted out. I want to know, as subject matter 
experts from the two gentlemen here, if that is the 
conversational definition of the phrase ``lifting out of 
poverty'' or not. Mr. Baron.
    Mr. Baron. Yeah, I think there is an important distinction, 
whether providing somebody to income support, whether that is 
as part of a safety net program, raises them above the poverty 
threshold, that is one goal. But an important distinction is 
what has been the trend in poverty over time? Have these 
programs succeeded in reducing poverty in the United States?
    Mr. Rokita. And what is your answer?
    Mr. Baron. The evidence there is fairly consistent, whether 
you look at the official poverty measures, which I agree have 
some limitations, but also, there are National Academy of 
Sciences-based measures, which the Census Department now uses 
in supplemental measure, which do change the number of people 
in poverty at any given time. However, they also show a similar 
pattern over time, meaning no significant progress, even if you 
do make those adjustments, since at least the late 1970s. So in 
terms of breaking the cycle of poverty, that is an area where 
the numbers suggested do not appear to be succeeding.
    Mr. Rokita. Thank you. I am going to skip over Mr. 
Besharov, since he has already spoken. Sister, thank you for 
coming, and to you I want to ask the specific question. I have 
not read your budget, but you say responsible programs, or the 
two Rs.
    Ms. Campbell. Reasonable revenue responsible programs.
    Mr. Rokita. What is the number? What is the number we have 
to give, we have to confiscate in terms of the property of 
other people, in order to solve your budget?
    Ms. Campbell. What we did was we did not put in the 
specific numbers.
    Mr. Rokita. Reclaiming my time a second. If we did not put 
in a specific number, we are made to put in specific numbers in 
this budget.
    Ms. Campbell. Yes, you are.
    Mr. Rokita. And I could tell you from an historical 
perspective, up until now, that the federal government 
confiscates from private citizens of this country, and now from 
people who are yet to exist because of the borrowing we do, but 
just from the people that do exist, 18 to 20 percent of the 
value of GDP in a given year, just to run the federal 
government. And if that is unreasonable by definition of your 
budget, I want to know what percentage is reasonable.
    Ms. Campbell. May I, Mr. Chairman?
    Mr. Rokita. Oh, I am out of time. I have got to yield back.
    Chairman Ryan. He is out of time.
    Ms. Campbell. Cliff hanger.
    Chairman Ryan. You can submit your answer in writing if you 
like to, Sister.
    Mr. Rokita. Mr. Chairman, please appoint a personal 
privilege as someone who went to eight years of Catholic 
school, I have been waiting my entire life to talk like this to 
a nun.
    Ms. Campbell. Be careful.
    Chairman Ryan. It was not lost on me either.
    Ms. Campbell. Be careful.
    Chairman Ryan. I finally get to question a nun, you know 
what I mean? Same thing. Mr. Pocan.
    Mr. Pocan. Thank you, Mr. Chair, for holding this hearing, 
and thank you to the witnesses. I have to admit I am a little 
disappointed that Ms. Anderson had to leave. She is a dedicated 
public servant. I have served under four governors; she has 
served under two or three of them. And I was just hoping to 
talk to her about under, unfortunately, the current 
administration, I know she mentioned that TANF has been largely 
successful. Unfortunately, under the current governor in 
Wisconsin, they have siphoned funds off of TANF to pay for 
their income tax credit, money that would have gone to 
childcare subsidies so people could work. And clearly the theme 
coming out of this is about people working in Wisconsin. If you 
have not followed it, it is one of the worst records in the 
country right now on job growth. But that is for another time.
    I do want to talk about the jobs, though, because that has 
come out of this. You know, I also am a job creator. It is not 
because I have run a small business for 25 years, it is because 
I am a consumer. I think every person in this room is a job 
creator because when we create demand, that means people like 
myself can fill that demand by hiring people to then be able to 
do work. So to me, the consumer is ultimately a job creator. 
Unfortunately, this Congress has done nothing when it comes to 
job creation this year.
    I guess, specifically, the question, because we are talking 
about some of the requirements that you might want to have for 
people in order to receive benefits to work, or I think as Ms. 
Anderson talked about, even for men to get SNAP, tying in a 
work requirement. And I know when I met with our job center in 
Dane County about six weeks ago, of the dozen people I met 
with, they set up a panel with one exception, one of the 
biggest barriers was they had previously been in prison. And 
that is a huge, huge barrier. So making a job requirement in 
order to get SNAP for them means they would go hungry, and I 
can almost guarantee you would have recidivism, so that is 
another point.
    But specifically, Sister Simone, you have spent, I think, 
the second most time, besides Ms. Anderson, in Wisconsin, you 
have gone there quite a bit, so I thought I would ask you this 
question. I mean, what do you think when you go around is the 
biggest hindrance to people working? Is it a lack of available 
jobs, a lack of skills, or is it just a lack of a willingness 
or a desire to work? That is one question.
    And then if you just have a little time at the end, I know 
you got cut off twice when you were talking about SNAP, there 
was an article yesterday talking about perhaps a new proposal 
that may be coming out of this House: instead of cutting 2 
million people off of SNAP, maybe cutting 5 million people off 
of SNAP. And I know you have said that is probably the most 
effective program that you have seen with poverty, if you could 
just talk a little bit more about that. But if you could start 
with the job question.
    Ms. Campbell. Clearly, we all know that working enhances 
the dignity of individuals, but that when you work you need to 
be able to earn enough. As was pointed out, minimum wage does 
not do that, current minimum wage. What I have found is that 
everyone who I have met--and granted, that is a small sample--
who has capacity and skills is eager to work, but getting 
connected with good jobs is the stumbling block because the 
jobs are not there. As I said, for every one job available, 
there are at least four applicants. And that means, then, 25 
percent get employed. But 100 percent need to eat. So if we 
connect work requirements with SNAP, are we saying that only 
those who work can eat when the economy is so narrow? I am not 
understanding that. And the fact is TANF, welfare reform, has, 
in fact, connected work with cash assistance, which is very 
small, which, in some states, many people say it is so small it 
is not worth going after. And rather, they are scrambling, 
doing hand-to-mouth work, hourly work, anything in the 
neighborhood that they can get.
    I forgot the second piece. Oh, so the challenge is that 
work needs to pay to be reasonable to get that, and making sure 
that there are not cliffs for the benefits that help get people 
into work, like child care, that there is not a precipitous 
cliff. That is one of the key points, that those wraparound 
benefits that Ms. Anderson spoke about be available and 
sustainable. The second piece with regards to SNAP benefits, I 
think that the experience that we have had, the information 
that we have from people that we have talked to, is that the 
SNAP benefits have the least amount of waste, fraud, and abuse 
because they are electronic benefits, and that they cannot be 
swapped out for other things. And the fact that people at least 
can feed their kids is the key. It is a supplement that working 
families depend on. Raise wages, we can reduce SNAP. Increase 
work, we can reduce SNAP. A growing economy will reduce the 
cost of SNAP. Do not cut it. People need to eat.
    Mr. Pocan. Thank you.
    Chairman Ryan. Thank you.
    Mr. Pocan. I yield back.
    Chairman Ryan. Thank you. We have Ms. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman, and thank you all 
for being here and for your patience. We do appreciate that you 
are here. I was teaching a Sunday school class at another 
church this Sunday, not my home church, but another one, and we 
actually had a discussion of this. And I wish that Ms. Anderson 
was here because her testimony is so spot-on I am actually 
going to forward it to someone at that church that had some of 
these very same questions. And how appropriate, Mr. Chairman, 
that as we come up on the 50th anniversary of so many of these 
programs that we are getting into the process of reassessing 
what does and does not work, and I think it is important that 
we take those steps.
    Mr. Baron, I liked what you said as the way forward, as a 
former state legislator in the state senate when we had done 
some of the Welfare to Work, I like what you are talking about 
with the trials. And I think that what I would like to hear 
from you is you look back over this 50-year window, and you can 
submit this in writing if it is easier for you, what you would 
say has been, where have our greatest success points been, and 
what should be looked to be expanded, and what should we view 
to reduce or even eliminate?
    And Mr. Besharov, I would like to hear the same thing from 
you. You know, what would you consider to be the greatest 
successes, and then where are the greatest vulnerabilities, and 
where should we seek to make those changes?
    Sister Simone, I wanted to give you time to respond to Mr. 
Rokita's question because it was one that I had. When is enough 
enough? Where would you say, if taxes are not high enough now, 
if people are not sending enough of their hard-earned money 
into the coffers of the federal treasury, what would you say is 
enough?
    Ms. Campbell. I actually believe, as we set forth in the 
Faithful Budget, that if you look at Reasonable Revenue for 
Responsible Programs, that there is a lot of surplus money 
within the federal government current budget that can be 
squeezed out. And we do believe that some of that money should 
be rerouted. So it is not so much increasing, but 
effectiveness.
    Mrs. Blackburn. Okay, well, your point, I think that that 
is a little bit different from what you had initially said, and 
you also had mentioned Pentagon funding earlier. I will 
highlight with you, the Pentagon has seen many more cuts than 
anybody else in recent years. And we would be happy to 
substantiate those figures for you if you would like to look at 
that.
    Ms. Campbell. I would love to see that data. That would be 
helpful.
    Mrs. Blackburn. You know, they had a cut prior to the 
sequestration and their sequestration was at 5 percent, not 2 
percent. So I would be happy to show you those figures if you 
would like.
    One thing I would like to ask you, Ms. Simone, you said 
that you come to this hearing today for the progress report on 
the War on Poverty as a Catholic sister rooting in the 
Christian tradition. Would it be fair for this Committee the 
question the validity of your testimony today, knowing that the 
Vatican has reprimanded the Leadership Conference of Women 
Religious, and singled out your organization in an official 
eight-page doctrinal assessment for only promoting issues of 
social justice, and being silent on the right to life from 
conception to natural death?
    Ms. Campbell. Well, I believe that the congregation for the 
doctrine of the faith is about theological struggles. It is not 
about our engagement in political activity. And as I said in my 
testimony, I am pro life. It is that our organization works on 
the economic issues.
    Mrs. Blackburn. Okay, is everything in your testimony 
today, since you come here as a sister of the Catholic church, 
is everything in your testimony today compatible with positions 
taken by the Catholic church?
    Ms. Campbell. Yes, it is.
    Mrs. Blackburn. Okay, I yield back.
    Chairman Ryan. Okay, I will take your 28 seconds if you do 
not mind.
    I am a Catholic. I think that Sister Simone knows this. 
There are matters of prudential judgment. There are areas where 
there are not matters of prudential judgment, life, for 
example. But there are areas where we exercise different 
prudential judgment, and this economic sphere is clearly one of 
those areas where we exercise different prudential judgment, 
and we come to different conclusions about how best to achieve 
a goal such as, you know, economic growth, and poverty, and the 
rest. And speaking as a Catholic who usually disagrees with you 
on some of these issues, I think you are very well within 
Catholic social teaching to give the testimony that you gave 
here today because that is very well within your parameters of 
exercising your prudential judgment.
    Ms. Campbell. Thank you.
    Chairman Ryan. Where are we? Ms. Moore.
    Ms. Moore. Thank you so much, Mr. Chairman and Mr. Ranking 
Member, and all of the members of the panel. I just want to 
start out by saying it is an absolute untruth that the welfare 
reform programs were successful. I was there at the scene of 
the crime when Governor Tommy Thompson ended welfare as we know 
it. And what happened was, yes, the rolls did fall by 93 
percent because it just threw people off the rolls. They were 
just thrown off.
    The leavers, there were studies of the leavers. And leavers 
did not find jobs. Many of them did not find jobs. Matter of 
fact, I tried to require that they do data and statistics, 
which they did not want to do because they did not want to 
confirm that.
    I do think that notions that, you know, having two jobs or 
getting married do not necessarily work for, quote, unquote, 
``lifting'' people out of poverty because people are working at 
minimum wage now, and they are making 61 percent of the federal 
poverty level. So having two jobs will not get you out of 
poverty. Getting married to someone who is making minimum wage 
will not get you out of poverty; might get your butt beat.
    The World Bank defines poverty for developing nations as 
living on $2 a day or less. And, unfortunately, since welfare 
reform in the past 15 years, the number of people in the United 
States of America who are living on $2 a day has doubled.
    Now, having said that, I think I could talk about Ms. 
Anderson's, Secretary Anderson's, testimony without her being 
here. There are enough people here to take up where she left 
off. I agree with her totally when she says that she is 
concerned about the welfare cliff: when we provide benefits to 
folks, and then as soon as they get up to a certain point, they 
are no longer eligible for welfare benefits. And we have seen 
certain programs like the Earned Income Tax Credit, maybe some 
childcare benefits, healthcare benefits. Would it not seem more 
logical to expand the numbers of people and the income levels 
at which they were eligible for those programs instead of 
saying the illogical thing that time limits would be the 
result? And I guess I want to ask the panel that.
    Yes, sir, Mr. Baron.
    Mr. Baron. Yes, I think you make a very important point.
    Ms. Moore. I do, too.
    Mr. Baron. Meaning that I agree with that, in the sense 
that some of the most successful Welfare to Work programs were 
ones that combined some of the things that we have been talking 
about: a strong work requirement with an earning supplement for 
people who did leave welfare and found full-time work; that was 
found in Minnesota.
    Ms. Moore. Very good. Mr. Besharov, you have talked about 
some of the OECD countries, but they allow education. I am 
concerned about women becoming a permanent underclass because 
of this work first notion. I mean, the day we start ending 
welfare as we know it, 10,000 women were kicked out of 
community colleges and colleges in Wisconsin. And I know I have 
benefitted, and everybody in this room has benefitted, from 
education. And we do know that global, as you mentioned, we got 
to have people doing something other than moving boxes. I am 
concerned that women are being subject to a gender-based, 
permanent underclass by denying them educational opportunity 
under our Work First initiatives. Comment, please.
    Mr. Besharov. I have thought about this a great deal.
    Ms. Moore. Pardon?
    Mr. Besharov. I have thought about this a great deal.
    Ms. Moore. Oh, good.
    Mr. Besharov. And you and Eloise----
    Ms. Moore. Oh, she trained you good. A good baby. I was a 
program and planning analyst. And this is illogical, the stuff 
today. She did a good job. And so women are going to become a 
permanent underclass. Mr. Chairman, I would like to add to the 
record.
    Chairman Ryan. He did not answer your question.
    Ms. Moore. But it is my time. I would like to enter into 
the record the Citizens for Tax Justice executive pay; there 
was a comment that Secretary Anderson made. She wanted greater 
expectations of poor people. I have greater expectations of 
rich people, too, that they do not cost the Treasury, over 
three years, $27.3 billion for tax breaks for executive 
compensation costs that they never pay. I would like to point 
out that I wish rich people and crop insurance, we did not have 
26 reducers that got $1 million in premium subsidies. I wish 
that we could avoid some of the moral hazard. You know, we pay 
$1 trillion. Finish my sentence?
    Chairman Ryan. Without objection, your document is inserted 
into the record.
    Ms. Moore. We spend a $1 trillion a year on the mortgage 
interest deduction, which I take advantage of.
    Chairman Ryan. The gentlelady's time has expired. Mr. 
Woodall.
    Ms. Moore. But that is my sentence. Okay, here, put this in 
the record.
    Chairman Ryan. Okay, without objection.
    Mr. Woodall. I want to thank you all for being here and 
waiting for those of us at the end of the dais and our 
questions. Mr. Jeffries said earlier that what we really have 
is a moral crisis in this country. I think that is true. I 
think morality and culture are linked hand in hand. I am 
concerned we have a cultural crisis in the country. I am 
thinking of how many folks have tried to put their ``I care 
about getting folks out of poverty'' bona fides on the table by 
talking about how much of someone else's money they were 
willing to dedicate to solving that problem.
    I think about that $50,000 figure per parish that you 
cited, Sister Simone. How many folks are in your parish, 
ballpark?
    Ms. Campbell. I do not know. I am in a new parish because 
our parish got closed, and we are consolidated with Holy 
Redeemer. So I do not know.
    Mr. Woodall. Well, sounds like it is gotten bigger.
    Ms. Campbell. Yes. Up off North Capitol. So I would not say 
a lot about our capacity to raise.
    Mr. Woodall. Well, I am thinking if we were tithing to get 
that $50,000.
    Ms. Campbell. This is additional to what we already raised 
to keep the parish going.
    Mr. Woodall. Absolutely. But if we are tithing, we need 
about $500,000 in collective income; if we are all earning 
poverty-level wages for our family, that is four of us per 
$100,000. We only need about 16 folks in the parish. And we 
will start to get there. Is my math right, or is that 160 
folks? Clearly, we need more early education.
    But where is that conversation? Because I am concerned that 
culturally, we are stealing from the American people the 
obligation to take care of one another; that if I have paid my 
taxes, that that kind of checks this off the list for me. And 
we are stealing from folks who are struggling. The joy of 
having someone look them in the eye and saying that ``I care 
about you.'' And this is a joy that you know personally, and 
folks that you work with know personally. But we are not 
focused on that. We will spend more dollars caring for someone 
in poverty than we will trying to lift someone out of poverty. 
And I think that is a perversion of what I would call our 
cultural morality.
    I think about Mr. Besharov said in answer to, I think it 
was Mr. Jeffries' question, what the minimum wage was. He had 
to struggle on that. I asked a landscaper in my district just 
last week what the minimum wage in Georgia was. He said, ``Rob, 
I do not have any idea. We will pay folks $12 an hour if we can 
get them to work. I know that is higher than minimum wage, but 
we cannot find anybody who wants to come in and work. This is 
hard work that we do, and we have a tough time finding folks to 
do it.'' I hear that from my local high schools, that it used 
to be the farmers in the district could go out and go to the 
local football team, and get them to come throw hay for the 
afternoon and give them a fair wage for it. Today, folks say, 
you know, ``That work is just too hard. I am not going to go 
out and do that.''
    I think about federal benefits, just Medicare and Social 
Security, and I will quote Urban Institute numbers because I do 
not think anyone would accuse the Urban Institute or Brookings 
as being too far to the right on the issue. They say that for 
an average-income family in this country, a one-income earner 
in the family, not a wealthy family, that the present value of 
their Social Security and Medicare benefits alone is almost a 
million dollars. Average family has a million dollars in 
government benefits coming to them, but they may feel 
penniless. You extrapolate that down to folks for whom we spend 
so much money caring for, yet one of the most underutilized tax 
provisions in the code is the Saver's Tax Credit, because we 
cannot empower folks who feel like they have no options with 
options.
    I would tell you that wealth has nothing to do with how 
much money you have in your bank account. It has to do with how 
many choices you could make about your future tomorrow, because 
if you cannot make any choices about your future, you cannot 
change the path that you are on.
    We referenced the Earned Income Tax credit a bit ago. IRS 
inspector general says we have the lowest fraud rate in modern 
times, and it is 21 percent. About $12 billion that we know are 
going out the door from the Treasury, these dollars that you 
were talking about, Sister, that could be redirected dollars we 
know were intended to help, and they are going to fraud. I 
wonder if we could find a way to work across the aisle to find 
those dollars and redirect them to programs that we can agree 
work.
    It is, again, culturally, morally disappointing to me that 
as you all have come to invest your considerable experience and 
expertise in us today, that much of the conversation that you 
have heard here has been, who cares about the poor and who does 
not? As if that is a starting point at all. I would hope that 
in America, the starting point is we all care. We have 
different ways to get there, and are we not going to be closer 
to finding that solution if we agree that that is our starting 
point, and from there on out, we are just trying to do it as 
best we can.
    Chairman Ryan. Thank you.
    Mr. Woodall. Thank you, Mr. Chairman.
    Chairman Ryan. Thank you. Ms. Lujan-Grisham.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. And I want to 
add my accolades to the Chairman and the Ranking Member. This 
is indeed a very important topic, and one that brings great 
passion not only to the folks who were trying to address it by 
your efforts today, and testifying to ideas and concepts and 
realities about poverty, but recognizing that we come at this 
from different perspectives. And I want to do a couple of 
things before I get to my question.
    One is I have a different perspective about what is going 
on in corporate America. I have seen no evidence that we are 
seeing full-time jobs cut to 30 hours and less, and part-time 
jobs because of the Affordable Care Act. That was never the 
experience in Massachusetts. Saying it does not make it true.
    And the reverse I would also point out, that where we have 
had some job growth, they have been not high-skilled wage kinds 
of jobs, or actually careers for folks, which creates a huge 
problem. And coming from a state that is now the worst state in 
the nation to raise a child, the worst state, we have one of 
the lowest job growth; I think we still have negative job 
growth. I should certainly get that fact pinned down. But I am 
focused on that our unemployment rate just went up by 1 
percent.
    And I worked for three different administrations: one 
Republican, two Democratic. Did the Welfare to Work. And we 
asked the wrong questions, right? We look at units of cost and 
how many people are in a program, and therein lies what we 
perceive to be a problem. With more people on poverty programs, 
we have done something wrong because they are still in poverty. 
And I would make the case that in Medicaid, you know, we need 
to either cut the benefits or change the eligibility.
    And if you squeeze it one place, it just bulges out 
another. And we do not talk about the other cost savings, like, 
for example, in Medicaid, that if we are providing those 
services, or Medicare, supporting families like mine, who are 
primary care givers, that is fewer hospital costs. That is the 
fewer long-term care costs. And we do not ever pay attention to 
the growth rate of senior and disability populations across the 
country, which get you to some of these real issues, as if that 
has nothing to do with what is going on. And it is all just 
personal responsibility and accountability in these programs.
    In New Mexico, senior citizens beg to go back to work 
because $10 in food stamps was not enough to make ends meet. 
They were happy to give up that benefit if somebody would give 
them an employment, even at minimum wage, to supplement their 
Social Security. But there are limitations to their 
opportunities there, not just on the restrictions in Social 
Security, but whether or not they can get a job.
    So it is a complicated effort. And I want to just put it 
back down to some maybe practical aspects, because I think we 
forget about who really is getting these benefits. And we say 
seniors and, you know, we say children. But, in fact, we have 
seen a huge increase in SNAP at commissaries on military bases 
nationwide. In 2008, SNAP participation increased by 21 percent 
at commissaries, and 14 percent nationwide. In 2009, 75 percent 
at commissaries, 46 percent nationwide; 2010, 38 percent at 
commissaries, 19 percent nationwide. Now, we are not even 
paying our men and women in our military sufficient so that 
they are out of poverty.
    If we cut SNAP, and that is the example here, we are going 
to ask them to be more accountable, to do a better job with 
their job choices, just exactly what would you do to cover 
those military families without that benefit? What do you think 
would make them more accountable? How would you solve this 
problem, or should you?
    Mr. Besharov. Well, one of the issues, and we have just 
kind of glided over this, is, as Mr. Van Hollen said, a large 
number of the people who are on food stamps are working. I do 
not think the number is quite as large as you said, but it is a 
big number.
    So the tricky part with doing anything in the food stamp 
program is to deal with those who are working, in which case 
the food stamps as an income supplement, as you described, and 
for the people who are long-term recipients who are not 
working. And from my own understanding of this, the issue is 
for the long-term recipients who are not working, not those who 
are using food stamps as they are now intended, as an income 
supplement. I think they are two different groups. I do not 
know how the legislation is going to deal with that.
    Ms. Lujan Grisham. But you would agree that we ought to be 
careful about just cutting those families off food stamps.
    Mr. Besharov. Oh, for any program, of course, for any 
program.
    Ms. Lujan Grisham. Yes? Yes?
    Ms. Campbell. Absolutely.
    Ms. Lujan Grisham. Okay, we got three yeses, so it is not 
so simple as making these reductions and making these programs 
accountable. I think the people on these programs want real 
opportunities to make a difference in their lives, and I 
appreciate that you are here with some of those, but it is 
irresponsible to just decide that we should cut any of these 
programs in the name of poverty reduction.
    Chairman Ryan. Okay, Mr. Van Hollen.
    Mr. Van Hollen. Mr. Chairman, yeah, just a response to Mr. 
Besharov's point in clarification. The number I was giving you 
was for able-bodied adults. Did not include the elderly and 
kids. But those were the figures for that. And maybe, Mr. 
Chairman, if I could submit it for the record?
    Chairman Ryan. In the record, without objection.
    Mr. Van Hollen. Thank you.
    Chairman Ryan. All right. Mr. Lankford.
    Mr. Lankford. Thanks, you all, very much for being here. 
Several different questions for you. The challenge of this is 
now, after decades of our nation aggressively and rightfully 
so, trying to help transition people out of poverty, we still 
struggle with evaluating effectiveness for our programs. And 
what are the metrics? It seems very often that we count 
programs based on how many people we serve rather than how many 
people get off the program. I know I have heard that over and 
over again, and so I would like to get a chance to just have 
some dialogue about that.
    Pick any one of the programs that you want to be able to 
pick of the 70 to 80 different means-tested programs, or all 
the different programs that are out there that are on the 
federal dime, and the taxpayers are helping each other in this. 
Which do you say has the best metrics for evaluating 
effectiveness of that program to actually transition people out 
of poverty? Not effectiveness of delivering support, but 
effectiveness of helping people transition out of poverty?
    Mr. Baron. Yeah, I would say none of them have good 
metrics.
    Mr. Lankford. Is that because we are not measuring that, or 
because all of them are doing poor in the program? They are 
being measured, they are just not hitting a standard?
    Mr. Baron. They take a much too simplistic way of measuring 
to measure effectiveness, which often yields the wrong answer. 
Let me give you a very quick example.
    There was a program for welfare mothers, to provide home 
visiting for welfare mothers that HHS had in the 1990s called 
the Comprehensive Child Development Program. To make a long 
story short, participants in that program, over a five-year 
period, they went from a 16 percent employment rate, the 
mothers, to a roughly 50 percent employment rate, which was a 
very strong increase. However, this was set up as a rigorous 
evaluation where some mothers were randomly assigned to get the 
home visits, and others were randomly assigned to a control 
group and did not. They got usual services in the community. 
And the control group also, I have, you know, I have got a 
little graph which shows the line. Their employment rate went 
up almost exactly the same amount, which raises the point that 
if you just measure, are people, you know, sort of moving into 
the work force, et cetera, or off of welfare, or whatever it 
happens to be, without reference to a good control or 
comparison group to figure out what would have happened anyway, 
you often get the wrong answer. And that is the way, typically, 
you know, probably 90 percent or more of programs and projects 
across the government are evaluated with methods that do not 
really produce a credible answer.
    Mr. Besharov. I am tempted to tell you the one I think is 
the worst.
    Mr. Lankford. I am looking for the winners, so can easily 
identify the losers in this.
    Mr. Besharov. The reason I want to mention it is because I 
think it reflects the government's unwillingness to push for 
performance measures. Sister Simone was talking about the four-
to-one job searchers. Well, there is almost a million empty 
jobs--the number fluctuates depending on how you measure it--
where employers say there are not people with the skills for 
the jobs we want to fill.
    So job training programs become tremendously important. And 
we spend a couple of billion a year, not a lot of money. It is 
a program that has been beaten up all the time. So to answer 
your question, we have never seriously expected job training 
programs to be evaluated on a day-to-day basis to see who gets 
jobs and why. And given the challenges to our economy now, 
given the idea that we have that employers say they need 
workers who have certain skills, the fact that we cannot tell 
them what works is a giant problem.
    Mr. Lankford. It is huge. I have visited one of those job 
training programs in my district that was a fund that was set 
up with a grant for a green jobs training. And I went and 
visited it. At the end of it, I got a chance to visit with the 
folks and ask point blank how many people that went through the 
program got a green job at the end of it. And the answer I got 
back was the skills are transferrable, which meant zero, was at 
the end of it.
    To me, we have got to be able to evaluate this because the 
goal is not to throw money. The story of the Good Samaritan is 
not about someone who rode by and flipped the guy $10 and went 
on. The goal is to be able to help people out, and to be able 
to transition to that, and try to figure out how we are doing 
that, what is happening, what is not.
    Ms. Campbell. Might I just add that the Texas Workforce 
Commission has done an amazing innovative approach in 
highlighting companies in Texas who are partnering in a really 
innovative response to get high school students as, first, as 
interns, where they make coolers, air conditioners. And then 
they say that they will fund kids going to the junior college 
to get a two-year degree, and they will give them a job in 
their field. They have had high-level success getting children 
through that program and directly into employment. It is been a 
huge success.
    Mr. Lankford. Thank you, I yield back.
    Chairman Ryan. Thank you. I appreciate everybody's 
indulgence. We had a good round of questioning. I think you can 
tell that the rhetoric and the politics of this issue are still 
kind of, I would say mired in the status quo. We were just 
talking up here, Mr. Besharov, I think we are beginning to 
understand why you have an appreciation for the problem and the 
system. Hopefully we can get off a dime, get past the status 
quo, past the rhetoric, and collectively focus on evidence-
based solutions.
    So thank you very much. And this hearing is adjourned.
    [The prepared statement of Ms. Schwartz follows:]

  Prepared Statement of Hon. Allyson Y. Schwartz, a Representative in 
                Congress From the State of Pennsylvania

    It is stunning that House Republicans have the audacity to hold 
this hearing under the pretense that they care about poverty in our 
nation. Just three weeks ago, House Republicans passed legislation to 
give taxpayer subsidies to corporate sugar producers, after they 
eliminated measures to provide underserved children, seniors and 
families with food and nutrition assistance. The Supplemental Nutrition 
Assistance Program (SNAP) that Republicans are determined to eliminate 
is a lifeline for more than 1.8 million Pennsylvanians.
    The Republican budget eviscerates important investments in 
education and initiatives to enable people to move into the middle 
class, all to protect tax breaks for the wealthiest Americans. Their 
refusal to work with Democrats on a common sense proposal to replace 
the harmful sequester and enact a responsible budget is putting our 
nation at risk and limiting economic growth.
    This is about tens of thousands of Americans who work hard every 
day yet struggle to meet their financial responsibilities. Unless we 
replace the sequester, 140,000 low-income Americans will lose their 
housing assistance, 70,000 children will be pushed out of Head Start, 
and seniors nationwide will have to cope with 4 million fewer meals 
delivered by Meals on Wheels.
    Republicans and Democrats must seek common ground on a sensible 
budget to avoid harming families, seniors, small businesses and our 
economy as a whole. We should replace the sequester now so we can focus 
on investing in our economy, growing the middle class and lowering our 
long-term deficits.

    [Additional submissions of Ms. Lee follow:]

 Prepared Statement of Tianna Gaines-Turner, Chair, Witnesses to Hunger

    Chairman Paul Ryan and distinguished members of the Committee, 
thank you for requesting and considering this written testimony. My 
name is Tianna Gaines-Turner. I am married to the father of our 3 
biological children. I have a son who is 9 years old and on the honor 
roll, going into 4th grade, and I have twins, age 5, who are starting 
kindergarten in September. I also have three teenage stepchildren, whom 
I love dearly. I have worked with the Witnesses to Hunger program, a 
growing group of parents who speak out as the true expert witnesses on 
hunger and poverty in America.
    I work part time for a childcare provider at a recreation center 
making about $10 dollars an hour and my husband works behind the deli 
counter at a grocery store making $8 dollars an hour. We haven't been 
able to find full time jobs. With the part time jobs, our incomes go up 
and down. Not only do we have incomes that are inadequate, but they are 
also unstable and unpredictable. When programs like SNAP (food stamps) 
rely on stable income reports, it makes it harder to keep this 
nutrition support steady. So we may lose food stamps one month because 
we make too much, and then a few months later, when our companies 
choose to reduce our hours at their own convenience, we make less money 
and we need to turn to food stamps again to feed our kids healthy 
meals. But, then we might get an opportunity to work a few more hours, 
and then we lose the food stamps again--all in the space of six months, 
and never with the right timing. What happens, then, is we often run 
out of money for food. There is a research study I read that's called 
``Working for Peanuts'' that shows when families have unpredictable 
hours at low paying jobs, that the families are more likely to be 
``food insecure.'' That's my family.
    My three children have medical issues that concern me every day. 
All of my children suffer from epilepsy and have to take life-saving 
medication every day. All three of my children also have moderate to 
severe asthma. I worry about a day that might come where my children 
won't be able to see a specialist because I can't afford the co-pay. In 
addition, neither my husband nor I qualify for medical assistance 
because we make too much money in our part time jobs, but our jobs do 
not offer health insurance. I, too, suffer from asthma and epilepsy. I 
currently can't afford to get an inhaler. The thought that my own 
children may not be able to get the care they need worries me every 
day. Just like you want the best for your children, I want the best for 
my children.
    This is very important for you to know. What I am going to show you 
is that issues of medical care, housing, and food all go hand in hand.
    There have been times when my oldest son was sick or having 
seizures, and of course, as would you, I wanted to be at the hospital 
to care for him and help him get the care he needed, and to comfort 
him. But that meant my husband had to stay home to take care of the 
twins. And then we were both unable to work, so we lost money that 
month, and ultimately had to make a choice--do we pay the rent or do we 
pay the light bill? Not to mention, how do we buy food?
    No family should have to choose between paying a bill or putting 
food on the table. In my work with Witnesses to Hunger, I read many 
research studies by Children's HealthWatch that showed that food, 
medical issues, paying for utilities and housing all go hand and hand.
    Poverty is not just one issue that can be solved at one time. It's 
not just an issue of jobs, or food, or housing, or utility assistance, 
and safety. It's a people issue. And you can't slice people up into 
issues. We are whole human beings. Poverty has to do with a whole 
person who is in a family, in a neighborhood, in a community, and our 
country. The policies you work on in the House of Representatives 
affect me and my family in very deep and important ways. I am living 
out your policy-making and I see how your decisions affect both 
physical and mental health, especially the physical and mental health 
of my children and me.
    Let's get something straight. We've heard some leaders say that 
people who are poor are lazy, or that they need to work harder. But 
that is a very wrong view. Most low-income families I know are working 
harder than many other people who make a lot more money, and they're 
working sometimes 2-3 jobs to make ends meet. We're playing by the 
rules, but we're not getting ahead.
                     playing by the rules--working
    I am not sure at what point the American dream--of knowing that if 
you worked hard, you would survive--ended. But it has for my family, 
and for many in my communities. Working one or even multiple jobs is no 
longer enough. Wages are so low and expenses are so high that even if 
you are able to find work, it may not be enough to even pay for the 
expense of childcare. I have heard too often the story of people 
finally getting a job, just to have their childcare assistance taken 
away. They no longer qualify for the assistance at the exact moment 
they need it most. Just when someone is moving forward, the rug is 
ripped out from under them. This cycle pushes families deeper into 
poverty than they were before they took the job. This system needs to 
change in order for people like myself to forge a better future for 
myself and my children, one where I will never need to turn to public 
assistance again.
                             good nutrition
    Relying on food stamps is not an easy process. When I hear the 
story about a person buying lobster using their SNAP benefits, I am 
frustrated because it is not the reality. People on SNAP count every 
penny they have and cut every corner they can to make sure their 
children do not starve. I know of many families through my work with 
Witnesses to Hunger who describe having to put their children to bed 
before dinner because there was nothing to feed the children, or others 
who look at food menus delivered to their door so that they can imagine 
ordering dinner and trick themselves into thinking they've eaten, when 
actually they have not eaten in days. The reality is that SNAP keeps us 
from starving. It is critical to the survival of the 50% of American 
children who will rely on the program at some point in their lives.
    For me, feeding my family properly has become a strategic 
obsession. No matter how diligent I am to cut coupons or only buy 
things on sale, the benefits never last. Most nights my husband and I 
make our dinners on what is left over on our children's plates--we call 
it ``kids plate surfing.'' We are able to get by thanks to SNAP, but we 
are not eating well.
    I know that a proper diet is critical for the health and well-being 
of my children, that nutrients are key to their development. I also 
know that if my benefits are cut that means less meals and less 
nutritious food. Cutting a person's benefits by $10, $15, or $20 might 
not seem like a lot to legislators, but it would cut meals out 
completely for families like mine. Without SNAP, I would still feed my 
kids, but it would be cheap Oodles of Noodles with lots of sodium and a 
bunch of ingredients I can't recognize or pronounce. They would not get 
fresh vegetables and fruit.
    Because I am active in addressing hunger, and work with researchers 
around the country, I've seen that this year, the Institute of Medicine 
proved that SNAP benefits do not last, because the monthly SNAP benefit 
is not enough for a healthy diet. My family, friends and community 
could have told you that years ago. But the thing is, people wouldn't 
believe us because they would somehow think it was our fault. The 
Institute of Medicine shows that it's not our fault. It is the system 
we have that needs improvement.
                      safe and affordable housing
    My family and I have been homeless twice in the last several years.
    There was a house that we could afford to rent when the twins were 
newborns. The day we moved in, people in the neighborhood told us to 
stay inside because there was going to be a shoot out. There were 
children everywhere on this street. That's not a safe place to live, 
but it's all I could afford! And there was a terrible rodent problem on 
the block--mice and cockroaches. And, as you know, those are the things 
that make asthma worse--they are asthma triggers. So I was spending too 
much money on an exterminator to no avail, and spending too much time 
in the emergency room. We moved out because it was unsafe and 
unhealthy. We took our tiny savings to stay in a hotel until we could 
find a place that we could afford that was safe and wouldn't make us 
sick.
    When we were homeless we would sleep on my mother-in-law's couch, 
and take the kids to the playground so they wouldn't have to think 
about their situation. At the playground, they could just be kids.
    During this time, I was on the waiting list for Section 8. And it 
turns out my name in the system--after 10 years of waiting--was 
actually approved. They tried to send the forms to our old address, but 
they had the spelling of the street wrong, so it never reached us. We 
didn't know about this for months. And because we never responded, we 
were put back to the bottom of the waitlist. All of the housing forms 
are still paper based. It is a system that is still in the Stone Age.
    It took a call from a legislator's office to get that situation 
fixed. Thanks to Section 8 finally working out, I now live in a 
slightly safer neighborhood. Yet there are still abandoned homes on our 
street, shootouts in the bar down the street, and several homeless 
people who stay under the bridge in the nearby subway.
                              giving back
    Chairman Ryan recently said that people need to get involved in 
their communities and help each other out, because getting together to 
help each other out is much better than government benefits. But, if 
you actually came into our communities, actually invited us to talk 
with you about what it's like to be on government benefits, you would 
learn that government benefits are actually helping us stay healthy.
    You would also see that helping each other out is exactly what we 
do, every day to survive.
    Every day I help my community, and I give back. I've helped loved 
ones, neighbors, strangers. People ask how you can help others when you 
need help yourself. But that's what we're supposed to do--work together 
and try to support each other through our struggles. My neighbors and I 
recently received donated food. We took the food to an abandoned house 
on our block, and we set up a place on the porch where people could 
come and get food. We didn't need to know how much you made. We didn't 
need to see any identification. If you were hungry, if you wanted food, 
we gave it to you. I also check in with an elderly neighbor every day. 
Her entire Social Security check goes to rent and utilities, with 
hardly any money left over for food. But I do what I can to make sure 
she feels supported.
    Moments like these are not unique. They happen every day throughout 
our country. And if our government officials and policymakers took the 
time to really look at and try to understand the communities they are 
supposed to represent, they would see that. Instead, they use hateful 
language and make ignorant comments. They use phrases like ``those 
people.'' They make it seem like there are two sets of humans--them and 
us. There is no such thing as ``those people''--we are all people. We 
are all the same. Just because you live where you live and I live where 
I live doesn't make us different. We are all part of the same 
community. So we need more thoughtful, healing language to talk with 
each other respectfully. Only this way, can we solve poverty.
                      a hand ``in'' not a hand out
    You may have heard people say ``we don't want a hand out, we want a 
hand up.'' I say we don't want a hand out or a hand up, we want a hand 
in. Include us. If you want to find solutions to the issues that people 
face while living in poverty, people actually living in poverty need to 
be part of the discussion when decisions are being made. If you do not 
have an understanding of the struggles, how can you try to solve them? 
I am not a number, I am not a statistic, I am an American citizen. I 
have a voice and you need to hear it. We are the real experts. We know 
American policies first hand.
    When I talk about people who are poor, I am not just talking about 
families like mine. I am also talking about our elders, all families 
with young children, and the military soldiers who come home and cannot 
get the services and supports they need. I am talking about the 
disabled and the mentally ill, our immigrant families and our American 
Indian brothers and sisters who live in a kind of economic poverty far 
worse than my own. People living in poverty need serious, comprehensive 
attention.
    These are my recommendations:
1. Put together a task force on poverty
    This task force should include Democrats and Republicans, and 
should represent rural, urban and suburban areas. This task force 
should seek guidance and advice from the government agencies whose 
programs and policies touch people living in poverty every day. Most 
importantly, you must include people who know poverty first hand who 
live in your districts. Every single congressional district in this 
country reported food hardship. I know there are many people out there 
who are ready, willing and capable to stand up and help.
2. Invest in good jobs with fair pay
    Look to the corporations to be your friends in ending poverty. 
Don't let companies pay low salaries so that hard working people like 
me still have to rely on government assistance. Also, someone working 
hard should not be penalized for getting a job or a getting a raise, 
and then immediately get cut off of assistance. Public assistance 
programs need to support people as they transition out of poverty, not 
drop them off a cliff, leaving them worse off than when they started.
3. Invest in good nutrition
    Fix the SNAP program now. People need access to healthy, affordable 
food. Programs that help low-income families put food on the table need 
to be protected and fully funded. Remember that food stamps are a good 
investment in our health and wellbeing. If we don't get enough food 
stamps, we won't be healthy--we'll be in the emergency room, and that 
costs the country more money.
4. Invest in housing
    No families with young children should have to suffer homelessness. 
According to The National Center on Family Homelessness, there are over 
1.6 million children in this country who are homeless each year. Being 
homeless is stressful and degrading. Make housing affordable, and fix 
the waiting lists for families who are playing by the rules.
5. Invest in health and prevention of disease
    Support access to health care. Little kids, and their moms like me, 
need to stay healthy and strong. Health care is a good investment.
6. Invest in building assets
    All families need opportunities to build their own safety net. I 
only got my first bank account a few years ago. Now I am saving money 
for my kids to go to college. Lots of low-income families need more 
access to low cost or free bank accounts so we can get a hand in the 
financial mainstream. We also need to be allowed to save while we are 
receiving assistance, not be kicked off for just having a little more 
than nothing.
                               conclusion
    Working with low-income people is necessary for our country to find 
a solution to poverty. We need constant conversation and action. The 
pot must be constantly stirred, not just once in a blue moon. And we 
can't just be at a simmer. We need to be cooking at full blast so we 
can all sit together in a respectful way, talk with each other, and 
actually listen and understand, so we can make a plan for action.
    I promise I will work with you. And I know millions of Americans 
just like me who will work with you to help you with the answers to 
poverty that you seek. We invite you to come to Philadelphia to see 
where and how we live, to come to our grocery stores, childcare 
centers, and elder homes, and to visit with my neighbors. And then we 
can talk like equals, and join in the idea of putting poverty in the 
past, of investing in helping American people do and be their best. 
It's the patriotic thing to do.
                               references
1. ``Working for Peanuts: Nonstandard Work and Food Insecurity Across 
        Household Structure.'' by Alicia Coleman-Jensen. Found at 
        https://www.opressrc.org/content/working-peanuts-nonstandard-
        work-and-food-insecurity-across-household-structure
2. Children's HealthWatch Research Studies. Found at:
    http://www.childrenshealthwatch.org/page.php?id=50
3. Institute of Medicine report on Supplemental Nutrition Assistance 
        Program: Examining the evidence to define benefit adequacy. 
        Found at http://www.iom.edu/Reports/2013/Supplemental-
        Nutrition-Assistance-Program-Examining-the-Evidence-to-Define-
        Benefit-Adequacy.aspx

      Prepared Statement of Deborah Weinstein, Executive Director,
                        Coalition on Human Needs

    In 1966, I was a college student in Binghamton, New York. I had the 
opportunity to become a tutor-counselor for disadvantaged high school 
students in a new summer program on our college campus: Project Upward 
Bound. It was part of the ``war on poverty''--one of the initiatives 
within the Economic Opportunity Act. I met people only a little younger 
than myself who were selected by a teacher at their high school as 
having the potential to succeed in college. They were bright, but up 
till then no one in their families had gone to college; it was outside 
of their experience and expectations. One of the girls had false 
teeth--her family had no money for a dentist and did not get the care 
that would have allowed her teeth to be saved. Another girl was 
extremely bright, but her high school could not challenge her and she 
felt freakish and isolated. A boy was doing his best to be a tough kid, 
but wrote poetry in an era when that was just asking for trouble.
    Most of the high school students in the program did well in 
college-level classes, and the program opened up opportunities for 
them. It wasn't magic--when these students went back to their 
unchallenging high school and to the struggles in their families and 
communities, some could not stay on the path to college. But some did.
    Upward Bound was a fairly modest effort to open up opportunities 
for poor kids. Looking back on it, much of the Economic Opportunity Act 
was of modest scope, and based on the conservative values of 
encouraging work and engaging local community decision-making. There 
were special initiatives for poor youth (Job Corps, the Neighborhood 
Youth Corps, VISTA, Upward Bound, and Work-Study) and for the youngest 
children (Head Start). Community action began, with the goal of 
achieving the ``maximum feasible participation'' of members of poor 
communities themselves.
    The war on poverty included these measures intended to promote 
jobs, education, and community solutions. In separate legislation, food 
stamps, Medicare and Medicaid were created in 1964 and 1965. Congress 
recognized that you could not beat poverty if millions of people did 
not have enough to eat or access to medical care. Congress did not 
initially understand the depth of hardship, and required families to 
purchase food stamps. It took Marian Wright Edelman, guiding Senator 
Robert Kennedy around Mississippi in 1967, to demonstrate that people 
did not have $2 to purchase food stamps, and so remained hungry. 
Congress responded by eliminating the purchase requirement.
    Then, as now, it was understood that poverty could not be 
substantially reduced without improved access to jobs and better pay. 
The education and training provisions were intended to help poor people 
qualify for better jobs. During the 1960s, the minimum wage was 
increased and expanded to cover more workers. It rose to $1.25/hour in 
1965.
    During the 1960s, the reduction in poverty was remarkable. In 1960, 
22.2 percent of Americans were poor. By 1965, the poverty rate had 
dropped to 17.3 percent, dropping further to 12.8 percent in 1968 and 
bottoming out at 11.1 percent in 1973. Since then, poverty has bumped 
up and down, although never returning to the high point of 1960. It got 
down to 11.3 percent by the end of the Clinton years in 2000, peaked at 
15.1 percent in 2010 and edged down to 15 percent in 2011.
    Did the dramatic reduction in poverty in the 1960s result from the 
war on poverty initiatives? Not in large part--the jobs and education 
programs were too modest, and the food and health care expansions did 
not directly count in the calculation of poverty income. But that is 
not to say that government actions played no role in poverty's 
reduction. As more elderly people accumulated Social Security benefits, 
poverty among the elderly dropped more than other age groups. In 1966, 
28.5 percent of those 65 and over were poor. By 1973 their proportion 
had dropped to 16.3 percent, a 43 percent decline. Older Americans were 
well on their way to ending their status as the most disproportionately 
poor age group. Social Security did that--a federal cash assistance 
program created through a social insurance model.
    Although poverty did not drop as precipitously among other age 
groups through 1973, it did decline. Among children, the poverty rate 
dropped from 17.6 percent in 1966 to 14.4 percent in 1973, an 18 
percent reduction. Unemployment was below 4 percent for the latter half 
of the 1960s, and that allowed more parents to work and raise their 
children out of poverty.
    What lessons should we learn from these facts? Poverty reduction 
occurs when there is a combination of broadly shared economic growth 
and government policies to ensure that the lowest income people are not 
left out. Those conditions were in effect in the latter half of the 
1960s. While the direct expenditures on the war on poverty programs 
were not the most significant causes of poverty reduction, other 
government actions were important. In addition to Social Security's 
help to the elderly, continued investments in the interstate highway 
system begun in the 1950s and in education were important underpinnings 
of economic growth. The private sector was expanding and manufacturing 
was a strong part of our economy. Manufacturing jobs paid better and 
were open to those without a great deal of education. Manufacturing 
jobs were to a large extent unionized, with labor laws protecting 
collective bargaining rights.
    So economic growth abetted by government policies contributed in 
cutting the poverty rate in half from 1960 to 1973. The government 
policies included infrastructure investments, cash and in-kind income, 
minimum wage increases and labor laws, and education/training. Health 
care expansions were very significant in improving life and living 
standards, especially for the elderly, but did not count in official 
poverty estimates.
    The combined effect of government policies led to more jobs, many 
of which could be filled by people with little education. Private 
sector manufacturing jobs were key, but so too were construction jobs, 
jobs in Head Start and community action, and in the health care sector. 
The more closely connected to government funding or regulation, the 
jobs tended to be more open to minorities, thereby lessening the hugely 
disproportionate poverty among African Americans and Latinos.
    The originators of the war on poverty were correct in several of 
their opening premises. In order to reduce poverty in the short and 
long terms, children's needs had to be met. Children need proper 
nutrition, health care, and education. Their parents had to have enough 
money to provide necessities and maintain a stable home environment. 
The best way to provide for children was for their parents to be 
employed, but when that was not possible or when wages were too 
intermittent and low, a range of supports was crucial for children's 
development.
    These assumptions remain true, but our investments have not been 
adequate to achieve our anti-poverty goals.
    More recent anti-poverty effects. Since 1973, economic growth has 
not been as broadly shared, and inequality has risen. The programs 
initiated in the war on poverty in early childhood education, community 
action, job training for youth and adults, and nutrition aid had some 
positive impacts, but their funding and scope was not large enough to 
offset larger economic forces that combined to reduce the value of 
men's wages. Aid to Families with Dependent Children originated in the 
earlier New Deal, not the 1960s, but its expanded use reduced the 
number of children living below half the poverty line (in 1995, AFDC 
lifted 2.4 million children out of such deep poverty). Its benefits 
were too low to lift people above the poverty line.
    A new recognition of the importance of combining work and income 
supports. Over time, anti-poverty policies have evolved in ways that 
have improved outcomes. The original war on poverty policies did not 
anticipate the need for ``income packaging''--combining income from 
earnings with public supports. As a consequence, many parents were 
forced either to subsist on inadequate cash assistance and food stamps 
or to combine low-paid work in the underground economy with public 
assistance. Starting in the 1990s, increasing emphasis on work led to 
expansion of the Earned Income Tax Credit, more ability for parents to 
combine earnings with TANF income legally, and improved access to food 
stamps for working families. In addition, expansion of Medicaid and the 
Children's Health Insurance Program helped families with earnings to 
get health care for their children.
    The Center on Budget and Policy Priorities has analyzed the anti-
poverty effectiveness of public supports that can be combined with 
earnings. While the official poverty surveys do not count food stamps 
(now called SNAP) or tax credits, the Center utilized the Supplemental 
Poverty Measure, an alternative analysis produced by the Census Bureau 
which does take these supports into account. In 2011, 40 million people 
were lifted out of poverty by the Earned Income Tax Credit, Child Tax 
Credit, SNAP, and Social Security. Social Security (which is counted in 
the official poverty measure) lifted 26 million people out of poverty; 
the tax credits raised 9.4 million out of poverty; and SNAP lifted 4.7 
million above the poverty line.
    Improvements in SNAP and the tax credits have allowed these public 
benefits to replace losses in the value of the minimum wage for some 
families. As the Center on Budget points out, a full-time minimum wage 
worker in 1983 earned 66 percent of the poverty line for a family of 
four; after taking into account payroll taxes and the value of the EITC 
then, combined income edged up only to 67 percent of the poverty line. 
The current minimum wage with full-time hours only covers 61 percent of 
the poverty line, but the larger benefits of the EITC and the Child Tax 
Credit combined with the earnings add up to 87 percent of the poverty 
line.
    SNAP also provides more help to working families than it used to. 
About 30 percent of recipients are working (and more than 40 percent of 
recipients live in households where someone is working) at one point in 
time (in 2011). Most of the remaining recipients are elderly, disabled, 
or children. Thirty years ago, fewer than one-quarter of households 
with children receiving food stamps included a worker; now that 
proportion has doubled. Looking at multi-year work histories, the 
Center on Budget and Policy Priorities found that 87 percent of 
households with children receiving SNAP include an adult who either 
worked in the prior year or who will work in the following year.
    SNAP's greater use among working families is not an accident. There 
was bipartisan recognition that working families faced many roadblocks 
in applying for and renewing eligibility for food stamps. The George W. 
Bush Administration was effective in streamlining these procedures, and 
their lead has been followed by the current Administration.
    What else is needed. Clearly, the economy is not producing enough 
jobs, and especially not enough for workers without much education. 
This has been reported on and analyzed at great length. We point to the 
evidence that even in the second half of the 1960s, when manufacturing 
and overall economic growth was strong, government played a significant 
role in bolstering that growth, both through infrastructure 
development, and by income supports like Social Security that increased 
purchasing power. Now, when the private sector is not creating jobs in 
sufficient numbers on its own, it is even more important for the public 
sector to take steps that will bring more jobs to low-income people and 
communities and to raise pay. Among the steps the federal government 
should take:
    <bullet> Fund Pathways Back to Work: Legislation introduced by Rep. 
Miller (H.R. 2721) would provide $12.5 billion for subsidized jobs 
targeted to low-income people, as well as training and summer and year-
round jobs for youth. This is a proven approach well-targeted to help 
people without much work experience or training.
    <bullet> Raise the minimum wage: Proposals to increase the minimum 
wage to $10.10/hour should be adopted. As noted above, full time work 
at the current minimum wage, even with the refundable tax credits, is 
not enough to lift a family of four out of poverty.
    <bullet> Adopt job creation initiatives similar to the President's 
proposals: The President has proposed investing in infrastructure 
improvements, green jobs, and other initiatives. We support seeking 
revenue from closing corporate tax loopholes as one option to pay for 
such work initiatives, but believe that the President gives away far 
too much revenue to permanent corporate income tax reductions to make 
this a fair bargain.
    <bullet> Invest in care-giving occupations: The Affordable Care Act 
will require more health care personnel to meet the demand from newly 
insured people. These jobs will be important opportunities for low-
income individuals, and we should maximize opportunities through 
training and development of career ladders in the health care sector. 
Similarly, home care and home health workers are a growth area, and 
training and career ladders should help more workers get decent pay and 
benefits. The Administration should issue regulations it is now 
considering to improve wages for home care workers. Further, the 
President's early childhood initiative can provide more good jobs that 
low-income people can be helped to qualify for.
    <bullet> Government should be a model employer: Government 
employees and workers hired through government-paid contractors should 
receive decent pay and benefits. Government should not contract with 
private firms in order to ratchet down pay and benefits.
    <bullet> Sequestration should end: We should be investing in Head 
Start, education, training, youth services, affordable housing, public 
health programs, and much more. We should be protecting low-income 
people through WIC and meals for seniors. Instead, we are cutting these 
programs. This threatens low-income people's ability to rise out of 
poverty and reduces the number of jobs. Further, sequestration should 
not be replaced by slashing SNAP, Medicaid, refundable tax credits, 
unemployment benefits, or other mandatory programs that are vital parts 
of the safety net.
    <bullet> Return to the early focus on community-building: The war 
on poverty created community action agencies to bring together 
community residents, municipal governments, educators, labor, and 
business to promote rebuilding, jobs, and opportunities for children 
and youth. That community focus was correct then, and should be built 
upon now. Slashing the Community Development Block Grant or the 
Community Services Block Grant is exactly the wrong approach. Funding 
Promise Neighborhoods is a good idea. These programs should be 
augmented by funding for public jobs specially targeted for low-income 
communities.
    <bullet> Increase revenues from fair sources: Upper-income 
individuals and profitable corporations can afford to pay a greater 
share towards creating jobs and reducing poverty. The Senate budget 
resolution's proposed $975 billion in new revenues over 10 years is a 
reasonable proposal that should be supported by both House and Senate.
    What is not needed: The House budget resolution is based on the 
premise that economic growth will occur most strongly through less 
government spending, either for the safety net or for job creation 
investments. The budget proposes giant additional tax cuts almost 
exclusively targeted to upper-income individuals and corporations. 
There is no evidence that these proposals will produce shared economic 
growth. We now have effective tax rates at historically low levels for 
individuals and corporations. We also see record corporate profits. 
Virtually all the economic growth since the recession has flowed to the 
highest-income individuals and profitable corporations. Poverty has 
risen and the middle class has lost ground. More largesse to those at 
the top will further widen the gap between the rich and everyone else, 
and will make it harder to alleviate poverty.
    Further, further cuts to SNAP, Medicaid, refundable tax credits, 
housing, unemployment insurance, public health, education, child care, 
and so many other domestic programs will increase poverty, and cause 
harms to children that will make it harder for them to overcome poverty 
in the decades to come. As our population ages, we more than ever need 
to benefit from the talents of every young person; we can ill afford to 
close off their opportunities to contribute.
    The Coalition on Human Needs: CHN is made up of groups representing 
service providers, communities of faith, labor, civil rights, and other 
advocates and policy experts concerned with meeting the needs of low-
income and vulnerable people through effective federal investments. CHN 
convenes the SAVE for All campaign (Strengthening America's Values and 
Economy for All), which has brought together close to 2,000 
organizations nationwide in calling for protecting low-income and 
vulnerable people in budget and deficit reduction plans, incorporating 
job creation in such plans, more revenues from fair sources in order to 
make the investments we need responsibly, and responsible savings, such 
as in Pentagon spending.

    [Additional submission of Ms. Moore follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional submission of Sister Campbell, ``Priorities for 
a Faithful Budget,'' may be accessed at the following Internet 
address:]

         http://faithfulbudget.org/wp-content/uploads/2012/03/
                 Priorities-for-a-Faithful-Budget1.pdf

    [Whereupon, at 3:13 p.m., the committee adjourned subject 
to the call of the Chair]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
